<html>
<title> - MISCELLANEOUS WATER AND POWER LEGISLATION</title>
<body><pre>[Senate Hearing 110-152]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-152
 
               MISCELLANEOUS WATER AND POWER LEGISLATION
=======================================================================
                                HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

           S. 300                         S. 1522 
           S. 1258                        H.R. 1025
           S. 1477 

                                     

                               __________

                             JULY 26, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources

                     U.S. GOVERNMENT PRINTING OFFICE

38-032 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           BOB CORKER, Tennessee
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Water and Power

                  TIM JOHNSON, South Dakota, Chairman

BYRON L. DORGAN, North Dakota        BOB CORKER, Tennessee
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                JOHN BARRASSO, Wyoming
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
JON TESTER, Montana                  JIM BUNNING, Kentucky

   Jeff Bingaman and Pete V. Domenici are Ex Officio Members of the 
                              Subcommittee

























                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allard, Hon. Wayne, U.S. Senator from Colorado...................     5
Benemelis, Perri, on Behalf of Herbert R. Guenther, Director, 
  Arizona Department of Water Resources, Phoenix, AZ.............    34
Caan, George, Executive Director, Colorado River Commission of 
  Nevada, Las Vegas, NV on behalf of Colorado River Energy 
  Distributors Association (CREDA)...............................    26
Cantwell, Hon. Maria, U.S. Senator from Washington...............     3
Corker, Hon. Bob, U.S. Senator from Tennessee....................     6
Kennedy, Gary, Superintendent, Mancos Water Conservancy District, 
  Mancos, CO.....................................................    30
Kyl, Hon. Jon, U.S. Senator from Arizona.........................     4
McDaniel, Shannon, Secretary/Manager, South Columbia Basin 
  Irrigation District, National Water Resources Association, 
  Pasco, WA......................................................    24
Salazar, Hon. Ken, U.S. Senator from Colorado....................     7
Smith, Hon. Gordon H., U.S. Senator from Oregon..................     5
Thalacker, Marc, Manager, Three Sisters Irrigation District, on 
  Behalf of Oregon Water Resources Congress, Salem, OR...........    20
Todd, Larry, Deputy Commissioner for Policy, Administration and 
  Budget, Bureau of Reclamation, Department of the Interior......     8
Wilson, Everett, Deputy Assistant Director for Fisheries, Fish 
  and Wildlife Service, Department of the Interior...............    14
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    41

                              Appendix II

Additional material submitted for the record.....................    51


               MISCELLANEOUS WATER AND POWER LEGISLATION

                              ----------                              


                        THURSDAY, JULY 26, 2007

                               U.S. Senate,
                   Subcommittee on Water and Power,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ken Salazar 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden [presiding]. I call to order this hearing 
before the Water and Power Subcommittee. Senator Salazar will 
be chairing this subcommittee hearing, but it is a hectic day, 
even by Senate standards, so he is on his way.
    It's my pleasure to be able to welcome everyone to this 
afternoon's hearing. The subcommittee will have two panels of 
witnesses here today. A number of them have traveled from 
across the country to be able to express their views, and we 
thank them for their efforts.
    The five bills that are before the subcommittee today are 
S. 300, sponsored by Senators Kyl, Reid, Feinstein, and Ensign, 
authorizing the lower Colorado River Multi-species Conservation 
Program; S. 1258 sponsored by Senators Cantwell, Wyden, Smith, 
Allard, and Hatch, which amends the Reclamation Safety of Dams 
Act to address the repayment of costs incurred for site 
security at reclamation facilities; S. 1477, a bill that 
Senator Salazar is sponsoring with Senator Allard, directing 
reclamation to carry out the Jackson Gulch Rehabilitation 
Project in Colorado; S. 1522 that I've introduced along with 
Senators Smith, Craig, Murray, Cantwell, Backus, Crapo, and 
Tester--the entire Northwest delegation--which reauthorizes the 
Fisheries Restoration and Irrigation Mitigation Act; and H.R. 
1025, which authorizes the reclamation to study the feasibility 
of a water supply and conservation project in the Republican 
River Basin, in Kansas and Nebraska.
    We're going to have Senator Allard make his opening 
statement because it's going to be a bit hectic. If I can ask 
my friend from Colorado to indulge me just for another minute 
or two. I'll be able to give my statement on S. 1522 and then 
we'll want to recognize our friend from Colorado.
    I've been joined by the entire Northwest Senatorial 
delegation in supporting S. 1522, the Fisheries Restoration and 
Irrigation Mitigation Act. We're also very pleased to be able 
to welcome back here, Mr. Mark Thalacker, manager of the Three 
Sisters Irrigation District in Sisters who is going to be 
speaking on behalf of the Oregon Water Resources Congress, 
about the many benefits of the program.
    This legislation extends a home-grown common-sense win-win 
effort that has a proven track record in helping to restore the 
salmon runs in the Pacific Northwest. Since 2001, dollar for 
dollar, the fish screening and fish passage facilities funded 
by this program are among the most cost-effective uses of 
public and private fisheries restoration dollars. Over the past 
6 years, more than $10 million in Federal funds has leveraged 
nearly $20 million in private and local funding. This money has 
protected more than 550 river miles of fish habitat and species 
throughout the Pacific Northwest.
    The program has wide support, including from Oregon 
Governor Ted Kulongoski. I would ask unanimous consent to 
include his letter in support of the bill in our record. 
Without objection that will be so ordered.
    Community leaders, fishery managers, agriculture producers, 
and irrigators and environmental organizations, the National 
Audubon Society, American Rivers, and Oregon trout all 
recognize the benefit of this program. When he was Governor of 
Idaho, our Interior Secretary Dirk Kempthorne also spoke 
strongly in behalf of the program.
    This year, for the first time, Interior included $1 million 
in its fiscal year 2007 work plan to fund the program. Up until 
now, every Federal dollar for the program has been added by 
Congress and this is a very encouraging sign that the 
administration's attitude toward the program is changing. So, 
we are looking forward to passing the legislation and working 
with Secretary Kempthorne on it.
    I would ask unanimous consent to have the rest of my 
remarks put into the record.
    We have been joined by our friend from Tennessee, Senator 
Corker. I think what I'd like to do, with your leave, Senator 
Corker--Senator Allard was here. If he could make his 
statement, we'll hear from Senator Allard and then we'll go 
right to you.
    [The prepared statements of Senators Wyden, Cantwell, Kyl, 
and Smith follow:]
     Prepared Statement of Hon. Ron Wyden, U.S. Senator From Oregon
    I'm pleased to be joined by all of my friends and fellow Senators 
from the Northwest--our acting Subcommittee Chairman, Senator Cantwell; 
Senators Gordon Smith, Larry Craig, Patty Murray, Max Baucus, Jon 
Tester, and Mike Crapo in supporting S. 1522, the Fisheries Restoration 
and Irrigation Mitigation Act of 2007--a bill to reauthorize the FRIMA 
(pronounced ``freema'') program, as we call it.
    Let me also recognize and welcome back Mr. Marc Thalacker, Manager 
of the Three Sisters Irrigation District in Sisters, Oregon, who will 
be speaking today on behalf of the Oregon Water Resources Congress 
about the many benefits of the FRIMA program.
    Our legislation extends a homegrown, common-sense, win-win program 
that has a proven track record in helping to restore Northwestern 
salmon runs and protecting other fish species in Oregon, Washington, 
Idaho and Western Montana.
    Since 2001, dollar-for-dollar, the fish screening and fish passage 
facilities funded by FRIMA are among the most cost-effective uses of 
public and private fisheries restoration dollars.
    Over the past six years, more than $10 million in federal funds has 
leveraged nearly $20 million in private, local funding. This money has 
protected more than 550 river miles of fish habitat and species 
throughout the Northwest.
    This program has wide support, including from Oregon Governor 
Kulongowski. Community leaders, fisheries managers, agricultural 
producers and irrigators, and environmental organizations--the National 
Audubon Society, American Rivers, and Oregon Trout--all recognize the 
benefit of this program.
    While he was Governor of Idaho, Interior Secretary Dirk Kempthorne 
said, ``. . . the FRIMA program serves as an excellent example of 
government and private land owners working together to promote 
conservation. The screening of irrigation diversions plays a key role 
in Idaho's efforts to restore salmon populations while protecting rural 
economies.'' And this year, for the first time, Interior included a 
million dollars in its FY07 work plan to fund FRIMA. Up until now, 
every federal dollar for FRIMA has been added by Congress, and I hope 
this is sign that the Administration's attitude toward this program is 
truly changing.
    I look forward to working with Secretary Kempthorne and with all of 
our colleagues here on the Committee to reauthorize this important 
program.
    Finally, I want to thank Sen. Cantwell for her leadership in 
drafting S. 1258, a bill to allocate security costs at Bureau of 
Reclamation dams, which I have co-sponsored.
    Water and power users of these projects agree that they ought to 
pay their fair share of security costs, but believe that these costs 
are no different than other operations and maintenance costs and the 
15% allocation should apply to security just as it does to these other 
costs. And that's what this bill would do.
                                 ______
                                 
Prepared Statement of Hon. Maria Cantwell, U.S. Senator From Washington
                  site security costs at federal dams
    Mr. Chairman, I am pleased that the Water and Power Subcommittee is 
holding this hearing on S. 1258 that is important legislation to ensure 
that water and power customers across the West are afforded fairness 
and certainty in paying for security costs at federal dams.
    I would like to specifically welcome Shannon McDaniel from Pasco, 
Washington. Mr. McDaniel is Manager of the South Columbia Basin 
Irrigation District and is testifying for the National Water Resources 
Association today.
    Mr. Chairman, this legislation will expressly authorize the Bureau 
of Reclamation's program to enhance site security at federal dams. This 
legislation will also ensure appropriate Congressional oversight and 
provide certainty to water and power customers in terms of a fair, 
durable and equitable allocation of costs they will pay in the future.
    I introduced S. 1258 with my colleagues Senators Murray, Wyden, 
Hatch, Smith, and Allard to ensure that costs of enhanced security 
measures in this post-9/11 world that the Bureau of Reclamation seeks 
to recover from water and power customers are fairly allocated.
    Following the terrorist attacks of September 11, 2001, the Bureau 
of Reclamation undertook an aggressive program protect important 
Western, multi-purpose projects, including Grand Coulee Dam in 
Washington state.
    As multi-purpose projects, these dams not only provide clean, 
renewable energy, they also provide important flood control, water 
storage for irrigation, municipal and industrial users, and recreation 
and environmental mitigation benefits.
    Everyone agrees that it is important for Reclamation to act to 
protect our critical national infrastructure. The disagreement arises 
over who should pay for these enhanced security measures.
    Initially, the Commissioner of Reclamation agreed that protection 
of these important federal dams is in the national interest and, 
therefore, the costs of enhanced security measures should be a federal 
expense.
    But in 2005, Reclamation abruptly changed its position, probably 
because OMB forced the change, and decided to make water and power 
customers pay all the costs of increased guards and patrols. In Western 
states, this is currently about $20 million per year.
    This means about $5 million to the Pacific Northwest. And water and 
power customers are asked to shoulder all of these costs.
    I find this unfair to federal water and power customers and an 
irresponsible way to administer an important federal security program. 
I believe that Reclamation's original determination that these costs 
should be a federal obligation was the right decision.
    Everyone agrees that these critical dams must be protected because 
they are federal assets which provided benefits to entire regions of 
the country. But is it unfair to force water and power customers to pay 
100% of these enhanced security costs.
    These costs are then passed on to the end-use customer, many of 
which are farming families with limited incomes.
    Some wholesale customers are willing to pay for a portion of these 
costs, as long as there is transparency and certainty in the program. 
They have a right to know where their hard earned money is being spent 
and why.
    In a similar Reclamation program for these federal projects, 
authorized under the 1978 ``Safety of Dams Act'', water and power 
customers pay 15% of the costs for protecting the structural safety of 
federal dams.
    The Safety of Dams cost share formula means that water and power 
customers pay a reasonable share of the costs and have more certainty 
about what they must pay for the structural safety of dams.
    S. 1258 extends the same reasonable cost share allocation and 
certainty to Reclamation's enhanced security costs by applying the 
cost-sharing formula from the Safety of Dams Act to future capital and 
operation and maintenance costs for site security.
    S. 1258 also expressly authorizes the site security program and 
requires Reclamation to provide annual reports to Congress on:

          a) site security activities undertaken for each fiscal year;
          b) a breakdown of those costs that indicates which are for 
        pre-9/11 activities and which are for post-9/11 measures; and
          c) a five-year planning horizon that gives Congress and 
        customers a look at anticipated costs and expenditures.

    I think the compromise contained in S. 1258 is a fair one and I 
hope we can resolve this issue this year. I understand similar 
legislation has been introduced in the House (H.R. 1662) and reported 
favorably by the House Water and Power Subcommittee. I hope this 
subcommittee can do the same.
    I look forward to hearing today's testimony from our witnesses.
                                 ______
                                 
     Prepared Statement of Hon. Jon Kyl, U.S. Senator From Arizona
s. 300--the lower colorado river multi-species conservation program act
    Mr. Chairman, Members of the Subcommittee, thank you for holding 
this hearing on S. 300, the Lower Colorado River Multi-Species 
Conservation Program Act. I introduced this bill, along with Senators 
Ensign, Feinstein, and Reid, in January 2007, to protect and implement 
the Lower Colorado River Multi-Species Conservation Program. This bill 
is nearly identical to legislation I introduced late last year with 
Senators Ensign, Feinstein, and Reid.
    The Lower Colorado River Multi-Species Conservation Program, 
otherwise known as MSCP, is a comprehensive, joint effort among 50 
federal and non-federal entities in Arizona, California, and Nevada 
whose purposes are to: (1) protect fish and wildlife along the lower 
Colorado River while ensuring the certainty of existing river water and 
power operations; (2) protect threatened and endangered wildlife under 
the Endangered Species Act; and (3) prevent the listing of additional 
species on the lower Colorado River.
    To accomplish these goals, the MSCP will create more than 8,100 
acres of riparian, marsh, and backwater habitat and implement 
additional measures to protect 26 endangered, threatened, and sensitive 
species. The program covers approximately 400 miles, including the 
full-pool elevations of Lake Mead to the United States-Mexico Southerly 
international Boundary.
    The program costs will be spread over 50 years, and split fifty-
fifty between the federal government and the non-federal entities 
covered by MSCP. Arizona and Nevada will each bear 25 percent of the 
non-federal costs and California will bear 50 percent of the non-
federal costs.
    The Secretary of the U.S. Department of the Interior approved the 
program on April 2, 2005, after nearly a decade of complex negotiations 
and considerable planning efforts by federal, state, tribal, and local 
officials, and water and power customers.
    Although implementation of the program began in April 2005 under 
the Department of the Interior's existing authority, legislation is 
needed to protect the substantial financial commitments that the non-
federal parties are making to species protection. To that end, the bill 
(1) expressly authorizes appropriations to cover the federal share of 
the program costs; (2) directs the Secretary of the Interior to manage 
and implement MSCP in accordance with the underlying program documents; 
and (3) provides a waiver of sovereign immunity to allow the non-
federal parties to enforce, if necessary, the underlying program 
documents. The waiver, however, does not allow an action to be brought 
against the United States for money damages.
    Late in 2006, the House Committee on Resources, Subcommittee on 
Water and Power held a comprehensive field hearing in Arizona on the 
MSCP Act. Unfortunately, Congress adjourned before it could take action 
on the bill. Since then on July 24, 2007, the House Water and Power 
Subcommittee held another hearing on the legislation. Both hearings 
highlighted the vital importance of the program to Colorado River users 
in Arizona, California, and Nevada, and to endangered and threatened 
species along the lower Colorado River.
    Given the bipartisan support for S. 300, I hope that the Committee 
will work with me and the bill's cosponsors in securing its swift 
passage in the 110th Congress.
                                 ______
                                 
  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator From Oregon
    Mr. Chairman, I appreciate your holding this legislative hearing 
today on several bills pending before the subcommittee. I am a 
cosponsor of two of the bills being heard today, and look forward to 
working with my colleagues to get these bills enacted. I want to 
welcome Marc Thalacker of the Three Sisters Irrigation District in 
Sister, Oregon, who is here to testify today on behalf of the Oregon 
Water Resources Congress.
    The first bill that I have cosponsored is S. 1522, the Fisheries 
Restoration and Irrigation Mitigation Act of 2007. This bill would 
reauthorize an important program in the Pacific Northwest that has 
provided federal funding, on a cost-shared basis, for the screening of 
water diversions and other facilities to protect fish in our region.
    There are numerous fish runs listed as either threatened or 
endangered throughout the Pacific Northwest. The health of these runs 
affects the commercial fisheries not only off the West Coast, but for 
Canadian and Alaskan fishermen as well.
    The FRIMA program was originally authorized in 2000. It has been an 
important partnership that has assisted numerous Oregon irrigation 
districts to construct fish screens and fish passage facilities. Funds 
for Oregon projects have generally been leveraged so that the non-
federal cost share has been much larger than required under the 
program. Participation in the program is strictly voluntary.
    Reauthorization of the FRIMA program is supported by the Oregon 
Water Resources Congress, as well as the Idaho Water Users Association 
and the Washington State Water Resources Association. I am glad that 
the Administration's testimony supports the goals of the program.
    The second bill before the subcommittee today that I have 
cosponsored is S. 1258, relating to site security costs at Bureau of 
Reclamation facilities. In the post-September 11th era, the Bureau of 
Reclamation has undertaken a number of site security measures at the 
federal dams under its management. Reclamation has taken the position 
that facility fortifications should be non-reimbursable expenditures, 
but that project beneficiaries should pay for all of the increased 
security operation and maintenance (O&M) costs. There are no cost 
control measures on this program, which has been an on-going concern 
for Reclamation's water and power customers. This bill would put the 
site security program under the Reclamation Safety of Dams program, 
which has well-established reimbursement and consultation requirements.
    Again, Mr. Chairman, thank you for convening this hearing. I look 
forward to the testimony from today's witnesses.

    Senator Wyden. Senator Allard.

         STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR 
                         FROM COLORADO

    Senator Allard. Senator Wyden, thank you very much for 
recognizing me. I am here to talk about S. 1477, which is an 
effort by both Senator Salazar and myself to improve water 
management in the State of Colorado.
    Mr. Chairman, thank you for holding this hearing today and 
thank you, Senator Corker, also for being here and allowing me 
to speak briefly on behalf of the bill to authorize the 
rehabilitation of the Jackson Gulch Project, which Senator 
Salazar and I are sponsoring together.
    I'd like to extend a special welcome to Gary Kennedy, who 
is also here to testify in support of this bill.
    As I'm sure you're aware, Mr. Chairman, many federally-
owned Bureau of Reclamation projects throughout the West are 
at, or past, their life expectancy and are in severe need of 
rehabilitation. While the cost of rehabilitation is generally 
one-half to one-third of the cost of replacing a project, this 
is more than many small rural communities can afford. The 
Bureau has maintained that rehabilitation equates to operations 
and maintenance, which in many cases is turned over to local 
operating agencies long ago.
    It seems to me however, that these two things are not the 
same. No matter how many oil changes or tune-ups you perform on 
a car, there comes a point where it's no longer serviceable. 
The same can be said of these water projects. Local entities 
have worked diligently over the years to care for and make 
repairs to these projects, but eventually they reach the end of 
their operational life and move, and more extensive help is 
needed, especially in light of ever increasing Federal water 
standards and ever-diminishing water supplies. I believe that 
the Federal Government should play a role in assisting local 
communities in the rehabilitation of federally-built, 
federally-owned projects.
    The bill being discussed today is S. 1477. It would 
authorize the Secretary of Interior to participate in the cost-
sharing arrangement with the local water entity, the Mancos 
Water Conservancy District, to rehabilitate the canals and 
other water delivery infrastructure related to the project. 
Continued operation of this project is vital to the delivery of 
water to residents and agricultural interests in the Mancos 
Valley and to Mesa Verde National Park. It is important to 
note, under the provisions of this bill, operations and 
maintenance will continue to be the responsibility of the 
District.
    Again, thank you for holding this hearing, Mr. Chairman. I 
look forward to working with you, other members of the 
committee, and our colleagues in the full Senate to ensure that 
this important bill is given the opportunity to advance.
    Senator Wyden. Thank you, Senator Allard.
    Thank you for your patience as well, Senator Corker.
    Senator Allard. Thank you, Senator Corker, for yielding to 
me. I appreciate that very much.
    Thank you, Mr. Chairman.

          STATEMENT OF HON. BOB CORKER, U.S. SENATOR 
                         FROM TENNESSEE

    Senator Corker. Thank you much for being here. I know you 
have other business. Senator Wyden, Mr. Chairman, I've 
scratched out three times who was going to be chairman today. 
I'm glad it's finally you.
    Senator Wyden. We may have to go back to your original 
draft.
    Senator Corker. OK.
    It's a pleasure to be here with you today to discuss these 
five bills. I appreciate the explanation that's going to be 
before us.
    I would like to elaborate on two of the bills before us 
today. Let me address S. 1258, regarding the safety and 
security of our dams. First of all, I think all of you know 
that--and I talk a little differently than most of the folks 
who are going to be testifying today--I know most of these 
issues affect western areas of our country.
    Since 9/11 we've invested a substantial amount of time and 
money to ensure protection of these critical assets. S. 1258 
addresses a policy challenge of who should pay for the ongoing 
cost associated with the protection and security of these 
facilities.
    As the witnesses discuss this bill, I'd like to ask you 
provide any insight that you might have for someone like me 
who's in a little different part of the country, how the costs 
have been allocated by other Federal agencies. In particular, 
I'd love to hear how the administration witness would compare 
what's happening here, with the Bureau's program, with that 
which happens at the Tennessee Valley Authority. I'd just like 
to understand the differences there, if I could.
    Another challenge we are faced with now, and one that will 
be exacerbated in the future, is how to pay for the renovation 
and rehabilitation of hundreds of reclamation facilities 
through the western United States. The chairman's bill, S. 
1477, begins with this debate, and now we're back to the second 
chairman I thought might be here, Chairman Salazar. Good to see 
you, sir.
    I commend the chairman for raising this issue. It's a 
serious challenge. I would like for the witnesses from the 
administration to provide the committee a detailed list of all 
the projects--I know you can't do that today, but if you will 
after the testimony--of all the projects in need of 
rehabilitation now, and in the future. Because I realize this 
is going to present problems for us down the road. Please 
describe the timeline for addressing their rehabilitation and 
their estimated costs.
    With that, let's not delay any further. I think I may turn 
it over to our second chairman and see if he has any 
introductory comments.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar [presiding]. Thank you very much, Senator 
Corker.
    I apologize for being late. We were in a procedural road 
block, so to speak, on the Senate floor and I was trying to be 
helpful in straightening that up.
    Let me just take a moment before we call the witnesses up, 
and say that I'd like to take a moment to speak about a bill 
that's important to Colorado that's on the agenda today, and 
that's S. 1477. It's a bill that authorizes the funding for the 
Bureau of Reclamation to work with the Mancos Water Conservancy 
District to carry out a much-needed rehabilitation project on 
the Jackson Gulch canal system in Southwest Colorado.
    For us in the West, we know that water is the lifeblood of 
the West. We know that water is for drinking and whiskey, 
whiskey is for drinking and water is for fighting. I think 
that's the adage. So, when we talk about water we know its 
importance in the West.
    The Mancos Project, including the facilities under this 
bill, provide water for irrigated agriculture. The Project 
provides the municipal water supply for the Mesa Verde National 
Park, the town of Mancos, and the Mancos Rural Water Supply 
Company. The Jackson Gulch canal system has outlived its 
expected life and is now badly in need of rehabilitation. If 
the system experiences a catastrophic failure, agricultural 
losses of approximately $1.5 million annually will occur. The 
town of Mancos will suffer severe shortages and Mesa Verde may 
be without water during its peak visitation period and fire 
season.
    The people of Montezuma County have shown great patience 
with respect to the condition of the Mancos Project, but the 
situation is turning dire. The Federal Government could not 
afford to continue to ignore the need of this particular 
project and I hope that we can move forward to achieve better 
results in fixing this project.
    So with that, unless Senator Corker has other comments, 
we'll go ahead and call the administration witnesses. So we'll 
call the first panel.
    Before starting, I'd like to quickly note that the 
subcommittee has received additional written testimony on 
several bills that are before us today. That testimony, as well 
as the written submission of the witnesses here today, will be 
made a part of the official hearing record.
    The first panel consists of the administration's 
representatives. We have Larry Todd, who is the Deputy 
Commissioner of the Bureau of Reclamation. We also have Everett 
Wilson, who is a Deputy Assistant Director for Fisheries at the 
U.S. Fish and Wildlife Service. Both of them will be available 
to answer questions about the matters that are the agenda. 
Welcome to both of you.
    Mr. Todd, please provide us a brief summary of your written 
testimony. Following that we'll have a brief question and 
answer period and then move on to the second panel.

   STATEMENT OF LARRY TODD, DEPUTY COMMISSIONER FOR POLICY, 
ADMINISTRATION AND BUDGET, BUREAU OF RECLAMATION, DEPARTMENT OF 
                          THE INTERIOR

    Mr. Todd. Thank you, Mr. Chairman, members of the 
subcommittee. I am Larry Todd, Deputy Commissioner for Policy 
Administration and Budget at the Bureau of Reclamation. I'm 
pleased to be here alongside Fish and Wildlife Service to 
present the Department of the Interior's views on S. 300, S. 
1258, S. 1477, S. 1522, and H.R. 1025.
    The Department has submitted written statements on all five 
of these bills so I'll be brief.
    S. 300--the Department supports the goals of the lower 
Colorado River Multi-Species Program Act and is already working 
collaboratively with the States on the implementation of this 
program. The MSCP provides Endangered Species Act compliance 
for a list of current and future activities for six Federal 
agencies and 41 non-Federal parties. Twenty-six native species 
are protected by the MSCP, including six federally listed 
species.
    The MSCP helps ensure that the supply and delivery of water 
from the lower Colorado River is not compromised, due to the 
endangered species compliance issues. The administration has 
concerns with the language in sections 2, 4, and 5 of the bill. 
We stand ready to work with the committee to address these 
concerns.
    S. 1258 would amend the existing Safety of Dams Act and 
reduce the collection reimbursable costs that reclamation 
currently receives from customer for guards and patrols at 
project facilities. The Department opposes S. 1258. The 
Department opposition centers around four primary reasons.
    First, because the policy considerations inherent in 
amending the Safety of Dams Act. Second, because of the 
legislation's grouping, improperly we believe, of guard and 
patrol costs with fortification costs. Third, because S. 1258's 
negative impact on Reclamation's budget and the U.S. Treasury. 
Fourth, Reclamation believes S. 1258 could bring unintended 
results for our water and power customers.
    The change to 15 percent reimbursement for the total 
security budget could work to the detriment of customers in 
projects where future capital fortifications are planned. Those 
security fortifications beneficiaries would be particularly 
disadvantaged. Furthermore, Reclamation would be required to 
collect these costs under multiple repayment contracts that 
could extend as long as 50 years.
    Having said this, we believe that we have a good working 
relationship with the water and power users and have been 
working closely with them on costs, certainty, accountability, 
and transparency in our security program. Although we oppose 
this bill, we did not collect full reimbursement in fiscal year 
2007, but rather collected a mid-point of $14.5 million between 
fiscal year 2006 levels and full reimbursement. This was 
considered a step toward full reimbursement in 2008.
    S. 1477 would authorize the Department to fund repairs to 
the Mancos Project in Colorado, a rehabilitation effort 
referred to as the Jackson Gulch Rehabilitation Project. The 
Department can not support this bill because the project 
rehabilitation activity authorized under S. 1477 is currently 
the contractual obligation of the Mancos Water Conservancy 
District to fulfill its--pursuant to its standing operation 
maintenance contract.
    The subcommittee has also asked the Department for its 
views on S. 1522, the Fisheries Restoration and Irrigation 
Mitigation Act of 2007. This would reauthorize and amend the 
Fisheries Restoration and Irrigation Mitigation Act of 2000. As 
noted in the statement submitted for the hearing, the 
Department supports the goals of FRIMA, but has concerns with 
several provisions of the bill.
    Because administration of the FRIMA program is the 
responsibility of the U.S. Fish and Wildlife Service, I'm 
accompanied today by Everett Wilson, Deputy Assistant Director 
for Fisheries in the Fish and Wildlife Service, who's available 
to answer any questions you might have on S. 1522.
    Finally, H.R. 1025 would authorize a feasibility study in 
the Republican River Basin between Harlan County Lake in 
Nebraska and Milford Lake in Kansas. The Department can not 
support H.R. 1025. Reclamation was part of a planning process 
for the lower Republican River Basin Appraisal Report in 
January, 2005. The Department supports the goal of the States 
as project sponsors to develop a locally supported solution to 
the water needs in the basin that is economical, affordable, 
and environmentally sensible. However, funds have not been 
allocated to carry out the provisions of H.R. 1025 in the 
administration's budget for fiscal years 2007 and 2008. Given 
Reclamation's need to focus its limited resources, the 
Department can not support this bill.
    Mr. Chairman, thank you for the opportunity to testify 
today. This concludes my prepared remarks. I'm available to 
answer any questions.
    [The prepared statements of Mr. Todd and Mr. Wilson 
follow:]
   Prepared Statement of Larry Todd, Deputy Commissioner for Policy, 
  Administration and Budget, Bureau of Reclamation, Department of the 
                                Interior
                                 s. 300
    Mr. Chairman and members of the Subcommittee, my name is Larry Todd 
and am here today to present the views of the Department of the 
Interior on S. 300, a bill to authorize a habitat conservation program 
on the lower Colorado River in the States of Arizona, California, and 
Nevada.
    S. 300 authorizes the Lower Colorado River Multi-Species 
Conservation Program (LCR MSCP) and addresses issues associated with 
implementation of the program, including Colorado River water use, 
investment of appropriated funds, and the enforceability of program 
documents. The Lower Colorado River is a critical resource to citizens 
of the southwest. Maintaining compliance with the Endangered Species 
Act and avoiding water supply conflicts that have been occurring in 
other areas of the West is critical to the Department. The Department 
supports the LCR MSCP as well as the intent of S. 300 to further this 
program. However, the Department remains concerned about language in 
Section 2, 4(b), 5(c), and 5(d), which I will discuss below.
    The LCR MSCP was developed through a collaborative partnership with 
State leaders, local stakeholders and the Administration. This 
innovative program addresses the needs of threatened and endangered 
fish and wildlife on the lower Colorado River while assuring greater 
reliability of water deliveries and hydropower production. By meeting 
the needs of fish and wildlife listed under the Endangered Species Act, 
as well as preventing the need to list additional species, the plan 
provides greater certainty of continued water and power supplies from 
the river for Nevada, California and Arizona--and is designed to allow 
future water transfers within or among water users for a 50-year 
period.
    Reclamation began work to develop the LCR MSCP in 1997 and the 
program was formally approved and adopted by Secretary Norton in 2005. 
Under existing authorities, Reclamation has been implementing 
activities that are similar in nature to those described in this 
program since 1997 when the U.S. Fish and Wildlife Service issued a 
Biological Opinion for southwestern willow flycatcher, bony tail chub, 
Yuma clapper rail and razorback sucker fish. In 2001, Reclamation 
adopted interim Surplus Guidelines that define when water operations 
can provide surplus water to water users in the Lower Colorado River 
Basin, and the Biological Opinion for that action is being implemented 
through the LCR MSCP. With these and other actions, Reclamation has 
been meeting the requirements of the Endangered Species Act (ESA) for 
over a decade.
    Reclamation has spent a total of $9.5 million in FY2004 and FY2005, 
and spent $13 million in FY2006 from both Federal and non-Federal 
sources pursuant to the Program's Funding and Management Agreement with 
non-Federal entities. The LCR MSCP Steering Committee supports a budget 
of over $16 million for FY 2007. In addition to establishing over 270 
acres of new habitat along the Colorado River, Reclamation has stocked 
46,079 razorback suckers and 14,836 bony tail chub into the lower 
Colorado River since 2004. A significant amount of money has been spent 
on the research and monitoring needed to develop a sound scientific 
foundation for this 50-year program. Accomplishment reports for FY2004 
and FY2005 have been approved by the MSCP Steering Committee, reviewed 
by the U.S. Fish and Wildlife Service, and found to be in compliance 
with the LCR MSCP ESA Section 10 Permit. The FY2006 report has been 
approved by the Steering Committee and U.S. Fish and Wildlife Service. 
All reports can be found on Reclamation's website at www.lcrmscp.gov.
    In Reclamation's FY2008 budget, which is awaiting Congressional 
approval, $7 million has been identified from Federal funding for the 
program, with a $7 million match from non-Federal partners.
    Since presenting testimony on HR 5180 last year, the Department is 
pleased to report progress toward resolving issues surrounding section 
3(b). As written, this Section would direct the Secretary to enter into 
an agreement with the States of Arizona, California and Nevada 
providing for the use of Colorado River water specifically for habitat 
creation and maintenance purposes. The Department believes that through 
existing contract terms, willing seller transactions, and current 
policies, Reclamation can utilize Colorado River (and non-Colorado 
River) water to implement the program. However, Reclamation has made 
progress with our funding partners in the Lower Basin States to develop 
an agreement acceptable to all parties on the use of Colorado River 
water for program purposes. Such an agreement could facilitate program 
implementation, and we look forward to continuing productive efforts 
with our partners on this proposed agreement.
    We do have a couple of concerns with provisions contained in S. 
300. The geographic definition of the Lower Colorado River in section 2 
should be clarified to match that contained in the MSCP Program 
Documents. The Administration cannot support the language in section 
4(b) of this bill allowing the Secretary to invest appropriated moneys 
that are not required to meet current program expenditures. Investing 
appropriations provides additional monies to finance a governmental 
purpose outside of the normal appropriations process.
    We are also concerned about section 5(c), which addresses judicial 
review of program documents. We note that this provision has been 
modified from the language introduced in the last session of Congress, 
and that language has been added clarifying that the United States 
would not be liable for claims for money damages. Nevertheless, we have 
been advised by the Department of Justice and we are concerned that 
this provision could expand Federal litigation exposure in significant 
respects and open the door for judicial intrusion into administrative 
decision making. We would appreciate the opportunity to continue to 
work with the committee to address our concerns regarding section 5(c).
    Section 5(d) seeks an explicit exemption from the Federal Advisory 
Committee Act. The Department believes that this exemption is not 
necessary as the program was determined by the Director of the U.S. 
Fish and Wildlife Service to be an Ecosystem Recovery and 
Implementation Team (ECRIT) pursuant to section 4(f)(2) of the ESA, 
thereby making the LCR MSCP Steering Committee exempt. Therefore, we 
believe section 5(d) is superfluous and we recommend deleting it.
    The Department already has clear authorities to administer this 
program under existing statutes, and Reclamation began actively 
implementing the full LCR MSCP program in 2005. Through implementation 
of this program, the likelihood of a water conflict on the lower 
Colorado River is reduced.
    The Department supports the LCR MSCP and will continue to work with 
interested stakeholders that seek to enhance the program. Thank you for 
the opportunity to comment on this legislation. We look forward to 
working with you on the various concerns we have. I am happy to take 
any questions.
                                s. 1258
    Mr. Chairman and Members of the Subcommittee, I am Larry Todd, 
Deputy Commissioner of the Bureau of Reclamation. I am pleased to be 
here today to present the Department of the Interior's views on S. 
1258, legislation to amend the Reclamation Safety of Dams Act and 
redirect reimbursable costs for dam safety activities. The Department 
opposes S. 1258, as introduced.
    S. 1258 would make major changes to the process and revenues used 
by Reclamation to secure its facilities resulting in a loss of receipts 
to the Treasury. This proposed legislation addresses two components of 
Reclamation's site security program: (1.) capital investment (mainly 
facility fortification) and (2.) operation and maintenance (O&M), which 
consists mainly of guards and patrol functions. Currently, Reclamation 
treats security-related capital investment as non-reimbursable costs, 
and security-related O&M expenses as project costs subject to 
reimbursement based on project cost allocation. S. 1258 would change 
this methodology, eliminating the distinction between capital 
investment and O&M costs so that Reclamation would be required to treat 
85% of the capital investment and O&M security costs as non-
reimbursable, while the remaining 15% would be recovered from the 
reimbursable project purposes.
    Reclamation understands that the impetus for this legislation is 
concern over increased security related costs incurred for all Federal 
facilities after September 11, 2001. However, our agency has been and 
remains committed to working with our customers and with Congress to 
ensure fair, consistent and efficient policies related to the treatment 
of these costs. The Department does not believe that the changes 
instituted under S. 1258 would be a positive step in this direction.
    As explained in reports submitted by Reclamation to Congress in May 
2005 and February 2006, Reclamation distinguishes capital costs of 
security-related fortifications from security-related O&M costs. Since 
the beginning of increased security levels in fiscal year 2002, 
Reclamation has treated security-related capital investment as non-
reimbursable. From fiscal year 2002 through the end of fiscal year 
2007, for example, Reclamation will have funded over $66 million in 
fortification costs, none of which has been passed on to customers.
    Treatment of post-9/11 O&M (guard and patrol) costs has been 
different, however. Early on, when security was increased at 
Reclamation facilities immediately after 9/11, Reclamation took the 
position that while these are clearly O&M costs, until a stable budget 
pattern emerged, and until customers had sufficient time to make the 
necessary adjustments to their planning and budgets, these costs should 
be non-reimbursable. Therefore, from FY 2002 through FY 2004, 
Reclamation's budget proposals called for post 9/11 security-related 
O&M costs to be treated as nonreimbursable.
    However, in its FY 2005 and all subsequent budget proposals, 
Reclamation returned to the pre-9/11 practice of treating security-
related O&M costs as reimbursable by project allocation. Report 
language which accompanies the FY 2005 Energy and Water Development 
Appropriation, however, directed Reclamation not to begin reimbursement 
in FY 2005, and additionally, provide a report to Congress on the 
delineation of planned reimbursable costs. Later, Congress' FY 2006 
appropriations report language limited security-related O&M 
reimbursement to $10 million out of total costs of $20.9 million in FY 
2006.
    Reclamation's FY 2007 budget proposal anticipated total security-
related O&M guard costs of $20.9 million. Of that amount, $2 million is 
allocated to non-reimbursable project purposes and requires 
appropriations. Reclamation anticipated full reimbursement of the 
remaining $18.9 million, of which approximately $11.6 million is in up-
front funding not requiring appropriations, and approximately $7.3 
million would be repaid to the Treasury and requires appropriations. 
However, because a Continuing Resolution in FY 2007 left unanswered the 
reimbursement amounts for the current fiscal year, Reclamation has 
moved to collect $14.5 million as a mid-point between the $10 million 
cap in FY 2006 and the full $18.9 million we expect to be reimbursable 
in FY 2008.
    Under S. 1258, instead of the $18.9 million future annual 
reimbursement Reclamation currently anticipates, Reclamation would 
instead receive only 15% of roughly $33.1 million in total security-
related O&M guard and fortification costs, or at most, about $5 million 
each year depending upon the structure of repayment. This would result 
in an additional financial burden to the United States of about $13.9 
million per year in reduced reimbursement. Up-front funding would be 
reduced by approximately $9.7 million annually and Reclamation would 
need additional appropriations in order to carry out planned security 
activities.
    Reclamation believes this legislation could bring unintended 
results for Reclamation water and power customers. While the change to 
15% reimbursement of security-related O&M costs would benefit some 
customers, the change to 15% reimbursement of currently non-
reimbursable security-related capital costs would work to the detriment 
of customers in projects where future capital fortification 
expenditures are planned. Water and power customers of projects whose 
security fortifications were lower in priority and therefore not 
completed prior to the bill's enactment would be particularly 
disadvantaged. Furthermore, Reclamation would be required to collect 
these costs under multiple repayment contracts that could extend as 
long as 50 years.
    Indeed, what is less certain are the future costs for facility 
fortifications that Reclamation's water and power customers would 
absorb as reimbursable. The total cost of internally-approved 
fortifications for FY 2007 and future years is $35.4 million ($78.8 
million minus the $43.4 million that was spent through FY 2006), and 
this figure does not include potentially significant additional 
fortification activities still under study. Under S. 1258, 15% of these 
fortification costs would become reimbursable by customers.
    Reclamation has met with its customers frequently in the past 
several years on this issue, and we understand and share our 
contractors' desire for stable, predictable security assessments. We 
recognize that certainty, accountability, and transparency are 
important in the financing of this program. However, we believe that 
the site security program is now sufficiently established, and the 
benefits to contractors is sufficiently clear, so that reimbursable 
costs for our customers are adequately quantified, fairly allocated and 
understood in the ratepaying community.
    Reclamation is interested in working with the subcommittee to 
address its customers' concerns in the administration of the security 
program. However, S. 1258 does not provide a workable solution to 
address those concerns. Mr. Chairman, this concludes my testimony. I am 
pleased to answer any questions the subcommittee may have.
                                s. 1477
    Mr. Chairman and Members of the Subcommittee, my name is Larry 
Todd, and I am Deputy Commissioner at the Bureau of Reclamation. Thank 
you for the opportunity to appear today to present the Administration's 
views on S. 1477, a bill to authorize funding for repair to the Mancos 
Project (Project) and referred to as the Jackson Gulch Rehabilitation 
Project (Rehabilitation). This bill would require that 80% of the costs 
of project rehabilitation activity that would be authorized under this 
bill's provisions be borne by taxpayers. Project rehabilitation is 
currently the contractual obligation of the Mancos Water Conservancy 
District (District) to fulfill pursuant to its standing O&M contract. 
Relieving the District of this obligation would set a precedent for 
other projects across the country in need of rehabilitation. For these 
reasons, the Administration opposes this bill.
    The Project is located in southwestern Colorado near Mancos, 
consisting of a 10,000 acre-foot reservoir, an inlet canal, and an 
outlet canal. This Project provides supplemental irrigation water for 
approximately 13,746 acres of irrigated farmland. Additionally, this 
project provides municipal and industrial (M&I) water for the Town of 
Mancos and the surrounding rural area, and to Mesa Verde National Park.
    The Project was completed in 1948. During the twenty-year period 
from 1942 to 1962, the District paid Reclamation in advance for O&M 
costs for Project facilities. However, in 1962, responsibility for O&M 
of the facilities was fully transferred to the District as provided for 
in the Repayment Contract. Title to Project facilities remains with the 
United States.
    The proposed legislation would authorize $6,452,311 for the federal 
share of the cost of rehabilitating the 59-year old Project. This 
amount represents 80% of the costs of rehabilitation. Reclamation has 
previously assisted the District in cost estimates for the new work and 
has also assisted in reviewing their current project needs for a long 
term rehabilitation plan. The District has completed a study through a 
private engineering firm to assess the Project needs and to prepare a 
study for the repair/replacement of facilities. The requested funds 
appear sufficient to make the needed repairs and improvements, as 
outlined in the District's plan.
    Reclamation agrees that there is a need for rehabilitation of the 
Project. Due to its age, major rehabilitation is needed on the inlet 
and outlet canals and associated structures. Delivery of agricultural 
and M&I water could be affected if these repairs are not completed. The 
District, however, is solely responsible for the operation, 
maintenance, and replacement of these facilities, pursuant to their 
contract and should not be relieved of that obligation.
    Mr. Chairman, this concludes my testimony. I am pleased to answer 
any questions.
                               h.r. 1025
    Mr. Chairman and Members of the Subcommittee, my name is Larry 
Todd, and I am Deputy Commissioner of the Bureau of Reclamation. I am 
pleased to provide the Administration's views on H.R. 1025, legislation 
authorizing a feasibility study to improve water management in the 
Republican River Basin between Harlan County Lake in Nebraska, and 
Milford Lake in Kansas.
    Reclamation was included in the early stages of the project 
planning process that resulted in completion of the Lower Republican 
River Basin Appraisal Report in January 2005. We support the goal of 
the States, as project sponsors, to develop a locally-supported 
solution that is economical, affordable and environmentally sensible. 
However, funds have not been allocated to carry out the provisions of 
H.R. 1025 in the Administration's budgets for fiscal years 2007 and 
2008. Given Reclamation's need to focus its limited resources on 
maintaining its existing infrastructure and completing on-going 
construction projects, the Administration cannot support this bill.
Background
    Reclamation has been working with the States on Republican River 
Compact water supply issues for many years. There is some important 
background information that I would like to share with you today to 
provide context for consideration of this legislation.
    In 1998, Kansas filed a U.S. Supreme Court lawsuit against Nebraska 
and Colorado because of their belief that Nebraska was using more than 
its allocation of water under the Republican River Compact. The three 
States negotiated a settlement that was approved by the United States 
Supreme Court in May 2003.
    In accordance with the Final Settlement Stipulations, the States 
agreed to pursue in good faith, and in collaboration with the United 
States, system improvements in the basin, including measures to improve 
the ability to utilize the water supply below Hardy, Nebraska, on the 
Republican River's mainstem. Reclamation's appraisal study analyzed a 
number of alternatives recommended by the Compact Commissioners. The 
results from the study indicate that the water supply in the basin is 
not being fully utilized. With improvements in the existing systems and 
possibly with additional storage capability, the systems could be 
managed to alleviate some of the water shortage problems that exist in 
the lower reaches of the basin. The Settlement provided for Compact 
accounting which is indicating overuse of the allocations by Colorado 
and Nebraska. Reclamation has been working with the States in an effort 
to achieve and sustain Compact compliance. These efforts have included 
the release of 2007 storage water at Bonny Reservoir in Colorado in 
response to a ``call'' placed by the State Engineer; and approval of 
temporary sales of project water in 2006 and 2007 to reduce consumptive 
use in Nebraska and provide additional water supply to project lands in 
Kansas. Reclamation has worked closely with project beneficiaries and 
the States to find more effective and efficient ways to deliver water, 
and will continue to do so in the future.
    Mr. Chairman, that concludes my testimony, I would be pleased to 
answer any questions.
                                 ______
                                 
  Prepared Statement of Everett Wilson, Deputy Assistant Director for 
    Fisheries, Fish and Wildlife Service, Departemnt of the Interior
                                s. 1522
    Chairman Johnson and Members of the Subcommittee, thank you for 
inviting the U.S. Fish and Wildlife Service (Service) to provide a 
written statement on S. 1522, to reauthorize the Fisheries Restoration 
and Irrigation Mitigation Act of 2000 (FRIMA) for fiscal years 2008 
through 2014. The Administration supports the principles of FRIMA as 
one of the tools to conserve and restore native anadromous and resident 
fish populations in the Pacific Northwest.
    On November 13, 2000, Congress enacted Public Law 106-502, the 
Fisheries Restoration and Irrigation Mitigation Act (FRIMA). This Act 
created a voluntary fish passage partnership program administered by 
the Department of the Interior. The geographic scope of the FRIMA 
program is the Pacific drainage area of Idaho, Oregon, Washington, and 
western Montana.
    For decades, state, tribal, and federal fishery agencies in the 
Pacific Northwest have identified the screening of irrigation and other 
water diversions, and the resultant improvements to fish passage as an 
effective and important means to protect, recover, and restore native 
anadromous and resident fish populations. Irrigation districts in the 
Pacific Northwest also recognize that poorly-designed or unscreened 
water diversions result in fish mortality. Nearly 80 percent of water 
diversions in the Pacific Northwest are unscreened, and many have 
passage obstructions that pose a major risk to juvenile and adult 
threatened and endangered fish, including salmon, steelhead, bull 
trout, cutthroat trout, and Klamath basin suckers.
    The FRIMA program is carried out by the Service on behalf of the 
Secretary of Interior, and the program focuses on screening water 
diversions and improving fish passage. FRIMA projects can result in 
nearly 100 percent survival of fish at what were often impassable and 
deadly water control structures. The program promotes both sustainable 
agriculture and sustainable fisheries and has strong support from both 
the public and the states--it is an example of the cooperative approach 
needed to restore depleted, native fish stocks.
    The States of Idaho, Montana, Oregon, and Washington, along with 
tribal and local governments have worked closely with the Service to 
assure projects are carefully evaluated and prioritized before being 
funded. Local and state governments have shown a strong commitment to 
the program, investing their own staff time and dollars to ensure 
projects are well designed and properly implemented. The FRIMA Steering 
Committee, made up of state, tribal, and federal representatives, 
ensures a collaborative approach to program implementation. FRIMA 
projects have involved the active participation and support of over 200 
partners who make up the wide array of conservation districts, 
counties, cities and towns, irrigation districts, tribes, resource 
conservation and development councils, and environmental organizations 
that support this program. One indication of the strong support for 
this program is the amount of local cost share for FRIMA projects. 
Although the legislation only requires a non-federal cost share of 35 
percent, the local cost share for the FRIMA program has averaged 55 
percent.
    From fiscal years 2002 through 2006, 121 FRIMA projects have been 
funded, 59 of which have been completed. In addition, there are many 
more acceptable projects with partners that are willing to provide 
their cost share amount. Through 2004 (the most recent year for which 
summary accomplishment reports are available), FRIMA projects protected 
656 miles of stream, fixed 15 fish barriers, installed 68 fish screens, 
conducted nine inventories, completed five pre-design analyses, and 
developed one database.
    The Administration supports the principles of FRIMA and recognizes 
that, in some instances, BPA funds are treated as non-federal cost 
share amounts. However, more study and evaluation is needed to 
determine whether Bonneville funds should be counted toward the non-
federal component of FRIMA.
    In conclusion, FRIMA projects contribute to our efforts to restore 
and conserve anadromous and resident fish populations in the Pacific 
Northwest. The FRIMA program is cost-effective and operates in a 
collaborative, partnership-driven manner with private landowners, non-
governmental organizations, community leaders, and local, state, and 
tribal governments. The Administration supports the principles of FRIMA 
and looks forward to working with the Committee to address concerns 
with the legislation.

    Senator Salazar. Thank you, Mr. Todd.
    First, let's go to S. 300 by Senator Kyl. Your testimony 
indicates that close to $40 million has already been expended 
to implement the MSCP. You also raised several concerns about 
the legislation. I note that you raised concerns about, it 
seems I think, every piece of legislation that's before us 
today.
    On this very important program to the lower basin of the 
Colorado River, I'll ask you the following questions. Would 
there be any benefit to the program from enacting this 
legislation?
    Mr. Todd. Well, the administration believes that we do have 
authority to implement the program. However, any sanction by 
Congress to help support this effort, we believe is helpful.
    Senator Salazar. Does Reclamation believe that it has the 
adequate authority to use water from the lower Colorado River 
for environmental purposes?
    Mr. Todd. Well, we have authority whenever projects are 
built and operated and maintained, and a requirement to comply 
with the Endangered Species Act. In this collaboration effort 
we are complying with the Endangered Species Act, and yes, we 
do have authority to do that.
    Senator Salazar. Let me ask you a question on S. 1258, the 
legislation introduced by Senator Cantwell. The water and power 
users' testimony describes problems that exist with 
Reclamation's current approach to allocating security costs. 
These problems include: the lack of transparency in determining 
the level of security needed, and the claim that site security 
costs are only allocated to water and power users, not to other 
project beneficiaries. How do you respond to these concerns?
    Mr. Todd. Well, first, Mr. Chairman, we have invited and we 
do support the inclusion of the water and power managers and 
boards to attend, and to get the proper clearances, so that we 
can share classified information with them and other 
information that we're holding that is not really for public 
dissemination. I think with all security efforts, we have to 
draw that line, but they do have a right to know and we 
certainly invite them to do so, and we would like them to do 
that.
    On the allocation piece: we have allocations for all of our 
projects. In joint use facilities like dams, where you can not 
divide out all of the different uses in a separable way, you 
allocate them. So, when we're protecting facilities like dams, 
we apply these costs to the operation and maintenance 
allocation of that particular facility. That gets distributed 
among the functions and then out to the water and power users. 
I don't believe that we are inconsistent with how we apply that 
allocation across the different facilities. Every facility has 
a different one, we're being very consistent.
    Senator Salazar. Let me ask you this question, Mr. Todd. 
Would there be other approaches that Reclamation has considered 
that would provide more certainty in the allocation of the 
security costs?
    Mr. Todd. Well, certainly we have information about our 
security program now that we've been in it since 2002. I 
believe that we've had a very level and consistent security 
program. Our guard costs have not been very variable at all, 
they've been very consistent from year to year.
    Senator Salazar. OK, I have a question on S. 1522. Both the 
Oregon Water Resource Congress and your testimony hailed FRIMA 
as a true success for the Pacific Northwest. Why hasn't the 
administration requested any funding for the program in its 
annual budgets?
    Mr. Wilson.
    Mr. Wilson. Thank you, Senator.
    The administration has not requested funding for this just 
due to the priorities and the amount of funding that we have to 
work within. It falls at a lower priority than other things 
that we do fund, simply.
    Senator Salazar. Let me go back, just for a minute, on S. 
1477 concerning the Jackson Gulch Project. You oppose Federal 
support for the rehabilitation of this project, Mr. Todd, 
according to your statement, because you believe it would set a 
precedent for other projects across the country in need of 
rehabilitation.
    It seems that Reclamation is much more concerned about 
limiting its budget, rather than protecting the condition of 
Federal assets, and this is, in fact, a Federal asset. Isn't 
the Jackson Gulch situation an example of a much larger problem 
that we have with a number of Reclamation projects around the 
country? Is Reclamation doing anything it can to address the 
crisis that I anticipate is coming with an infrastructure 
within the Bureau of Reclamation that is aging more and more, 
year by year?
    Mr. Todd. Well, certainly there is an aging infrastructure 
issue that seems to be out across the West and, in particular, 
for certain districts. However, Reclamation, through 
Reclamation long-standing law, is directed by Congress to have 
repayment and operation maintenance contracts and to transfer 
these responsibilities to districts. In accordance with those 
laws, we do have a contract with the Mancos Conservancy 
Irrigation District to operate and maintain those facilities. 
So, with that contract and with that history--procedures, this 
is very common within Reclamation, for irrigation districts to 
have that responsibility.
    Senator Salazar. You would acknowledge, though, Mr. Todd, 
that these canals do, in fact, need to be rehabilitated, that's 
the point of view of the Bureau of Reclamation, correct?
    Mr. Todd. On the Mancos, yes. They do. We have worked with 
that District. We have had annual reviews and we've also had 
formalized 6-year reviews.
    Senator Salazar. So we're in agreement here that the 
reclamation needs to be conducted. Have you also recognized 
that the Bureau of Reclamation is the owner of this project?
    Mr. Todd. Yes.
    Senator Salazar. Do you acknowledge that without Federal 
funding, the District in that part of our Nation, given the 
economics of that part of our Nation, will not be able to 
afford to make the necessary rehabilitation that is required?
    Mr. Todd. Mr. Chairman, on that point, I'm not aware that 
we have any economic studies that would demonstrate that. So I 
don't really know the answer to that.
    Senator Salazar. OK, might you have a different point of 
view on this project, on the Bureau's role, and perhaps funding 
of this rehabilitation project, if you were aware of the 
economic factors that would make it impossible for the District 
to, essentially, fund the repairs on its own?
    Mr. Todd. Well certainly, that would create a situation for 
the District. However, we do need to refer back to the 
contracts and responsibilities that this District has had since 
the 1940's. It is their responsibility, since the 1940's, to 
have maintained these facilities.
    Senator Salazar. Do we have examples in other parts of the 
country where the Bureau of Reclamation has--notwithstanding 
those operation and maintenance agreements--helped to fund the 
rehabilitation of Bureau of Reclamation facilities?
    Mr. Todd. Only if it's been specifically directed by 
Congress.
    Senator Salazar. OK, so if it's specifically directed by 
Congress, then it has happened.
    We have additional questions for you, but we will just ask 
you to respond to those on the record unless Senator Corker has 
additional questions for you.
    Senator Corker.
    Senator Corker. I do, Mr. Chairman, and I know you were a 
few minutes late taking care of trying to solve a problem on 
the floor. I just want to thank you for your continued efforts 
to try to make things work on the Senate floor the way you do. 
I appreciate that very much.
    Senator Salazar. Thank you, Bob.
    Senator Corker. Sure.
    I know that, I mean it's easy to pick up the rub here, 
obviously, and that is that you have local districts who have 
financial issues and you've got a Bureau here that is used to 
getting paid by those districts. We've reached a point in time 
where, you know, the good Senator and others are trying to 
figure out ways of working that out. From the standpoint of 
good government, I guess I have a little bit of concern that, 
as with everything here in Washington--camel nose under the 
tent--once you start doing something in one area, it ends up 
somehow or another migrating in every other part of the 
country. All of us are entrepreneurial and once we see one area 
with a different set of standards, somehow or another we 
transfer that to other places. That's our role, to sort of 
figure those things out and make it all work together.
    But, and I asked you a question, I guess, in my opening 
comments and I don't know if you would know the answer. But, 
just from the standpoint of S. 1258, do you have any idea how 
the Tennessee Valley Authority, for instance, handles its 
security in that regard and how those costs are passed along? 
Or what any other part of the country may do in that regard?
    Mr. Todd. It's my understanding that--and we do have 
working relationships with TVA and the Corps of Engineers on 
security because we have such similar facilities--it's my 
understanding that the TVA and the Corps of Engineers do 
collect reimbursable funds for their security and law 
enforcement programs. So, I believe it's 100 percent paid for 
by the beneficiaries and not by appropriations.
    Senator Corker. OK. I guess the Bureau's concerned that 
unless directed by Congress and, I guess, Congress applying 
those funds, this creates, obviously, futuristic financial 
distress to the Bureau itself in carrying out its 
responsibilities. Is that correct?
    Mr. Todd. Well, it does, yes.
    Senator Corker. I guess from my standpoint, one of the 
things I'd be looking at if this bill actually comes to the 
floor is, you know, what kind of precedent does it set? I do 
understand everyone's intention to just try to solve a problem 
here. But it does, in fact, set a precedent, is that correct?
    Mr. Todd. Yes, it will.
    Senator Corker. Let me ask, just on S. 1477. Getting to the 
rehab portion of this, my assumption is that, you know, if you 
look at the era when many of these projects were built, there's 
going to be a lot of other things coming down the pipe that are 
going to have similar types of issues, is that correct?
    Mr. Todd. Yes, let's see here. Yes.
    Senator Corker. I just wonder, as we look at this, and 
again I know that we all here try to work toward the greater 
good. I wonder if you could supply to Senator Salazar and 
Senator Craig and others on this committee, to the best of your 
knowledge, just the type of projects that you see coming on in 
the future and the types of cost incurred. Because again, we'd 
be setting precedent here and, it seems to me, we're going to 
have even greater responsibilities down the road in this same 
regard. Maybe I'm wrong on that?
    Mr. Todd. Well, I think what we're concerned about here in 
precedent is that we have a lot of irrigation districts around 
the country that are in this situation, where we've transferred 
works to and have these kinds of contracts. So, any kind of 
rehabilitation that we would do here in this situation with 
help from the Government would set a precedent for any and all 
of those projects.
    Senator Corker. Well, I'm sure that we're going to have 
additional questions and I know there will be witnesses coming 
from respective areas after this particular, this first group 
of panels. I want to say to them, I was a mayor of a local area 
and we had issues that we tried to deal with to benefit our 
area and I understand that the panelists that are coming up are 
certainly going to be focused on doing that. But, I hope that 
you'll be open to further questions from our staff and other 
staffs of committee members here to really look into this.
    Again, I appreciate the chairman and others looking at this 
serious problem, but I will have to say that it concerns me 
that we would be taking one specific area and setting 
precedents, I think, that could overall damage policies that we 
have in other parts of the country.
    I thank you for your testimony.
    Senator Salazar. Senator Craig, do you have an opening 
statement or would you like to query this panel?
    Senator Craig. I have just found out that they are here 
testifying in support of S. 1522? That's all I needed to know. 
That's an important piece of legislation for my colleagues in 
Oregon, Washington, and Idaho, and especially in and around the 
Bonneville system. So, as long as they're on point in the 
positive, I thank you, gentlemen. I'm a late-comer.
    Senator Corker. I'm not sure that's exactly what they're 
testimony was.
    Senator Craig. Oh, well we'll rediscuss it.
    [Laughter.]
    Senator Craig. It wasn't? Did you qualify it some? Well, in 
that case Larry, what were the qualifiers?
    We're talking about the Fisheries Restoration Mitigation 
Act, specifically.
    Senator Salazar. I think he said they supported it, but 
they had some concerns on a few of the provisions.
    Senator Craig. Well, then we'll work with it.
    Mr. Todd. We do support it. We do have some concerns.
    Senator Craig. Yes, Everett.
    Mr. Wilson. Thank you very much, Senator Craig.
    The concerns that were expressed have to do with the 
Bonneville Power Administration and whether the funding that 
they have is considered non-Federal match, or Federal match. 
That was the major concern, I think, in the bill----
    Senator Craig. OK.
    Mr. Wilson [continuing]. That we had.
    Senator Craig. Well, we'll work with you to try to clarify 
that then. We've got to get those definitions right. Our 
interest is in amplifying the value of the resources used 
there.
    Mr. Wilson. The other concern, I think, that may come up, 
and the chairman expressed that, was that the service has never 
asked, or the Department has never asked, to fund this bill. 
When we rank our priorities, it falls below those that we have 
resources to fund.
    Senator Craig. OK. It is a critical issue for us in the 
Pacific Northwest as it relates to those fisheries and the 
impact they have on the whole operation of the river itself. 
So, we'll work closely with you to see what we can do to make 
this happen. Thank you.
    Thank you, Mr. Chairman.
    Senator Salazar. Thank you, Senator Craig.
    Thank you, Mr. Todd and thank you, Mr. Wilson for your 
testimony. There will be other questions that we'll ask you to 
respond to with respect this session.
    We'll call up the second panel. The second panel will come 
up. I will introduce them as they are coming up.
    On the second panel we will have Marc Thalacker, who is 
representing the Oregon Water Resources Congress on S. 1522. We 
also will have Shannon McDaniel, who is representing the 
National Water Resources Association on S. 1258. George Caan, 
representing the Colorado River Energy Distributors 
Association, will be speaking on S. 1258. We also have Gary 
Kennedy with the Mancos Water Conservancy District on S. 1477. 
Perri Benemelis is with the Arizona Department of Water 
Resources, and will be testifying concerning S. 300.
    We welcome each of you to the committee, and we would ask 
Mr. Thalacker to start by summarizing your testimony, then 
we'll proceed on down the line.
    If you can keep your testimony down to 3 or 4 minutes we 
would appreciate that, and that way we'll get through all of 
the witnesses.
    Mr. Thalacker.

STATEMENT OF MARC THALACKER, MANAGER, THREE SISTERS IRRIGATION 
DISTRICT, ON BEHALF OF OREGON WATER RESOURCES CONGRESS, SALEM, 
                               OR

    Mr. Thalacker. Thank you, Mr. Chairman, members of the 
subcommittee. My name is Marc Thalacker and I am manager of the 
Three Sisters Irrigation District in Oregon, and I'm here today 
on behalf of the Oregon Water Resources Congress.
    OWRC is statewide association founded in 1912 to represent 
local governments that supply water for irrigation, primarily 
irrigation districts and water control districts, but also 
including member ports and other special districts and local 
governments. The Association represents entities that operate 
water management systems, including water supply reservoirs, 
canals, pipelines, and hydropower production.
    OWRC strongly supports the reauthorization of the Fisheries 
Restoration and Irrigation Mitigation Act along with the 
amendments embodied in S. 1522. The co-sponsorship of this 
legislation by all eight Senators of the States in the Pacific 
Northwest serves as evidence of the importance of this program 
to those States and represents the success of this vital 
program for fish screening and passage. We are joined in this 
support by our sister organizations in Idaho and Washington, 
the Idaho Water Users Association and the Washington State 
Water Resources Association, the four States and local 
governments in those States.
    Since this program started, we have not encountered any 
opposition, only support. Currently, Judge Reddin's remand of 
the 2004 Columbia Basin Biological Opinion has pushed the 
Northwest Region to a new level of cooperative conservation. 
For decades endangered species litigation has spent precious 
funds on regulation and lawsuits that could have been spent on 
conservation projects to help fish. Soon, Judge Reddin will 
approve a new biological opinion for the Columbia River and its 
tributaries. This new opinion will be supported by reasonable 
and prudent alternatives that are likely to occur.
    The reauthorization and funding of FRIMA is essential to 
ensure that screening and passage RPAs will occur to help 
protected listed and non-listed fish. FRIMA will play a big 
role in salmon, steelhead, and bull trout recovery, which will 
go a long way to helping the Biological Opinion succeed.
    By the end of 2005, sub-basin planning in the Columbia 
Basin was completed in 58 of the 62 sub-basins. The Northwest 
Power and Conservation Council guided the planning effort, and 
it was funded by Bonneville Power Administration. This locally 
led watershed planning effort was a collaboration of irrigation 
districts, watershed councils, soil and water conservation 
districts, environmental groups, farmers, ranchers, State and 
Federal, and fish and wildlife agencies, tribes, and local 
planning groups. These are many of the same partners that have 
collaborated on FRIMA-funded projects in the four Northwest 
States. FRIMA projects have been a part of the planning and 
implementation process.
    Currently NOAA and State fishery agencies are coordinating 
salmon and steelhead recovery planning in all areas of the 
Columbia Basin, with ESA-listed fish. I personally serve as a 
member of the mid-Columbia Steelhead Recovery Sounding Board. 
We started the planning process in October 2005 and we're about 
to release a draft for public comment. This plan for the mid-C 
is over a thousand pages and quite comprehensive.
    Once the recovery planning process is completed and the 
hard work of project implementation and construction starts, 
with the aid of the sub-basin and recovery plans, the four 
States, tribes, and irrigation districts will continue to work 
closely with U.S. Fish and Wildlife Service and NOAA fisheries 
on vetting and prioritizing projects before FRIMA funds are 
committed.
    As is evidenced by the recent report from the Oregon 
Department of Fish and Wildlife and the 2005 report from U.S. 
Fish and Wildlife,* FRIMA has been a great success and a great 
example of cooperative conservation partnerships.
---------------------------------------------------------------------------
     *Report from U.S. Fish and Wildlife has been retained in committee 
files.
---------------------------------------------------------------------------
    Mr. Chairman, I would like to enter both these reports for 
the record. Thank you, sir.
    One of FRIMA's greatest achievements has been leveraging of 
limited FRIMA Federal funds and the increase in non-Federal 
matching funds. In Oregon, from 2002 to 2007, almost $8 million 
of projects have been built or are under construction. FRIMA 
has contributed $3.2 million for 42 percent average cost-share, 
while matching non-Federal funding was 58 percent.
    There are over a thousand unscreened diversions in the 
Northwest. Without FRIMA they will remain unscreened. U.S. Fish 
and Wildlife and NOAA fisheries should be pressing for funding 
for this program. We thank Congress for having the wisdom for 
creating FRIMA so that we can solve the problem of unscreened 
diversions.
    If FRIMA were reauthorized and fully funded, we could see 
an increase from the 120 projects that were built over the last 
5 or 6 years in the four States to 1,000 projects. This would 
have a dramatic impact on the recovery of ESA-listed salmon, 
steelhead, and bull trout. Twenty-five million dollars a year 
is a small price to pay to help contribute to the recovery of 
listed fish.
    This is a win-win for the whole community. FRIMA has shown 
that farmers and fish can coexist. FRIMA helps support 
sustainable fisheries and sustainable agriculture. FRIMA 
protects both ag and fish, which in turn contribute to our 
Northwest economies and ensure a secure and stable food supply.
    Senator Salazar. Thank you, Mr. Thalacker. Can you please 
wrap up?
    Mr. Thalacker. Yes, sir. Anyway.
    Senator Salazar. Your full statement will be part of the 
record.
    Mr. Thalacker. OK.
    Well, OWRC is requesting reauthorization of FRIMA so we can 
continue from conflict to consensus to achieve ESA recovery of 
listed fish.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Thalacker follows:]
Prepared Statement of Marc Thalacker, Manager, Three Sisters Irrigation 
   District, on Behalf of Oregon Water Resources Congress, Salem, OR
  s. 1522, the fisheries restoration and irrigation mitigation act of 
                                  2007
    Mister Chairman and Members of the Subcommittee, my name is Marc 
Thalacker and I am the manager of the Three Sisters Irrigation District 
in Oregon and am here on behalf of the Oregon Water Resources Congress 
(OWRC). The OWRC is a statewide association founded in 1912 to 
represent local governments that supply water for irrigation, primarily 
irrigation districts and water control districts, and including member 
ports, other special districts and local governments. The association 
represents the entities that operate water management systems, 
including water supply reservoirs, canals, pipelines, and hydropower 
production.
    OWRC strongly supports the reauthorization of the Fisheries 
Restoration and Irrigation Mitigation Act along with the amendments 
embodied in S. 1522. The co-sponsorship of this legislation by all 
eight Senators of the states in the Pacific Northwest serves as 
evidence of the importance of this program to those states represents 
the success of this vital program for fish screening and passage. We 
are joined in this support by our sister organizations in Idaho and 
Washington: the Idaho Water Users Association and the Washington State 
Water Resources Association, the four states and local governments in 
those states.
    As one of the lead organizations with Congress to help create the 
Fish Restoration Irrigation Mitigation Act (FRIMA) in 2000, and with 
five years of experience of active involvement in the implementation of 
the program, OWRC strongly believes this has been one of the most 
successful programs for our members and for similar water supply 
entities in Idaho, Washington and Montana.
    FRIMA created a new Federal partnership fish screening and passage 
program in the Pacific Ocean Drainage areas of Oregon, Idaho, 
Washington and western Montana. The U.S. Fish and Wildlife Service 
administer the program in partnership with state fishery agencies.
    Fish passage and fish screens have become critical to fishery 
protection. There are over 200 irrigation and water control districts 
in Oregon that provide water supplies to over one million acres of 
cropland in the state. Almost all of these districts are affected by 
either state or Federal Endangered Species Act lists of salmon and 
steelhead, bull trout, or other sensitive threatened or endangered 
species. This program, which is cost-shared on a 65% Federal/35% non-
Federal basis, has been overwhelmingly supported by all involved. From 
a water user standpoint, it has been a success because: (1) it keeps 
protected fish species out of water canals and delivery systems and 
power generation facilities; (2) allows fish to be safely bypassed 
around reservoirs and facility structures; and (3) provides funding to 
local governments for construction of facilities to protect fish.
    The FRIMA program was authorized to receive $25 million a year, 
divided among the four states. We have been disappointed that the 
Administration, through the U.S. Fish and Wildlife Service, has not 
requested funding for the FRIMA program in any of the five years since 
it was authorized. Our members appreciate the limited funding Congress 
has written into the annual Interior Appropriations bills these several 
past years for the program. As you can see from the attachment to my 
testimony, projects in Oregon have provided a much larger non-Federal 
match than required and as a result have been able to maximize the 
limited FRIMA resources. Further, much of FRIMA's success comes from 
the large proportion of the Federal appropriations that is used for 
projects rather than for Federal or state administrative costs.
                      specific comments on s. 1522
Project Eligibility
    Our members' experience in defining the type of projects that 
provide the most cost-effective solution to needs has demonstrated that 
we no longer need to be concerned with the likelihood of very expensive 
solutions to problems. Reducing the cap on the size of the project, 
from $5 million to $2.5 million, is appropriate at this time.
    As we understand the history of the original authorizing 
legislation, this program was intended for local governmental entities 
to carry out the work to mitigate the impacts of irrigation diversions 
on fish rather than face loss of their water if their facilities were 
not screened. With that in mind, we also believe the original intent 
was to have the funding passed through to the states that would, in 
turn, provide the funding to the local governments.
Cost Sharing
    We greatly appreciate codifying what is already in practice with 
respect to the use of Bonneville Power Administration (BPA) funding in 
the Pacific Northwest part, but not all of the time. There is a lack of 
consistency among Federal programs with some allowing the use of BPA 
funding as local share to address fish and wildlife recovery, but not 
for FRIMA. This legislation makes clear that BPA funds, coming from 
ratepayers, should be considered non-Federal share money.
Administrative Expenses
    We believe that S. 1522 takes an appropriate step in addressing 
administrative expenses at the Federal and state level. One of the 
strengths of the FRIMA program is the return on the Federal investment. 
Part of this success can be attributed to the limited draw of the 
funding for administrative costs in order to ensure that most of the 
funding is used to build projects to protect fish.
    We appreciate the changes made to this program as a result of 
consultations with the state and Federal agencies responsible for 
administering the program. Sharing the administrative funding with the 
states recognizes the important role the states have played working 
with local government project sponsors over the five years of the 
program. The states do a tremendous amount of work as their part of the 
partnership including project review, ranking, and selection. Their 
participation has been key to the success of the program. Dividing the 
funding evenly with the states helps ensure the collective effort is 
never put at risk because of unforeseen circumstances at the state 
level and recognizes the role the states play in the FRIMA partnership.
Reauthorization of the FRIMA Program
    While the report prepared by the U.S. Fish and Wildlife Service in 
2005 covers only the first three years of FRIMA, it provides an 
excellent overview to the projects built using FRIMA funding. It also 
shows the success of leveraged local match that exceeds the amount 
called for in the legislation, another reason for the success of this 
program. We encourage the Committee Members to look at this report with 
regard to the accomplishments of the program in the four respective 
states.
    The importance of the legislation before you today is the need to 
reauthorize the Fisheries Restoration and Irrigation Act so that local 
government can complete the projects identified in the states' 
inventories.
    We strongly believe that the success of the FRIMA program as 
evidenced by projects that have been built and the partnerships that 
have developed provide the justification for the continuation of this 
program through year 2014.
                               conclusion
    OWRC is asking Congress to continue to improve conditions for 
threatened and endangered fish species in Oregon and the rest of the 
Pacific Northwest by passing this legislation into law and 
reauthorizing the FRIMA program. We strongly support the improvements 
to the program as contained in S. 1522.
                    oregon's frima project benefits
    The following are examples of how Oregon has used some of its FRIMA 
money:
    Santiam Water Control District Project.--Fishscreen project on a 
large 1050 cfs multipurpose water diversion project on the Santiam 
River (Willamette Basin) near Stayton, Oregon. Partners are the Santiam 
Water Control District, Oregon Department of Fish and Wildlife, Marion 
Soil and Water Conservation District, and the City of Stayton. Approved 
FRIMA funding of $400,000 leveraged a $1,200,000 project. Species 
benefited include winter steelhead, spring Chinook, rainbow trout, and 
cutthroat trout.
    South Fork Little Butte Creek.--Fishscreen and fish passage project 
on a 65 cfs irrigation water diversion in the Rogue River Basin near 
Medford, Oregon. Partners are the Medford Irrigation District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding is 
$372,000 and leveraged a $580,000 total project cost. Species benefited 
include listed summer and winter steelhead, Coho salmon, and cutthroat 
trout.
    Running Y (Geary Diversion) Project.--Fishscreen project on a 60 
cfs irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Wocus Drainage District, Oregon 
Department of Fish and Wildlife, and Jeld-Wen Ranches. Approved FRIMA 
funding of $44,727 leveraged a total project cost of $149,000. Species 
benefited included listed red-band trout and short-nosed sucker.
    Lakeshore Gardens Project.--Fishscreen project on a 2 cfs 
irrigation water diversion in the upper Klamath Basin near Klamath 
Falls, Oregon. Partners are the Lakeshore Gardens Drainage District and 
Oregon Department of Fish and Wildlife. Approved FRIMA funding is 
$5,691, leveraged a total project cost of $18,970. Species benefited 
include red-band trout, short-nosed sucker and Lost River sucker.
    Oregon Department of Fish and Wildlife Inventory Project.--An 
inventory to be conducted by Oregon Department of Fish and Wildlife to 
identify FRIMA-eligible passage and screening projects within the Rogue 
and Klamath basins of southwestern Oregon. Approved FRIMA funding is 
$76,000, leveraged an estimated total project cost is $125,000.

    Senator Salazar. Thank you, Mr. Thalacker.
    Mr. McDaniel.

    STATEMENT OF SHANNON MCDANIEL, SECRETARY/MANAGER, SOUTH 
 COLUMBIA BASIN IRRIGATION DISTRICT, NATIONAL WATER RESOURCES 
                     ASSOCIATION, PASCO, WA

    Mr. McDaniel. My name is Shannon McDaniel. I'm the manager 
of the South Columbia Basin Irrigation District, located in 
Pasco, Washington. I'm here to testify in support of S. 1258.
    The South Columbia Basin Irrigation District is part of the 
Columbia Basin Project located in Eastern Washington. Our 
primary diversion facility is Grand Coulee Dam. We irrigate 
about 670,000 acres with water from Grand Coulee. Our 
relationship there is the fact that the Bureau of Reclamation 
administers operations at Grand Coulee Dam on what we call the 
reserved works, where the primary features of the project are 
Grand Coulee Dam, Banks Lake, and the main canal. We pay the 
full cost of O&M at those facilities.
    From 1980, when I got involved with the project, we have 
what we call a diversion right process where every 5 years we 
go in and negotiate a rate for the power, for the cost that we 
pay at Grand Coulee Dam. Those have always included some 
security costs, about $600,000 of those costs were a portion of 
that rate from 1980 to 2001. Those costs, with the securities 
program that the Bureau has implemented, have gone from 
$600,000 a year to about $5.5 million.
    The reason that we're here to testify today, is to make 
sure that you understand that we do think that national 
security is a big issue and the protection of Grand Coulee Dam 
is a big issue, but we're looking at some way to be able to 
allocate those costs equitably to our land owners and other 
users of the project. We believe that the things that we have 
to say, as far as our diversion rate, are important. In the 
past, we've been able to work with the Bureau of Reclamation 
and make sure that the diversion rate--the cost that we pay--is 
equitable to the land owners within the project.
    Those discussions are not one-sided. They are two-sided. We 
go in, we negotiate hard on those. We get an allocation of 
costs that are equitable. We're concerned that because of the 
priorities of the secrecy that has to be involved in the 
protection of those facilities, we will not be able to have 
input into them. Nor, really, do we want to have input into 
them. As managers and irrigation district directors, we feel 
that more or less, we're not qualified to do that, it's 
inappropriate for us to us to be involved in security. But, we 
would like to have some way to be able to control those costs 
and we believe that S. 1258 does that at an equitable rate by 
allocating 85 percent of the costs, the Federal portion, and 15 
percent of the cost to the rate-payers, whether they be power 
or irrigation water.
    Thank you.
    [The prepared statement of Mr. McDaniel follows:]
   Prepared Statement of Shannon McDaniel, Secretary/Manager, South 
     Columbia Basin Irrigation District, National Water Resources 
                         Association, Pasco, WA
    s. 1258 to amend the reclamation safety of dams act of 1978 to 
  authorize improvements for the security of dams and other facilities
    Mr. Chairman and Members of the Subcommittee: Thank you for the 
invitation to participate in this hearing on S. 1258, ``to amend the 
Reclamation Safety of Dams Act of 1978.''
    I am here today to support the passage of S. 1258.
    My name is Shannon McDaniel and I am the Secretary/Manager of the 
South Columbia Basin Irrigation District. The South District along with 
the Quincy and East Columbia Basin Irrigation Districts operate the 
transferred works of the Bureau of Reclamation's Columbia Basin 
Project. The three Districts and Reclamation are currently providing 
irrigation water to approximately 670,000 acres in eastern Washington.
    The source of water and pumping energy for the Columbia Basin 
Project is Grand Coulee Dam on the Columbia River. Grand Coulee is a 
CBP reserved works and is operated and maintained by Reclamation. The 
three CBP Irrigation Districts advance to Reclamation the annual O&M 
costs for Grand Coulee to pump water from Lake Roosevelt to Banks Lake 
and to convey it through other reserved works into the major canal 
systems that have been transferred to the Districts.
    In 2007 the Grand Coulee Dam, Lake Roosevelt, and Banks Lake 
components were $3,501,445. About 43 percent of that amount is for 
electricity to lift water from Lake Roosevelt to Banks Lake. The 
budgeting and accounting procedures that determine this payment are 
termed the ``diversion rate.'' This diversion rate is set by 
Reclamation's Regional Director after involving the three CBP 
Irrigation Districts in the budgeting and accounting reviews.
    All three Districts pay their apportioned share of the diversion 
rate. This year Reclamation began adding a guard and patrol security 
cost surcharge to the power component of this rate. The boards of 
directors of all three Districts share a common view regarding the 
reimbursability of these costs. I believe the comments I will present 
reflect that common view.
    There has always been a security component associated with this 
diversion rate. However, until 9/11 these costs were for fire 
protection and night watchmen. These costs were approximately $600,000 
annually. The estimated costs for security guards and patrols for 2007 
are estimated to be $5,500,000.
    The CBP Irrigation Districts do not dispute the need to defend 
important hydroelectric facilities like Grand Coulee Dam. The attacks 
of September 11 confirmed that foreign terrorists would go to great 
lengths to destroy targets that are national, cultural, and economic 
icons. The federal government is to be commended for taking these 
defensive measures.
    We believe national defense is a federal responsibility, and the 
cost of security of large federal assets lies with the government, not 
local ratepayers. After September 11 through 2005 these defense and 
security costs were considered a federal responsibility and paid for by 
all Americans through Reclamation appropriations.
    These costs should not be the responsibility of irrigation and 
power ratepayers associated with specific federal projects that happen 
to have a high target value for enemies of this country.
    The Columbia Basin is the only project in the Pacific Northwest 
Region that is subject to reimbursable security costs. Similar 
situations exist in Reclamation's other regions. That is because Grand 
Coulee Dam, Shasta Dam, Hoover Dam, and a few of Reclamation's other 
larger hydroelectric projects have the most security needs. If security 
costs are to be reimbursable it creates a disparity for irrigators 
farming on Reclamation's projects who depend on these larger dams for 
their water supply. Because of the large hydroelectric facility, these 
farmers will pay extra charges for water compared to other farmers who 
do not have these security concerns but are using Reclamation water on 
the rest of the 10 million Reclamation irrigated acres.
    Beginning in 2006, Reclamation and Congress determined that guard 
and patrol costs should become reimbursable. For 2006 this 
reimbursability was capped at $10 million, Reclamation-wide. The 2006 
decision contemplated the cap for 2006 only, with full reimbursement 
beginning in 2007. In fact, the CBP Districts were charged a security 
component on their 2007 billings from Reclamation. The CBP Irrigation 
Districts respectfully recognize that Congress is the final decision 
maker in this matter and realize there are many competing pressures on 
the federal budget. For this reason we are in support of S. 1258 to 
amend the Safety of Dams Act to control the Districts' costs in support 
of the security of Grand Coulee Dam and the associated works related to 
water and power.
    The CBP Irrigation Districts believe we have a positive 
relationship with Reclamation regarding our payment of the irrigation 
diversion rate at Grand Coulee Dam. We believe one source of this good 
relationship has been Reclamation's willingness to allow the Districts 
to review the documentation of the budgeting and accounting procedures 
relevant to the diversion rate. These reviews often lead to frank 
discussions and correspondence between the Districts and Reclamation 
about some of the diversion rate decisions but, in the end, result in a 
good relationship and adequately funded operation, maintenance and 
replacement budgets for the irrigation function at Grand Coulee. 
However, the Districts firmly believe that without this interaction 
inappropriate costs may be charged against Grand Coulee's irrigation 
diversion rate.
    This type of review and interaction by the Districts is not 
possible or appropriate for post-9/11 security costs at Grand Coulee. 
Those costs, at least in part, result from federal decisions based on 
classified intelligence related to national security. Irrigation 
District boards of directors and management are not qualified or 
authorized to audit or interact in that type of budgeting and 
accounting. S. 1258 limits the financial responsibility in security 
costs to a manageable share of the total security obligation without 
input from the Districts.
    I would like to emphasize that as Reclamation contractors the CBP 
Irrigation Districts work on annual budgets, and those budgets are 
funded by annual assessments to the farmers we serve. Irrigation 
Districts share many of the same challenges in the budgeting process as 
the federal government. We need to have stability and predictability 
from year to year in our Reclamation payments. S. 1258 would 
essentially allocate the costs at a level to all ratepayers that would 
be manageable.
    S. 1258 would, for the most part, distribute the annual costs of 
security to the federal government by the allocation of 85 percent of 
those costs to appropriated dollars.
    I would reiterate that the CBP Irrigation Districts are supportive 
of S. 1258 and the allocation of security costs to the federal 
government--where we believe the responsibility for national security 
lies--to the maximum extent possible.
    Thank you for your consideration.

    Senator Salazar. Thank you, Mr. McDaniel.
    Welcome, Mr. Caan.

 STATEMENT OF GEORGE CAAN, EXECUTIVE DIRECTOR, COLORADO RIVER 
  COMMISSION OF NEVADA, LAS VEGAS, NV, ON BEHALF OF COLORADO 
         RIVER ENERGY DISTRIBUTORS ASSOCIATION (CREDA)

    Mr. Caan. Good afternoon, Mr. Chairman, Senator Craig, 
members of the committee, subcommittee. My name is George Caan. 
I'm the Executive Director of the Colorado River Commission of 
Nevada. I want to thank you for the invitation today to talk to 
you on, in support of S. 1258.
    The CRC is the Nevada State agency responsible for, among 
other things, the acquisition and delivery of Federal 
hydropower from the Colorado River. Today, I speak to you on 
behalf of the Colorado River Energy Distributors Association, 
known as CREDA, of which the Colorado River Commission is a 
member. CREDA is a nonprofit organization representing 
consumer-owned utilities in Arizona, Colorado, Nevada, Utah, 
Wyoming, and New Mexico that purchases Federal power from the 
Colorado River Storage Project.
    I'm pleased today to testify before you in support of S. 
1258, a bill to amend the reclamation of Dams Act to include 
express authorization, oversight, and cost-sharing by water and 
power customers of the cost of sight security. I'd like to 
express my appreciation to Senator Cantwell for taking a lead 
on this bill, and to Senators Wyden, Smith, Hatch, and Allard 
for co-sponsoring it.
    Mr. Chairman, the safety and security of facilities 
operated by Reclamation are critical to millions of Americans. 
That issue is not in question today. What is in question today, 
is how to pay for the cost of post-9/11 security measures at 
multi-purpose dams owned and operated by Reclamation.
    Beginning in fiscal year 2005, the administration began to 
assign a significant portion of the cost of enhanced security 
to water and power customers, contrary to that position--
immediately following the attacks on 9/11--which was that the 
security costs were a Federal obligation.
    CREDA and virtually all other water and power customers 
objected to this change in policy on several grounds, including 
the lack of cost controls, the lack of transparency, and the 
fact that Reclamation assigned reimbursable costs only to water 
and power users. It is important to point out that CREDA and 
the power customers of Hoover, Parker, and Davis Dams on the 
Colorado River, including the CRC, have a good solid working 
relationship with the Bureau of Reclamation and Federal 
agencies on issues involving the operation and upkeep of these 
projects. The security cost program, however, has challenged 
this relationship due to its lack of transparency and lack of 
oversight.
    CREDA and other Federal power and water interests have 
worked to develop a consensus on legislation that will be 
clear, fair, and consistent with existing Reclamation policy. 
We have worked with almost a dozen other organizations 
representing water and power to reach consensus on the 
legislation before you. Although we discussed other 
alternatives, we feel that the amendment to the Reclamation 
Safety of Dams Act is an appropriate vehicle to provide for the 
cost certainty and surety of this cost. The approach embodied 
in this bill and the principles on which the legislation is 
based, are supported by organizations representing over 80 
million Americans.
    The Reclamation Safety of Dams Program was introduced in 
1978 following the Teton Dam failure. It authorized 
modifications needed as a result of new hydrologic or seismic 
information or change in the state-of-the-art dam technology. 
The bill we are discussing today authorizes structural 
modifications and changes to the systems of guards and patrols 
at Reclamation-owned dams.
    Senator Corker mentioned a precedent. The site security is 
a perfect fit to the reclamation of dams. It adds another 
component on the protection of dams. The legislation has 
already been passed by Congress and, therefore, we feel that it 
is a precedent that's been set and any site security would be a 
perfect fit. We also think the 15 percent cost share that has 
been identified in the Safety of Dams Programs in 1984, is also 
a precedent that's worth expanding to the site security 
program. It's been reaffirmed by Congress and it's a 
reasonable, appropriate, and we believe, fair allocation of 
these costs. The remaining site security cost would continue to 
remain a non-reimbursable Federal obligation.
    In conclusion, Mr. Chairman, CREDA endorses S. 1258 because 
it contains the following: an express authorization of the site 
security program that's part of the Safety of Dams Program, 
application to the existing safety of dams 15 percent cost-
share for water and power users for these high security costs, 
and a requirement that Reclamation report annual to Congress 
onsite security activities.
    Thank you for the opportunity to present this testimony. I 
have submitted written comments to the committee and I look 
forward to your questions and comments. Thank you.
    [The prepared statement of Mr. Caan follows:]
 Prepared Statement of George Caan, Executive Director, Colorado River 
Commission of Nevada, Las Vegas, NV, on Behalf of Colorado River Energy 
                    Distributors Association (CREDA)
                                s. 1258
    Mr. Chairman, Members of the Subcommittee, I am George Caan, the 
Executive Director of the Colorado River Commission of Nevada. I am 
appearing here today on behalf of the Colorado River Energy 
Distributors Association (CREDA), of which the Colorado River 
Commission is a member. CREDA is one of the members of the coalition of 
water and power users who are actively supporting this legislation.
    I am pleased to appear before you today to testify in support of S. 
1258, a bill to amend the Reclamation Safety of Dams Act to include 
express authorization, oversight and cost sharing by water and power 
customers of the costs of site security. I would also like to express 
my appreciation to Senator Cantwell for taking the lead on this 
important, bi-partisan legislation and to Senators Wyden, Smith, Hatch 
and Allard for co-sponsoring it.
    CREDA is a non-profit organization representing consumer-owned 
electric systems that purchase federal hydropower generation of the 
Colorado River Storage Project (CRSP). CREDA was established in 1978, 
and serves as the ``voice'' of CRSP power customers in dealing with 
resource availability and affordability issues. CREDA represents its 
members in working with the Bureau of Reclamation (Reclamation), as the 
owner and operator of the CRSP, and the Western Area Power 
Administration (WAPA), as the marketing agency of the CRSP.
    CREDA members are all non-profit electric utilities and 
organizations and serve over four million electric consumers in the six 
western states of Arizona, Colorado, Nevada, New Mexico, Utah and 
Wyoming. Through long-term power contracts with WAPA, CREDA members 
purchase over 85 percent of the CRSP hydropower generation and ensure 
repayment of the federal investment in the CRSP.
    Mr. Chairman, the safety and security of the facilities operated by 
Reclamation are critical to millions of Americans. The issue of how to 
pay for the costs of post 9/11 security measures at multi-purpose dams 
owned and operated by Reclamation is not a new one.
    Immediately following the September 11, 2001 terrorist attacks, 
Reclamation initiated an aggressive program to protect its dams against 
terrorist attacks. Based on World War II precedent and internal legal 
analysis by the Department of the Interior, the Commissioner of 
Reclamation in April 2002 issued an administrative determination that 
the costs of increased security measures should be a federal 
obligation, non-reimbursable by project beneficiaries. Beginning in 
Fiscal Year 2005, however, the Administration's position shifted, and 
Reclamation began to assign a significant portion of the security costs 
to water and power customers.
    CREDA and virtually all other water and power customers objected to 
this change in policy, on several grounds. One was the deviation from 
historical precedent.
    Other important concerns, however, included the lack of cost 
controls on the security program, its lack of transparency and the fact 
that Reclamation assigned reimbursable costs only to water and power 
users, not to other project beneficiaries. In fact, approximately 94 
percent of the reimbursable costs were allocated to power customers in 
our region. We did not think this was fair and do not believe 
Reclamation's allocation of costs was based on any objective, fair 
allocation of the costs and associated benefits of the security 
measures.
    Our efforts to modify Reclamation's policy on reimbursable costs 
peaked at the oversight hearing the House Water and Power Subcommittee 
held on June 22, 2006. At that time, an array of witnesses representing 
water and power customers from virtually all regions testified, with 
one voice, about the need to expressly authorize the site security 
program to provide: (1) effective Congressional oversight; and (2) an 
equitable, durable allocation of costs.
    Following that hearing, CREDA and other power and water interests 
worked to develop a consensus on legislation that would be clear, fair 
and consistent with existing Reclamation policy. Although we discussed 
other alternatives, the power and water representatives jointly decided 
that amending the Reclamation Safety of Dams Act to authorize the site 
security program made good policy sense. The approach embodied in S. 
1258 and the principles (see attachment) on which the legislation is 
based, are supported by organizations representing over 80 million 
Americans.
    The Reclamation Safety of Dams program was first authorized in 
1978, following the Teton Dam failure. It authorized modifications 
needed as a result of new hydrologic or seismic information or changes 
in state of the art dam technology. The safety and the security of 
these facilities are critical, regardless of the cause. Therefore, we 
think the site security program fits nicely into the existing policy 
and legal framework of the Safety of Dams program.
    We also think the 15 percent cost share, which was added to the 
Safety of Dams program in 1984 and has been reaffirmed by Congress 
since then, is reasonable, appropriate and fair. The remaining site 
security costs would remain a non-reimbursable, federal obligation.
    CREDA endorses S. 1258 because it contains the following:

  <bullet> An express authorization of the site security program, as 
        part of the Safety of Dams program;
  <bullet> Application of the existing Safety of Dams Act 15 percent 
        cost share for water and power users for all site security 
        costs, including capital and O&M costs; and
  <bullet> A requirement that Reclamation report annually to Congress 
        on site security activities undertaken for each fiscal year. 
        Those reports shall include information relating to a five year 
        planning horizon for the program and will show both pre 9/11 
        and post-9/11 costs for building and site security activities.

    CREDA believes that S. 1258 would be a ``win-win'' for the American 
public, for water and power customers and other beneficiaries at multi-
purpose Reclamation projects and for the federal government. We urge 
its swift passage.
    Thank you for the opportunity to present these comments.
 Attachment.--Bureau of Reclamation Building and Site Security Program
                           position statement
    The Colorado River Energy Distributors Association (CREDA), the 
Northern California Power Agency (NCPA), the Sacramento Municipal 
Utility District (SMUD), the Washington Public Utility District 
Association (WPUDA), the Mid-West Electric Consumers Association (Mid-
West), the Northwest Public Power Association (NWPPA), the National 
Water Resources Association (NWRA), the American Public Power 
Association (APPA), the National Rural Electric Cooperative Association 
(NRECA), the Family Farm Alliance (FFA), the CVP Water Association, the 
Upper Colorado River Commission and the four Upper Colorado River Basin 
States (collectively ``Parties'') believe that Congress should 
expressly authorize oversight of the Bureau of Reclamation's (BOR) 
Building and Site Security program to ensure accountability to Congress 
and provide cost certainty to funding stakeholders through an 
equitable, durable allocation of reimbursable costs.
                               background
    The Parties believe that security measures instituted at Bureau of 
Reclamation Facilities as a response to the attacks of 9/11 should be 
the cost responsibility of the United States Government and should be 
funded through appropriated, non-reimbursable dollars. The Parties have 
worked diligently with Congress, the administration, and other 
stakeholders over the past five years on this issue.
    The protection of these facilities benefits all project 
beneficiaries, as well as the public. If power facilities were not part 
of the project there would still be substantial security cost 
investments. If a portion of security costs is to be a repayment 
responsibility of the power and water customers it should be based on a 
fair share of the costs with some level of certainty that these costs 
will remain reasonable, stable and appropriate.
    In its proposed FY 2006 budget as well as discussions with the 
Parties, the Bureau of Reclamation (BOR) indicated that only the costs 
of guards and patrols would be reimbursable, and that the costs of 
facility fortification would remain nonreimbursable. However, in its 
2006 Report to Congress (issued in March), the costs of ``facility 
fortification upgrades''\1\ are also listed as reimbursable. The 
practical effect of this approach is that ALL costs at some point are 
reimbursable. Not only is this inconsistent with stated BOR direction, 
it is inconsistent as well with the title of the report 
(``Reimbursement of Security Guard and Patrol Costs on Bureau of 
Reclamation Facilities'').
---------------------------------------------------------------------------
    \1\ Report to Congress ``Reimbursement of Security Guard and Patrol 
Costs on Bureau of Reclamation Facilities'', February 2006, page 5.
---------------------------------------------------------------------------
    The Parties believe that authorizing legislation is necessary to 
ensure appropriate Congressional oversight and to provide some 
certainty to the funding stakeholders in terms of a fair, durable and 
equitable allocation of costs.
    The Parties take no position as to the mechanism used to generate 
funds that are not funded through reimbursable revenues.
                         legislative principles
    Authorizing legislation should include the following essential 
features:

          1. BOR will report annually to the House and Senate 
        Committees on Homeland Security, Resources and Appropriations 
        on security actions/activities taken in the prior fiscal year 
        and proposed for the upcoming fiscal year and the sources and 
        expected sources of reimbursable and nonreimbursable funding 
        for each type of action.
          2. The capital cost of security enhancements or 
        fortifications (``hardening''), including the operation, 
        maintenance and replacement of such enhancements or 
        fortifications, shall continue to remain non-reimbursable.
          3. Funding stakeholders to reimburse costs of Guards and 
        Patrols at National Critical Infrastructure (NCI) Facilities up 
        to a level that does not exceed the FY 2006 Congressionally-
        approved level of $10 million,\2\ indexed for inflation.
---------------------------------------------------------------------------
    \2\ Id, page 1.
---------------------------------------------------------------------------
          4. Such reimbursable funds to be spent only on Guards and 
        Patrols at NCI facilities and allocated among NCI Facilities in 
        the same delineation as allocated in FY 2006.\3\
---------------------------------------------------------------------------
    \3\ Id, page 11.
---------------------------------------------------------------------------
          5. BOR is authorized to enter into bilateral contractual 
        arrangements with funding stakeholders, if stakeholders are 
        willing to do so, in lieu of seeking appropriated funds for 
        Guards and Patrols.
          6. In the event of a change in the level of national security 
        threat, BOR will immediately notify Congress and with the 
        funding stakeholders seek approval of Congress to adjust the 
        reimbursable costs for Guards and Patrols until such time as 
        the threat level changes.
          7. BOR must facilitate appropriate actions to allow funding 
        stakeholder review, input on and management of work program 
        elements, including security enhancements, on at least a five-
        year planning horizon, detailed by pre- and post-9/11 and by 
        category (fortification, guards and patrols).

    Senator Salazar. Thank you, Mr. Caan.
    Mr. Kennedy.

    STATEMENT OF GARY KENNEDY, SUPERINTENDENT, MANCOS WATER 
                CONSERVANCY DISTRICT, MANCOS, CO

    Mr. Kennedy. I want to thank the committee, Mr. Chairman 
and Senator Craig, and committee members and staff for the 
opportunity to speak before you today.
    I am Gary Kennedy, Superintendent of the Mancos Water 
Conservancy District. I have held this position for the past 18 
years, and I am here representing the Mancos Water Conservancy 
District's members, the Board of Directors of the Mancos Water 
Conservancy District. I'm glad to be able to provide to you the 
information for the Jackson Gulch Rehabilitation Act of 2007, 
S. 1477.
    I would like to give you a brief history of the project, 
just slightly. The project was approved in 1940, completed in 
1950's, with the Bureau of Reclamation operating and 
maintaining the project up until 1963 when the District did 
assume operations and maintenance due to financial situations 
and restraints to the District.
    Since then, the District has operated and maintained the 
project to the satisfaction of the Bureau of Reclamation. In 
1999, the District did celebrate the 50th Anniversary of the 
Dam. At that time, the Board reviewed the need for the 
reservoir, understanding that the past 50 years were useful, 
very needed for the Valley, and wanted to see that the project 
lasted another 50 years into the future.
    At that time, we went to the Bureau of Reclamation, asked 
for a feasibility report, which they happily gave to us, coming 
in with a $5.2 million cost for rehabilitation. Understanding 
the need of that important issue and protecting the Federal 
interest of the project, the Board at that time came to the 
State of Colorado and asked for funding to authorize a 
feasibility study with an engineering group for a full report 
of that rehabilitation.
    At that time, we came in with a $6.2 million price range. 
Understanding the importance, once again we started coming to 
Congress to ask for appropriations upon helping with that 
rehabilitation cost. This is our fourth time before the Senate 
asking those costs.
    Since we've started, our cost share has gone from 30 
percent down to 20 percent. That's just in a matter of 4 years. 
The District is in a crucial need. The canal system is vital to 
the Reservoir. It is an off-river reservoir. Without the canal 
system, the Reservoir is useless. For that, as far as, we're 
just here to plead and ask that you give us support for this 
bill.
    I want to thank you for the time that it took me to impress 
upon you the rehabilitation of Jackson Gulch Rehabilitation 
Act.
    Thank you, and open for any questions.
    [The prepared statement of Mr. Kennedy follows:]
   Prepared Statement of Gary Kennedy, Superintendent, Mancos Water 
                    Conservancy District, Mancos, CO
    Committee Chairman and Members: I am before you representing the 
board of directors and residents of the Mancos Water Conservancy 
District. I am Gary Kennedy, Superintendent of the District for the 
last 18 years. I would like to thank you for holding this hearing in 
order that I can provide information on Jackson Gulch Rehabilitation 
Act of 2007 (S. 1477).
                                history
    First I would like to provide a brief history of the project. The 
ranchers living in the Mancos valley during the dust bowl of the 1930's 
also experienced a devastating drought. This brought about discussion 
and a study--the end result of this was the construction of Jackson 
Gulch Reservoir (an off-river dam) providing storage of 10,000 acre 
feet of water storage. 2.6 miles of feeder canal (Inlet Canal) snakes 
along the steep West Mancos River Canyon, across a narrow mesa and 
dumps water from the West Mancos River into Jackson Gulch. Storage 
water is returned back to the river via 2.2 miles of return flow canal 
(Outlet Canal).
    The Mancos Project was authorized in 1940; construction began in 
1941. The CCC's began construction. During WWII, their camp became the 
home of many conscientious objectors. In 1947, the Venel Company was 
awarded the contract for the dam which was completed in 1954.
    Construction was continually plagued by interruptions caused by 
earth slides, rock falls, and adverse weather. Construction roads along 
the Inlet Canal were constantly being reinforced and rebuilt. In 1958 
the Bureau of Reclamation elected to discontinue rebuilding the roads. 
Natural erosion over the years has narrowed many places to barely 
walking trail width.
    Immense boulders have rolled right through portions of the canal. 
Mudslides have filled the canal requiring lengthy shut-downs for 
repairs. This could occur at anytime along the canal today. Fortunately 
with Reclamation's assistance, the majority of the concrete flumes are 
protected from small rock fall and mudslides by concrete lids. However, 
the earthen sections are still vulnerable to slides that which fill 
sections and/or take the canal into the canyon with them. We have 
experienced the loss of 700 feet of canal in the last 10 years. 
Boulders the size of cars hitting canal walls has created the need for 
emergency repairs.
                    o&m (operations and maintenance)
    The District assumed operations and maintenance of the project in 
1963 and has continued to the satisfaction of the Bureau of Reclamation 
to date.
    In the last 20 years, we have financed and overseen major upgrades 
to the project such as:

  <bullet> Construction of a permanent diversion dam on the West Mancos 
        River.
  <bullet> Installation of a Hydroelectric Power Plant (increased 
        revenue).
  <bullet> Installation of automated Measuring Devices and Structures 
        (conservation).
  <bullet> Purchase of Canal Easement.
  <bullet> Safety Measures (fences, protective covers on the canal, 200 
        feet of pipe for safety).
  <bullet> New Equipment for O&M.
  <bullet> 500 feet of pipe for Canal Repair.
  <bullet> 400 feet of Penstock Pipe Upgrade.
  <bullet> New bridges at canal crossings.

    The total amount of money spent during these years for these 
upgrades is over $850,000.
      importance of the mancos project and jackson gulch reservoir
    Many valley residents depend on the agricultural land for their 
livelihood. The town of Mancos and the Mancos Rural Water Company 
utilize the water stored in the reservoir to supply domestic water to 
residents. The water provided to over 550,000 annual visitors (742,080 
in 1992) to Mesa Verde National Park is supplied by the reservoir.
    In 1998, we experienced loss of a section of canal due to a 
landslide. The emergency repair was exceedingly expensive. In 2002, 
drought conditions resulted in sacrifice of irrigation water by 
agricultural producers in order that domestic water could be provided 
with drastic conservation measures. It is hard to imagine what would 
have happened had the reservoir not been in place to supply the 
domestic water. Our agricultural producers are just now recovering from 
that summer.
    It is plainly evident that loss of the reservoir is unacceptable. 
It is also evident that the District does not and cannot sustain or 
generate the revenue required to continue emergency management.
    Since the loss of the reservoir is not an option and emergency 
management is cost prohibitive, two options remain--either to rebuild 
the structures or to rehabilitate the structures. The Board requested a 
feasibility study from the Bureau of Reclamation for the cost to 
replace the structures and/or to rehabilitate the structures. The study 
was completed in 2000. Cost to rebuild was so excessive that 
rehabilitation was chosen. Projected cost at that time was 5.6 million. 
A formal engineer study came back with a cost of 6.2 million for total 
rehabilitation.
                     consequences of canal failure
    The canals were built in 1947 and 1948. The canals had a flow 
capacity of 258 c.f.s. They are concrete box flumes in some sections 
and earthen in others. Natural occurrences and emergency repairs have 
forced a reduction in our flow capacity. Current capacity is 160 c.f.s.
    The earthen canal sections have been plagued with land/mud slides 
since the start of construction. As stated previously, we've lost 700 
feet of earthen canal in the last 10 years. Repairs to canal sections 
cost well over $170,000 requiring loans from the State of Colorado. The 
failure of the canal area happened after extremely dry summers when the 
water in the reservoir was lower than normal. In fact, it had been 
drawn down to historic levels--18%--equal to 2 years of domestic water 
supplies.
    The concrete box flume was designed and constructed before the use 
of rubber water stops for construction joints. Over 50% of the 
construction joints have experienced serious deterioration causing 
reduced structural integrity. The seepage from deteriorating concrete 
walls not only reduces the structural integrity, it also contributes to 
slope instability and failure.
    One other hazard to the concrete flumes is rock fall. There is 
1,400 feet of the flume that is exposed to high-moderate rock falls. 
The right rock in the wrong place would destroy a section of the canal 
causing a large financial hardship due to the manner in which the 
repair would have to be made (helicopter in most cases). It would also 
most likely happen during inflow to the reservoir restricting water to 
the reservoir for an extended amount of time. Depending on the seasonal 
precipitation, it could take us more than one season to recover and 
would possibly cause great strain on water availability for domestic 
and agriculture.
    Access is a huge problem to approximately 1,000 feet of concrete 
flume. The construction road was not rebuilt after it failed in 1958. 
Rebuilding the road is much more financially responsible than making 
repairs by helicopter.
    The operation facilities were constructed in 1941-42 as temporary 
facilities. Partly due to the era and partly due to their temporary 
status, they were constructed using unconventional building methods. 
Therefore, these buildings do not conform to uniform building codes and 
do not comply with federal regulations. The District's Superintendent 
is required to live on-site by contract with Bureau of Reclamation. 
Following 9/11 this is even more important for the safety and security 
of the project itself.
                          previous legislation
    Most discussion on water projects focus on dams. There are 
financial programs (grants, etc) for dam safety, water storage, and 
conservation. However, for the few dams that rely on canals to supply 
the water for storage, there are no programs to help fund major 
repairs.
    In 1983, P.L. 98-50, 97 Stat. 251 was passed appropriating 3 
million dollars for improvement of siphons, concrete liners, improved 
irrigation efficiency, to conserve water and reduce O&M costs. The cost 
of this rehabilitation was non-reimbursable and the rehabilitated and 
new features were turned over to the operating entity for future O&M.
                                funding
    The District began to search for assistance for funding the 
rehabilitation:

  <bullet> We studied our ability to increase our income (water rates 
        and taxes). It was immediately evident that the small 
        population of the Mancos Valley could not provide total funding 
        but may be encouraged to accept an increase in their mill levy 
        taxes to cover a small percentage of the overall cost. In 1995 
        we asked the members of our District to approve a mill levy 
        increase of 5 mills to cover what we felt was a reasonable 
        share of the cost of rehabilitation our residents could 
        provide. The increase would bring our total mill levy to 6.5 
        mills. The measure passed by a very comfortable margin 
        providing us with not only the increased funds but the absolute 
        knowledge our residents understand the utmost importance of 
        their water supply and supported our efforts.
  <bullet> Water rates have been gradually increased in past years to 
        cover the cost of emergency repairs and will continue to be 
        gradually increased.
  <bullet> The Board requested assistance from the Bureau of 
        Reclamation with no success.
  <bullet> We researched and applied for grants. Our research has 
        revealed that there are no grants, state or federal, large 
        enough to cover the cost. We were successful in securing a 
        small grant to study the effects of lining material in the 
        canal. This will be finalized this year. We were also 
        successful in securing an EPA/Stag grant but have been unable 
        to collect these funds ($250,000).
  <bullet> We went to the State of Colorado. The State (CWCB) approved 
        a line of credit for engineering, cost share and interim 
        emergency repairs--up to 5.2 million dollars.
  <bullet> We decided to apply to Washington D.C. for appropriations. 
        We have been here four years in a row with our request for 
        partial funding to be awarded annually until complete (6 
        years). Each year reveals an increase in the cost due to 
        rapidly increasing construction expenses. And each year brings 
        us closer to a catastrophic canal failure.

    Before the study for rehabilitation, the District was aware of the 
need for increased revenue. After a lengthy process, a hydroelectric 
power plant was installed. The power plant is providing up to 250 KWH 
of hydro power or 912,000 KWH annually--enough electric power for 60 
homes saving 5,000 barrels of oil annually. The most revenue increase 
brought in by the hydro plant is $22,000/annually.
               consequences of failure to secure funding
    The options for the District should we fail to secure the funding 
necessary to rehabilitate the project are dismal. We cannot force funds 
from a source (valley residents) with no funds available. Current funds 
allow us to do some of the lesser rehabilitation but do not and cannot 
begin to cover the cost of the overall project. Emergency repairs will 
become more and more frequent causing the District to incur more and 
more debt. There will come a point when we will be unable to secure 
funding to cover the cost of emergency repairs. It is projected that 
maintenance issues will be forced to be delayed in order to cover 
emergency repairs.
    At that point it is projected that Bureau of Reclamation will begin 
to express concern and dissatisfaction with the O&M until the District 
will have no choice but to turn the project back over to Reclamation. 
When this possibility was brought to discussion before the board and 
Reclamation, the question was what would happen if this were to occur? 
The answer given to the board was that Reclamation is no longer in a 
financial position to operate and maintain this project; therefore in 
all likelihood the project would be locked up and/or shut down.
    If this were to be an eventuality, recreation on the reservoir 
would cease. Current estimates of visitation to the reservoir are 
80,000 people annually. Domestic water organizations would be forced to 
consider their own storage facilities to maintain some water delivery. 
Mesa Verde National Park would have to consider a storage facility or 
the possibility of having to haul water from other delivery points. 
Irrigated agriculture would cease to exist--limited dry land 
agriculture may be able to be maintained. If the drought continues, the 
river would dry up not far below the town limits in the months of July 
and August possibly through October. There is no way to predict the 
effect on wildlife, particularly waterfowl. We cannot begin to 
speculate on the effects to the people themselves.
    Therefore, we are here before you now asking for assistance in 
passage of this Bill. Passage will insure continued use of a project 
considered extremely vital in the 1940's and no less vital--if not more 
so--today. Plus, this Bill not only affects our local area, it will 
continue to fulfill that part of the Upper Colorado Compact which was 
established in 1922. It will protect not only the environmental issues 
connected with the canal system but agriculture, recreation, cultural, 
historical and futuristic uses. We ask you to observe the vision of our 
forefathers for the West and keep looking to the future and protect 
these resources so vital to those who will follow us.
    Thank you for this time in order that I could impress upon you the 
importance of the rehabilitation of the Jackson Gulch Rehabilitation 
Project Bill S. 1477.

    Senator Salazar. Thank you very much, Mr. Kennedy and we 
will ask some questions, if we have some time. We have a vote, 
Senator Craig has indicated, about 3:30 p.m. So, we'll keep 
going as long as we can, and have your testimony here, but we 
also have your statements for the record, as well.
    Ms. Benemelis.

STATEMENT OF PERRI BENEMELIS, ON BEHALF OF HERBERT R. GUENTHER, 
  DIRECTOR, ARIZONA DEPARTMENT OF WATER RESOURCES, PHOENIX, AZ

    Ms. Benemelis. Thank you. I'm Perri Benemelis. I'm here on 
behalf of Herb Guenther, the Director of the Arizona Department 
of Water Resources, to provide testimony in support of S. 300, 
the Lower Colorado River Multi-Species Conservation Program 
Act. I'd like to tell you a little bit about the program, and 
then talk about how this legislation helps to secure the long-
term benefits of the program.
    In April, 2005, the Secretary of the Interior signed the 
Record of Decision and program documents to implement the Lower 
Colorado River Multi-Species Conservation Program. This is a 
cooperative effort among 50 Federal and non-Federal entities in 
Arizona, California, and Nevada to protect 26 endangered, 
threatened, and sensitive species, while providing assurances 
to affected water and power agencies of the three States, that 
their operations may continue upon compliance with the Program 
requirements.
    The primary reason the non-Federal water and power entities 
have pursued development of, and agreed to share the cost, to 
implement this program, is to attain a higher level of 
certainty in the use of water and power resources of the 
Colorado River.
    Operation and management of the Lower Colorado River is 
complex. It involves non-Federal actions by parties in the 
three States, and management actions by the Bureau of 
Reclamation acting as the water master. The Lower Colorado 
Multi-Species Conservation Program provided comprehensive 
coverage for ongoing non-Federal and Federal operations, 
through a program that mitigates the effects of those 
operations.
    The program provides Endangered Species Act compliance for 
changes to existing operations up to a defined range of use, 
such as water diversion and change in points of diversion. 
Having this compliance allows the Basin States to discuss 
drought management options, such as temporary water transfers 
that otherwise would require individual compliance.
    The Program is unique when compared to previous efforts to 
recover endangered species associated with the Lower Colorado 
River. First, the Program includes most of the water and power 
users on the Lower Colorado River. Second, the program is 
coordinated and large scale. Finally, this 50-year program has 
an adaptive management component. The long-term program allows 
sufficient time to establish restored habitats, to evaluate 
monitoring and research data to address biological 
uncertainties. The opportunity to improve the status of these 
species to the point of downlisting, or removing them, from the 
endangered species list is enhanced by the large geographic 
scope, the broad stakeholder participation, and the coordinated 
implementation of this 50-year program.
    The Federal and State parties have agreed to share program 
implementation costs totally $626 million, indexed for 
inflation over the 50-year term of the program. Costs are split 
50 percent Federal, 50 percent non-Federal. S. 300 will affirm 
this funding agreement by providing that the Federal share of 
program costs will be non-reimbursable and will cap the non-
Federal cost at the agreed-upon amount. In addition to securing 
the program financial agreements, the legislation includes 
several provisions that affirm the agreements of the Federal 
and non-Federal participants.
    The bill provides that subsequent congressional action will 
not modify the parties' obligations unless specific to the 
program. It secures the ``no surprises'' and ``pertinent 
revocation'' policies contained in the program documents. The 
bill provides a limited waiver of sovereign immunity, to the 
extent that the non-Federal parties would ever need to enforce 
their agreements with the Federal Government. It does not 
provide for money damages.
    The bill authorizes the Secretary to enter into an 
agreement with the lower division States to provide water for 
implementation of the program.
    Program development and implementation has been an open and 
public process. The draft Habitat Conservation Plan underwent 
independent scientific peer review. The final plan was modified 
to incorporate recommendations from the review panel. Steering 
Committee meetings are noticed and open to the public. Program 
documents are available for review. Given the open and public 
nature of the program, the legislation would exempt the program 
Steering Committee from Federal Advisory Committee Act 
requirements.
    The water and power operations of the non-Federal entities 
covered by the program are critical to the citizens of the 
three lower division States. Colorado River water serves over 
20 million people in the lower basin and irrigates more than 
900,000 acres of farm land.
    This program is the best program to address endangered 
species needs, while preserving cities, farms, Indian tribes, 
and power production uses of the river. Enactment of this bill 
provides the non-Federal parties with certainty that the 
program will be funded and implemented as intended.
    I'll answer any questions that you have. Thank you.
    [The prepared statement of Mr. Guenther follows:]
Prepared Statement of Herbert R. Guenther, Director, Arizona Department 
                    of Water Resources, Phoenix, AZ
   s. 300, the colorado river multi-species conservation program act
    Thank you for the opportunity to provide the following comments in 
support of S. 300, ``The Lower Colorado River Multi-Species 
Conservation Program (LCR MSCP) Act''. In April 2005, the Secretary 
signed the Record of Decision (ROD) and Program Documents that 
implemented this comprehensive program to address the needs of 
threatened and endangered species that rely on the Colorado River and 
adjacent habitat for their continued existence. I, along with 
representatives of California and Nevada, joined the Secretary in 
signing the agreement that became the ROD. I hope that you will support 
this important legislation that protects the substantial financial 
commitment of the non-federal parties to the protection of these 
species.
    There have been other programs and individual efforts to improve 
the status of Lower Colorado River species and habitats. But the LCR 
MSCP differs from these other efforts in some significant ways. First, 
the Program includes most of the major water and power users on the 
Lower Colorado River. Second, the LCR MSCP is a coordinated, large-
scale Program covering approximately 100 miles of the Colorado River. 
The opportunity to improve the status of these species to the point of 
down or delisting is greatly enhanced by the geographic scope, 
stakeholder participation and coordinated implementation of the 
Program.
    Although Program implementation has already begun, federal 
authorizing legislation remains a final, very important goal. All of 
the LCR MSCP parties fully support implementation of the Program, but 
federal funding priorities change over time. The LCR MSCP is a long-
term, 50-year program. Program costs are high in the early years when 
land and water acquisition and costly habitat restoration and 
enhancement work are underway. The value of this early investment is 
only secure if the federal contribution is assured for the full term of 
the Program.
    The federal and state parties have agreed to share Program 
implementation costs totaling $626 million, indexed for inflation over 
the 50-year term of the Program. Costs are split 50 percent federal/50 
percent non-federal. S. 300 will affirm this funding agreement by 
providing that the federal share of Program costs will be non-
reimbursable, and cap the non-federal costs at the agreed upon amount. 
The State of Arizona has provided legislative authority to collect user 
fees to meet the Arizona portion of state parties funding obligation.
    In addition to securing the Program financial agreements, this 
legislation includes several provisions that affirm the agreements of 
the federal and non-federal participants. S. 300 provides that 
subsequent Congressional action will not modify the party's 
obligations, unless specific to the LCR MSCP. S. 300 will secure the 
``no surprises'' and permit revocation policies contained in the 
Program documents. It provides for a limited waiver of sovereign 
immunity to the extent that the non-federal parties would need to 
enforce their agreements with the federal government. S. 300 also 
authorizes the Secretary to enter into an agreement with the Lower 
Division States to provide water for implementation of the LCR MSCP.
    The LCR MSCP development and implementation has been an open and 
public process. The Draft Habitat Conservation Plan underwent 
independent scientific peer review, and the final Plan was modified to 
incorporate recommendations from the review panel. Steering Committee 
meetings are noticed and open to the public, and Program documents are 
available for review. Given the open and public nature of the Program, 
the legislation would exempt the LCR MSCP Steering Committee from 
Federal Advisory Committee Act requirements.
    The important objectives of this Program can only be accomplished 
if Reclamation obtains adequate, long-term funding to implement the 
Habitat Conservation Plan. The LCR MSCP is the best program to address 
endangered species needs while preserving cities, farms, Indian tribes 
and power production uses of the Colorado River. Arizona supports S. 
300, the Lower Colorado River Multi-Species Conservation Program Act, 
and asks for its enactment by Congress.
    Thank you for the opportunity to present Arizona's view on this 
important piece of legislation.

    Senator Salazar. Thank you very much, Ms. Benemelis.
    I'm going to turn it over to Senator Craig for any comments 
or questions that he might have and then I have some questions 
for some of you.
    Senator Craig.
    Senator Craig. Mr. Chairman, thank you very much and thank 
you for holding this hearing.
    All of these bills are critical and the areas of 
reauthorization or the areas of enhanced cooperation that have 
just been spoken to, that are representative in these pieces of 
legislation, are critical. I think Mr. Thalacker and Mr. 
McDaniel reflect for me the concerns we have in the reason and 
our effort to comply with the Endangered Species Act, our 
obvious effort to help these endangered and listed species in 
the Snake and the Columbia system. At the same time 
recognizing, obviously, the value of what we've done in the 
region to transform those water systems into working water 
ways, both for transportation and hydro and irrigation, 
critical to the environment in which we live out there.
    Of course, as you know Mr. Chairman, we have our critics. 
We have some that would like to remove all the dams and return 
the world, from which we never came, to somebody's memory. That 
isn't the way we run an arid West. We cooperate, we work 
together. We're accommodating in every respect as we can, the 
needs of our endangered species of fish in this case, mostly. 
At the same time I think that these pieces of legislation 
reflect the balance and the application and allocation of 
resources necessary to do a better job.
    I think the reality is, we are doing a better job, 
increasingly so. We know a lot more about our systems today 
than we did a decade or two ago, because we focused on them. As 
you've spoken to your work with the Advisory Committees, and 
tremendous amount of effort that's gone forward.
    So, I thank you all for your cooperative effort and the 
energy that has gone into this and these pieces of legislation. 
Because we're dealing, in most instances, with Federal projects 
and State relationships and private water-user relationships, 
where there has to be a cooperative effort. I think that we've 
come to a point here where moving these pieces of legislation 
is important, and timely, and I hope we can do so this year.
    Thank you.
    Senator Salazar. Thank you very much, Senator Craig.
    We have a vote underway as we speak, so I'm going to ask a 
few questions and then we will adjourn the hearing.
    Mr. Kennedy, you testified on behalf of the District and 
the need additional money. I think you said that the 
feasibility study indicated that the need for the 
rehabilitation of these canals and the structures was about 
$6.2 million?
    Mr. Kennedy. That's correct. That was in 2004.
    Senator Salazar. What steps has the District taken to try 
to come up with some or all of that money up to this point in 
time?
    Mr. Kennedy. Since then, the District has applied for a 
2025 grant for testing of canal linings, which we did receive, 
which was a 50/50 grant. We have those test liners in place and 
a final report will come out on those this fall. Since then 
we've also taken the need to the members of the district and 
asked for a tax increase to them of 5 mils, which was five 
times more than they had taxed previous, which they unanimously 
passed. We feel that we can not put any further burden on the 
tax payers of the district. We do have water rates, but those 
rates do have to go to operations and maintenance.
    Senator Salazar. Mr. Kennedy, so the members of the 
District taxed themselves 5 mils in order to create revenue in 
order to be able to take on their responsibility with respect 
to the maintenance and rehabilitation to the project?
    Mr. Kennedy. Yes they did, and that 5 mils also included 
rehabilitation.
    Senator Salazar. Five mils, within the district, generates 
how much money?
    Mr. Kennedy. Approximately $130,000.
    Senator Salazar. That's $130,000 per year?
    Mr. Kennedy. Per year.
    Senator Salazar. OK.
    From your point of view has the district properly 
maintained the canals since the Bureau transferred those canals 
over to the district?
    Mr. Kennedy. I believe they have so, yes.
    Senator Salazar. What would the passage of the legislation 
that we have here before us, S. 1477 do, if in fact we were 
able to get it through the Congress and signed by the 
President?
    Mr. Kennedy. It would allow us to keep the canal system as 
it is today, which preserves the historical value of it. At the 
same time, we'll be able to keep the concrete structures in 
place, rather than replacing them. We'll also be able to keep 
the earthen sections in place, which the foundations of both 
have been tremendously eroded because of weather, time, and 
seepage of the canals themselves.
    Senator Salazar. OK. Thank you, Mr. Kennedy.
    Let me check on the timing of the vote. While that's being 
checked on, I will ask just a couple of more questions, as I 
can.
    On S. 1522, Mr. Thalacker, can you give the subcommittee a 
sense of the magnitude of the work that still needs to be done 
with respect to fish passage and fish screens in the Pacific 
Northwest?
    Mr. Thalacker. Well, the previous 5 years of moneys, 
basically covered about 120 projects. We figure there's well 
over 1,000 screens and passage projects left to do.
    Senator Salazar. To Mr. Caan, Reclamation indicates that it 
is still seeking full reimbursement for the cost associated 
with increased guards and patrols at certain Reclamation 
facilities. From a rate-payer perspective, what are the 
implications of that initiative by the Bureau on the power 
users?
    Mr. Caan. Thank you, Mr. Chairman.
    We believe, because these are Federal multipurpose projects 
benefiting water, power, recreation, flood control, serving 
over 20 million Americans in the lower Colorado River and 
others, that it is unfair to place the entire burden of these 
costs on one element of that group, the power customers.
    That's why we feel this 15 percent, 85 percent split that's 
already been set as a precedent in the safety of dams, is a 
precedent, it makes a lot of sense to have that equitably 
shared, an appropriate and fair way to share those costs.
    Senator Salazar. OK. Mr. Caan and Mr. McDaniel, a similar 
question to you. What are the implications to the water users 
if Reclamation moves forward with its policy to seek 
reimbursement of all costs associated with increased guards and 
patrols?
    Mr. McDaniel. Well, I think, from my perspective, that, you 
know, it's just another increased cost to the irrigation 
districts, and our inability to make sure that those costs are 
going in appropriate ways. We're very concerned that--and 
historically we found that the more we negotiate, the better we 
understand the process and so we're able to get a better deal--
but, through full reimbursement of those costs and, I was not 
aware until I came to this meeting today, that there was a 
$14.5 million cap this year. But from year to year to year, we 
need to know what we're going to get. If they're going to 
increase those costs and if they're, and what they're 
allocating them for, it just makes it difficult for us to plan 
for the future.
    Senator Salazar. Thank you very much.
    To Ms. Benemelis: your testimony indicates concern that the 
Federal Government will not implement the MSCP Program 
consistent with the Program documents. Is that concern the 
reason why you are seeking this legislation?
    Ms. Benemelis. Well, not that Reclamation would not 
implement the Program consistent with the Program documents, 
it's a 50-year Program. The funding for the Program is very 
heavily front-loaded. During the early years of the program 
we're acquiring land and water and we're constructing restored 
habitats along the lower Colorado River. Our concern is just, 
that priorities change over time. We would like to do 
everything that we can to be sure to affirm that we've got a 
long-term funding stream to implement the full program.
    Senator Salazar. Thank you very, very much.
    Let me, first of all, thank each of the witnesses for 
coming here to Washington, DC from your respective States, 
traveling long distances with expenditure of resources and your 
time to be here to provide the testimony to the committee. I 
want to also thank all of the staff who works for the Committee 
on Energy and Natural Resources for the work that they do, 
including the staff that's on the Subcommittee of Water and 
Power here in the U.S. Senate. I want to thank the staff for 
each of the Senators for also helping on this important 
legislation.
    With that, the meeting is adjourned. All your testimony and 
the questions will all be made part of the record.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Response of Marc Thalacker to Question From Senator Salazar
                                s. 1522
    Question 1. Your testimony makes it clear that a number of very 
good projects have been implemented under the FRIMA program.
    Can you expand upon your answer at the hearing and provide the 
subcommittee some details on the magnitude of work that still needs to 
be done with respect to fish passage and fish screens in the Pacific 
Northwest? Are we making good progress at the levels of funding that 
have been provided?
    Answer. We have not been able to collect accurate information for 
you about the work still needing to be done and the progress that has 
been made under past FRIMA funding due to vacations at the state 
agencies that have this data. We will continue our efforts to get this 
information and forward it to you when we have it.
    In Oregon, the Oregon Fish and Game Department has chosen to put 
most of the FRIMA funding into on-the-ground projects to benefit and 
protect the fish rather than use funds to develop a full inventory to 
document the magnitude of work that still needs to be done. Based on 
informal surveys of entities that deliver irrigation water in Oregon, 
our estimate is that there are 200-500 diversions of different sizes 
that may still need fish screens. That, of course, does not account for 
the need in Washington, Idaho, and Montana. The cost for each of these 
varies based on the physical characteristics at the point of diversion 
including the shape of the stream bed and banks, the geological 
material in the bed and banks, the amount of water being diverted, the 
type of diversion structure, the sources of power for the screen 
(electric or paddlewheel or other) whether the fish can be just 
``turned back'' or there needs to be a side channel to move them back 
to the stream. Project costs range from roughly $500,000 to several 
millions dollars.
      Responses of Marc Thalacker to Questions From Senator Corker
    s. 1522, the fisheries restoration and irrigation mitigation act
    Question 1. S. 1522 would give priority to projects costing less 
than $2.5 million--down from the current threshold of $5 million. Why 
do you support this decrease?
    Answer. The reduction in the cost for priority projects reflects 
our experience over the life of FRIMA. We have found project costs to 
be less than originally anticipated and felt this should be reflected 
in the authorizing legislation.
    Question 2a. You've stated that you don't believe Congress intended 
FRIMA be used by municipal, Federal or Tribal governments to fund their 
facilities.
    Answer. OWRC does not have the list of applicants for projects, 
only information about projects that were funded. It is our 
understanding based on discussions we have had with USFWS and other 
parties involved with FRIMA that the USFWS has interpreted FRIMA to 
include municipal, Federal, and Tribal governments as eligible 
applicants. Our original intent for FRIMA was that it be used to 
mitigate the impact on fish from irrigation diversions. The proposed 
language in S. 1522 simply states the original intent and ensures the 
funding is used as originally intended.
    Question 2b. Are you aware of any cases where this has been 
occurred?
    Answer. OWRC does not have the full list of projects approved for 
FRIMA funding in the four states, but in reviewing the projects listed 
in the USFWS brochure (July 2005) there are projects sponsored by 
federal agencies and a landowner, by non-profit organizations, by state 
agencies, by cities, by tribes--all without a cooperating partnership 
with an irrigation district or other agriculture water supplier. It 
should be note, that many of these same types of entities also had 
projects in which they partnered with irrigation districts or other 
agriculture water suppliers.
    Question 3. Why do you believe it is necessary to specify that BPA 
funds be considered non-federal share money? Has any entity been 
prohibited from accepting BPA funds as part of the non-federal share?
    Answer. OWRC supports considering BPA funding as non-federal funds 
for two reasons. First, BPA provides funding to protect fish in the 
Columbia Basin through different groups. This is a major source of 
funding for these kinds of projects in the Basin where this is little 
other funding available. By allowing BPA funds to be considered non-
federal share money, we anticipate more projects being proposed and 
built as this would provide some part of the non-federal match for 
project sponsors who have no other source of funding.
    Secondly, BPA funds are rate-payer funds, not Federal funds. These 
rate-payer funds are from local entities in the states. The 
circumstance that these funds are budgeted through the Federal 
budgeting process does not convert them from local funding; it only 
serves as the medium that enables BPA to budget them for local 
projects.
                                 ______
                                 
     Responses of Shannon McDaniel to Questions From Senator Corker
                   s. 1258, the site security program
    Question 1a. In FY06, the Bureau collected $10 million in security-
related O&M guard costs from its customers. How much of an increase did 
your customers see in their monthly bills?
    Answer. Our customers do not receive monthly bills. They are 
assessed annually for operation and maintenance charges.
    Question 1b. How will customers be impacted by the collection of 
$14.5 million this year?
    Answer. There are 630,000 acres in the Columbia Basin Project, and 
the increase in the annual bill was $62,000.
    Question 1c. How much of an increase would your customers see if 
the Administration collected the full $18.9 million request?
    Answer. The Districts will pay $82,000 without a cap. However, it 
is important to note that our landowners are dual customers. They are 
also power consumers and receive retail power through a public utility 
district or rural electric association that receives power from 
Bonneville Power Administration. Therefore, the landowners pay for this 
charge at Grand Coulee Dam as a U.S. Bureau of Reclamation payment and 
then receive additional charges through their monthly electric bills. 
None of these costs can be passed on to consumers of agricultural 
products, leaving crop producers with higher operating costs and less 
income.
    Question 2a. From which facilities do you receive your water or 
power and are you a primary or secondary customer?
    Answer. We receive both water and power from Grand Coulee Dam. The 
Columbia Basin Project's primary feature is Grand Coulee Dam. We have a 
contract with the United States for power and water at the dam through 
the Columbia Basin Project.
    Question 2b. Have those facilities already been fortified by the 
Bureau at the Administration's expense?
    Answer. Yes.
    Question 2c. How do you respond to the argument that a 15% cap that 
covers both capital fortifications and O&M expenses will result in 
increased costs for those customers of facilities where fortification 
is not yet complete?
    Answer. Our goal is to pay those costs in the future. If the bill 
needs to be amended to include initial fortification costs, that would 
be acceptable to us.
    Question 3a. I think it is safe to assume that the country will 
never return to the security posture that existed prior to September 
11, 2001. Reclamation has stated in their budget justifications that 
facility fortification and anti-terrorism management-related 
expenditures will continue to be non-reimbursible. However the costs 
for guards and patrols are reimbursable to their water and power 
customers. As the ratepayers, as well as the water and power customers, 
benefit from the enhanced security provided by these guards and 
patrols, what is the justification that these should be Federal 
expenses?
    Answer. My understanding is that the war on terrorism is a war. We 
realize that we will probably never return to the laissez faire type of 
security conditions that previously existed. However, a war on 
terrorism in the protection of federal assets should be a federal 
expense, in our opinion.
    Question 3b. Wouldn't you think that it is only fair that those who 
benefit from this enhanced security level should pay part of the costs?
    Answer. I thought that this was what the bill was about. Therefore, 
both irrigation customers and power customers would pay 15 percent, and 
the federal government would pay the remaining 85 percent.
                                 ______
                                 
       Responses of George Caan to Questions From Senator Salazar
                                s. 1258
    Question 1. Reclamation indicates that it is seeking full 
reimbursement for the costs associated with increased guards and 
patrols at certain Reclamation facilities.
    What are the implications of that policy for power users? Have 
power rates increased already because of the allocation of a portion of 
the costs? Will they increase more in the future?
    Answer. The history of Reclamation's policy to seek full 
reimbursement of the costs of guards and patrols from water and power 
users is as follows:
    In April 2002 the Commissioner of Reclamation made an 
administrative determination that all costs of enhanced site security 
should be a federal responsibility, consistent with the way similar 
costs were treated during World War II. Therefore, in fiscal years 
2002, 2003 and 2004 costs for dam fortification work, guards and 
patrols and related expenses were non-reimbursable by project 
beneficiaries.
    In its FY 2005 budget submission, the Bureau of Reclamation 
(Reclamation) shifted course and proposed that water and power 
customers pay for costs of increased guards and patrols at its dams. 
However, Congress in the FY 2005 Energy and Water Development 
Appropriations bill directed Reclamation not to collect any costs of 
increased security from customers until directed to do so by Congress.
    In FY 2006, Congress allowed Reclamation to recover $10 million of 
the $18.9 million in reimbursable costs the agency requested from water 
and power customers, but expressed concern about the equity of imposing 
the reimbursablity responsibility only on water and power 
beneficiaries.
    In FY 2007, Reclamation again requested that water and power 
customers reimburse the full cost of guards and patrols, almost $20 
million. As a result of a compromise following enactment of a 
Continuing Resolution for FY 2007, $14.5 million will be reimbursed by 
water and power customers.
    For FY 2008, Reclamation has again proposed that water and power 
customers reimburse the full cost of guards and patrols. These costs 
are passed by Reclamation to the Western Area Power Administration 
(Western), which adds them to the cost of power generated at federal 
dams and passes them on to its utility power contractors. Those 
utilities, in turn, pass them on to their commercial, industrial, 
municipal, tribal and residential customers.
    Whether the increased costs for guards and patrols have impacted 
power rates depends on the timing of rate processes at each project. 
For example, at Hoover Dam, Western reviews and adjusts its power rates 
each year, so increased costs for guards and patrols in FY 2006 and 
2007 have already been passed through to power purchasers.
    At the Colorado River Storage Project (CRSP), however, the costs of 
increased guards and patrols have been allocated to power contractors, 
but Western adjusts the rate periodically, rather than annually. 
Therefore, FY 2006 cost increases have not yet been reflected in the 
CRSP power rate, but will be when Western implements the next rate 
adjustment.
    Question 2. Reclamation is currently seeking reimbursement on just 
O&M costs, not capital costs related to facility fortification. S. 1258 
would require some reimbursement for capital costs.
    Is there a policy reason that exists from your perspective on why 
some water and power users should now have to repay a portion of the 
capital costs associated with site security?
    Answer. CREDA believes that the best policy would be for the 
federal government to pay 100% of the costs of increased security at 
Reclamation dams, because the dams are national assets and because 
historically these national security costs have been a federal 
obligation.
    However, in an effort to reach a reasonable compromise, CREDA and 
other members of the water and power coalition that supports S. 1258 
looked for legislative models for cost-sharing. The Safety of Dams Act 
requires project beneficiaries to pay 15% of the capital costs of dam 
modifications due to new seismic or hydrologic data. Eighty-five 
percent of the costs of such modifications are paid by the federal 
government.
    This model seemed both reasonable and apt, because the increased 
security measures (both capital and O&M expenditures) now required at 
Reclamation facilities are due to new information available about post-
September 11, 2001 terrorism threats. The coalition members believe 
that the policy rationale that justifies the 15/85 cost-sharing formula 
for Reclamation's Safety of Dams program applies equally well to 
Reclamation's site security program.
       Responses of George Caan to Questions From Senator Corker
    Question 1. In FY06, the Bureau collected $10 million in security-
related O&M guard costs from its customers. How much of an increase did 
your customers see in their monthly bills? How will customers be 
impacted by the collection of $14.5 million this year? How much of an 
increase would your customers see if the Administration collected the 
full $18.9 million request?
    Answer. For CRSP customers, the impact of the '06 collection is 
just beginning to be felt. Rates are reviewed annually and adjusted 
periodically by the Western Area Power Administration. Western must 
include Reclamation costs--such as site security costs--into its rate-
setting process.
    Western has begun a rate increase process for the CRSP, currently 
expected to be about 14%, to be implemented in October '08. This 
increase includes not only the impact of the inclusion of increased 
guard costs, but also increases in Reclamation and Western operating 
expenses and impacts of the ongoing drought in the Southwest.
    The impact of the CRSP's share of the $14.5 million for FY 2007 is 
also included in this rate adjustment. If the full $18.9 million were 
collected, the rate increase would be higher than the 14%, but Western 
has not recalculated what that amount would be at this point.
    Question 2. From which facilities do you receive your water or 
power and are you a primary or secondary customer? Have those 
facilities already been fortified by the Bureau at the Administration's 
expense? How do you respond to the argument that a 15% cap that covers 
both capital fortifications and O&M expenses will result in increased 
costs for those customers of facilities where fortification is not yet 
complete?
    Answer. For CRSP power customers, power is generated primarily at 
the Glen Canyon Dam, Flaming Gorge Dam and Aspinall Unit (comprised of 
the Blue Mesa, Morrow Point and Crystal Dams). Glen Canyon generation 
represents about 70% of the total CRSP generating resource. It is one 
of Reclamation's multi-purpose, National Critical Infrastructure (NCI) 
facilities. It is CREDA's understanding that fortification has been 
substantially, if not entirely, completed at all Reclamation's NCI 
facilities. However, due to the security nature of the issue, customers 
do not have complete access to information about those completed 
improvements or potential future fortifications.
    It is further CREDA's understanding that, once fortification of NCI 
facilities is completed, Reclamation will proceed to fortify other, 
smaller, single-function facilities (e.g. irrigation only projects.) If 
S. 1258 is enacted, there will, indeed, be an increase in security 
costs to customers at some projects, i.e. those that currently have no 
or minimal costs for guards and patrols. Under Reclamation law, capital 
costs that are considered beyond the ``ability to pay'' of irrigators 
are allocated to power users for repayment. Thus, we anticipate that a 
significant portion of capital costs that would be reimbursable if S. 
1258 is enacted would be costs to power users. We believe that the 
``trade-off'' for power users that would result from enactment of S. 
1258, i.e. our agreeing to pay for 15% of previously non-reimbursable 
capital costs for fortification work in exchange for the certainty that 
only 15 percent of all site security costs would be reimbursed by water 
and power users, is worthwhile.
    Question 3. I think it is safe to assume that the country will 
never return to the security posture that existed prior to September 
11, 2001. Reclamation has stated in their budget justifications that 
facility fortification and anti-terrorism management-related 
expenditures will continue to be non-reimbursable. However the costs 
for guards and patrols are reimbursable to their water and power 
customers. As the ratepayers, as well as the water and power customers, 
benefit from the enhanced security provided by these guards and 
patrols, what is the justification that these should be Federal 
expenses? Wouldn't you think that it is only fair that those who 
benefit from this enhanced security level should pay part of the costs?
    Answer. We do think it is reasonable to ask water and power 
customers to pay a fair share of the costs of increased site security 
at Reclamation dams. However, many of these facilities are multi-
purpose facilities, serving millions of Americans through a variety of 
functions, including flood control, water supply, power supply, 
recreation, etc. We believe that all who benefit from these important 
facilities should share in the cost of ensuring their safety and 
security. For example, if a terrorist attack succeeded in taking out a 
major dam, most of the impact would be from loss of life and property 
from flooding downstream and loss of the water supply. For various 
reasons, Reclamation has not sought to recover costs from other project 
beneficiaries or to identify other potential sources of revenues, e.g. 
a fee charged to visitors at the Glen Canyon or Flaming Gorge Dam 
visitor centers.
    S. 1258 does not attempt to authorize Reclamation to seek 
reimbursement from those who benefit from the flood control, recreation 
or other functions of these multi-purpose projects. Instead, it 
provides fairness to water and power customers another way: by 
implementing a fairer cost-sharing formula than the one Reclamation now 
seeks to impose. It provides that these customers contribute 15% of all 
site security costs and that the remaining costs be assumed from the 
federal government on behalf of these multi-purpose, multi-use 
facilities. We do think, as you ask, that it is fair for water and 
power customers to pay part of the costs, thus the 15% included in this 
bill.
                                 ______
                                 
       Response of Gary Kennedy to Question From Senator Salazar
                                s. 1477
    Question 1a. Reclamation's testimony indicates that major facility 
rehabilitation is the District's responsibility pursuant to an existing 
contract. Per contract in question I1r-1384, there is no reference to 
rehabilitation or replacement.
    Do you agree with Reclamation's interpretation of the contract?
    Answer. No. I do not agree. The interpretation appears to be an 
assumption of contracts issued throughout Reclamation and not specific 
to the District's contract. The District's contract (I1r-1384) article 
11 only specifies operations and maintenance.
    Question 1b. Is the work that needs to be done beyond routine 
maintenance?
    Answer. Yes. Operations and maintenance has done all it can to 
protect or slow deterioration due to age or exposure to the elements.
    Question 1c. Has Reclamation expressed any dissatisfaction with the 
District's maintenance program as a result of its annual inspection?
    Answer. No. The District has maintained the project to the 
satisfaction of the B.o.R. since it assumed the duties of O&M. I have 
attached several inspections that have been completed during my tenure.
        Response of Gary Kennedy to Question From Senator Corker
    Question 1. Please describe your analysis of the additional rate 
increase needed to pay for the project if all the costs were deemed 
reimbursable.
    Answer. Today's Cost is Approximately $8,065,389. Annual Interest 
Rate (if available): 3%. Loan Period in Years: 30. Annual Payment: 
$411,514.
    There are 1,525 taxable properties in the Mancos Water Conservancy 
District. The mill per taxable property was 1.5. In 2005, based on the 
information given the residents regarding the cost of rehabilitation 
and restoration we had secured from our engineer study, those residents 
voted in a 5.0 mill levy tax increase (total mill levy=6.5). Therefore, 
1,525 taxable properties pay an additional tax of $123,596 annually.
    As previously established, the annual loan payment would be 
$411,513.13. Minus the tax increase of $123,596, those 1,525 taxable 
properties would be asked to pay an additional $287,917 of new taxes 
annually. It is important to note that the average median household 
income of Montezuma County based on 2004 census figures is $34,416 
(compared to $50,105 Colorado state-wide--http:www//quick- 
facts.census.gov/qfd/states/08/08083.html).
    That's an additional 12 mills for a total mill levy of 18.5. There 
are 12 different taxing entities in addition to our district.
    Even if we could convince property owners within our District to 
vote on that kind of tax increase, none of the funds raised could be 
slated for O&M, safety and security issues, or reserved for future 
replacement.
    If you or any of the committee members have any additional 
questions I would be happy to see that they get answered.
                                 ______
                                 
     Responses of Perri Benemelis to Questions From Senator Salazar
    Question 1. The Lower Colorado River Multi-Species Conservation 
Program (LCR MSCP) is a unique program that combines federal compliance 
under Section 7, and non-federal compliance under Section 10 of the 
Endangered Species Act (ESA). Enactment of S. 300 provides the non-
federal parties with certainty that the program will be funded and 
implemented as intended.
    Do you believe that the program documents provide the necessary 
flexibility to address changed circumstances over the next 50 years?
    Answer. Yes. The program addresses future changed circumstances in 
two ways. First, the parties to the program documents have assumed an 
explicit obligation to deal with defined changed circumstances. Second, 
the program includes monitoring, research and adaptive management 
components to ensure that the measures employed to conserve species and 
their habitat will be based on the most current, and best available 
scientific information. If this data indicates that alternate species 
conservation measures will provide greater species benefit than 
currently prescribed measures, the Habitat Conservation Plan (HCP) can 
be modified and funding may be reprogrammed.
    The HCP defines specific changed circumstances, prescribes required 
response measures and commits over $13 million to respond to changed 
circumstances. Defined changed circumstances include failure to 
establish essential habitat elements for one or more of the covered 
species, drought or shortage reductions to water supplies, 
sedimentation of backwater habitat or destruction of terrestrial 
habitat due to flooding, loss or reduced production capability for fish 
rearing facilities, toxic or hazardous substance spills affecting 
conservation areas or future listing of non-listed covered species.
    Response measures will be implemented after conferring with the 
U.S. Fish and Wildlife Service (USFWS) the federal agency charged with 
the responsibility of protecting endangered species and their habitat. 
Current monitoring and research data will be used to develop an 
informed response to habitat or aquaculture technique failures. If 
flooding destroys terrestrial habitat, it will be recreated. If 
flooding results in sedimentation of backwater or marsh sites, those 
sites will be dredged. Toxic or hazardous waste spills will be 
evaluated on a case by case basis, and appropriate response measures 
taken. The HCP already provides covered activities mitigation for 20 
covered, but not currently listed species. If any of these covered 
species are listed in the future, the USFWS will automatically 
authorize take as prescribed by regulation.
    Question 2. What happens if the species of concern decline in 
population and health?
    Answer. The HCP includes the restoration of more than 8,000 acres 
of habitat and stocking of more than 1.2 million juvenile fish to 
augment populations of two endangered fish covered by the program. 
Habitat restoration involves more than just planting trees. Habitat is 
not considered ``restored'' until plant communities have sufficiently 
matured, or additional habitat features are established to provide the 
primary constituent elements that covered species rely upon for their 
survival. Ongoing monitoring will provide information about the status 
of restored habitats and utilization by covered species. If monitoring 
data indicates that a covered species continues to decline regardless 
of the successful implementation of conservation measures, program 
biologists will evaluate alternate conservation strategies which may be 
implemented through the adaptive management process.
    Question 3. Do you believe that Reclamation currently has all the 
Authority it needs to implement all aspects of the MSCP consistent with 
the Program documents?
    Answer. Reclamation has no specific authorization to implement the 
LCR MSCP. It has been doing so as part of its Colorado River operations 
program, and within its obligations under the Endangered Species Act. 
This legislation will affirm Congress' commitment to support 
Reclamation through specific authority to implement the program and 
long-term funding.
    The bill also provides a legal basis for the authority to use 
Colorado River water for LCR MSCP purposes. A contract with the 
Secretary of the Interior (Secretary) is required for the use of 
Colorado River water pursuant to the Boulder Canyon Project Act of 
1928. Reclamation's Lower Colorado Regional Director enters into water 
delivery contracts on behalf of the Secretary. The water delivery 
contract constitutes an authorization to use Colorado River water in 
the Lower Basin. These contracts define the type of use, either for 
domestic or agricultural purposes.
    The beneficial use of Colorado River water for environmental 
purposes has been called into question from time to time, and was 
challenged by parties in California during negotiations of the 
Quantification Settlement Agreement (QSA). Although the California 
issue was resolved to the extent necessary to implement the QSA, S. 300 
would provide explicit authorization for the Secretary to enter into an 
agreement with the Lower Division States to provide Colorado River 
water for implementation of the LCR MSCP. Subject to final review and 
approval within the Interior Department, the non-federal parties have 
reached agreement with the United States on an agreement to provide 
Colorado River water for LCR MSCP purposes, as authorized by Section 
3(b) of the bill. Representatives of the Interior Department have 
advised us, however, that the United States will not be able to execute 
the agreement unless and until Congress enacts S. 300 or the companion 
House bill. The legislation does not alter existing rights to use 
Colorado River water.
    This legislation will secure the long-term benefits of the program 
for covered species, water and power users.
                                 ______
                                 
      Response of Perri Benemelis to Question From Senator Corker
    Question 1. Please describe why you believe that additional 
authorities are needed to fully implement the Lower Colorado River 
Multi-Species Conservation Program. Specifically address why you 
believe the Department does not have clear authorities to administer 
the program under existing statutes.
    Answer. Reclamation has no specific authorization to implement the 
LCR MSCP. It has been doing so as part of its Colorado River operations 
program, and within its obligations under the Endangered Species Act. 
This legislation will affirm Congress' commitment to support 
Reclamation through specific authority to implement the program and 
long-term funding.
    The bill also provides a legal basis for the authority to use 
Colorado River water for LCR MSCP purposes. A contract with the 
Secretary of the Interior (Secretary) is required for the use of 
Colorado River water pursuant to the Boulder Canyon Project Act of 
1928. Reclamation's Lower Colorado Regional Director enters into water 
delivery contracts on behalf of the Secretary. The water delivery 
contract constitutes an authorization to use Colorado River water in 
the Lower Basin. These contracts define the type of use, either for 
domestic or agricultural purposes.
    The beneficial use of Colorado River water for environmental 
purposes has been called into question from time to time, and was 
challenged by parties in California during negotiations of the 
Quantification Settlement Agreement (QSA). Although the California 
issue was resolved to the extent necessary to implement the QSA, S. 300 
would provide explicit authorization for the Secretary to enter into an 
agreement with the Lower Division States to provide Colorado River 
water for implementation of the LCR MSCP. Subject to final review and 
approval within the Interior Department, the non-federal parties have 
reached agreement with the United States on an agreement to provide 
Colorado River water for LCR MSCP purposes, as authorized by Section 
3(b) of the bill. Representatives of the Interior Department have 
advised us, however, that the United States will not be able to execute 
the agreement unless and until Congress enacts S. 300 or the companion 
House bill. The legislation does not alter existing rights to use 
Colorado River water.
    This legislation will secure the long-term benefits of the program 
for covered species, water and power users.
                                 ______
                                 
    [Responses to the following questions from the Department of the 
Interior were not received at the time the hearing went to press.]
                     Questions From Senator Salazar
                                s. 1477
    Question 1a. You oppose federal support for rehabilitation of this 
project because of the precedent it would set for other projects across 
the country in need of rehabilitation.
    Isn't the Jackson Gulch situation an example of a much larger 
problem that exists with a number of Reclamation projects? Is 
Reclamation doing anything to address the impending crisis that exists 
West-wide because of the aging infrastructure of its facilities? What 
specifically is Reclamation doing to address the problem of aging 
infrastructure?
    Question 1b. Please provide the Subcommittee a list of the 
Reclamation Projects, including specific infrastructure, which are in 
need of significant rehabilitation or replacement in order to maintain 
water and power infrastructure at peak operating efficiency. In 
addition to specific infrastructure, please also identify the scope of 
work required, including cost estimates.
    Question 2. Your testimony asserts that the District is solely 
responsible for the operation, maintenance, and replacement of these 
facilities, pursuant to their contract.
    Please explain in detail, with supporting documentation, the basis 
for your assertion that the District assumed responsibilities for 
rehabilitation and replacement of project facilities, when it assumed 
responsibility for annual operations and maintenance.
    Question 3. With respect to the Mancos Project, you've acknowledged 
that the canals need to be rehabilitated, that the U.S. owns the 
project, and that a large number of water users rely on these 
facilities.
    What are the implications of the District being unable to afford 
the full cost of the necessary rehabilitation of the system? What is 
Reclamation's liability if the facilities fail, and rehabilitation and 
replacement are not necessarily the District's responsibility under the 
contract?
                                 s. 300
    Question 4. The bill directs the Secretary to implement the MSCP 
consistent with the ``program documents''.
    Do those documents provide flexibility to modify the program to 
address changing circumstances or new scientific information over the 
next 50 years? If so, please describe in detail the provisions which 
maintain program flexibility.
                                s. 1258
    Question 5. The water and power users' testimony describes problems 
that exist with Reclamation's current approach to allocating security 
costs. These problems include a include the lack of transparency in 
determining the level of security needed; and that site security costs 
are only allocated to water & power users, and not other project 
beneficiaries.
    What is Reclamation doing to improve transparency in allocating 
security costs?
    Are the water power users correct in alleging that site security 
costs are not allocated to all project functions/beneficiaries?
                     Questions From Senator Corker
                   s. 1258, the site security program
    Question 1a. In its FY07 Budget Request, the Administration 
anticipated full reimbursement of $18.9 million for security-related 
O&M guard costs. However, due to the Continuing Resolution, the Bureau 
is collecting $14.5 million this year.
    With the collection of $14.5 million in security costs, how much of 
an increase will end-use customers see in their bills? How much of an 
increase would they see if the entire amount was collected?
    Question 1b. Do you expect the $18.9 million requested amount to 
remain steady or will in increase over time?
    Question 1c. Are the reimbursable security costs distributed 
uniformly across all of the customers?
    Question 2. How has the Corps of Engineers, which also operates 
multi-purpose federal facilities, addressed this security cost issue? 
In particular, how have TVA and its customers handled relevant security 
costs?
    Question 3a. Since 9/11, the Bureau has continued to pay for the 
capital investment of facility fortifications. S. 1258 would cap the 
costs collected by water and power customers to 15%--covering both 
guard O&M costs, and, for the first time, capital costs.
    How many facilities have been fortified? How many are left?
    Question 3b. While S. 1258 would cap the costs for some customers 
on the O&M side, wouldn't it result in increased costs for those 
customers whose facilities have yet to be fortified?
    Question 4. This legislation amends the Safety of Dams program. Is 
that appropriate?
    Question 5. We have heard repeatedly from the secondary power 
customers concerning the reimbursement of these security costs, yet 
surprisingly little from the primary power customers. Do you know why 
that might be the case?
   s. 300, the colorado river multi-species conservation program act
    Question 1. Please describe all the existing authorities that 
Reclamation has used, and will use to fully implement the Lower 
Colorado River Multi-Species Conservation Program.
                 s. 1477, jackson gulch rehabilitation
    Question 1. Please describe how the Administration determines which 
projects need rehabilitation.
                     Question From Senator Cantwell
    Question 1a. Mr. Todd, following the attacks on Pearl Harbor in 
1942, then-Reclamation Commissioner John C. Page advised Congress that 
costs for enhanced security at federal dams should be non-
reimbursible--that they are the responsibility of the federal 
government.
    Following September 11, and consistent with federal policies 
adopted following the attack on Pearl Harbor, the Commissioner of 
Reclamation in April 2002 made an administrative determination that 
Operation and Maintenance costs that pay for enhanced guards and 
patrols at Reclamation's multi-purpose projects were in the public 
interest, and should be paid for by the federal government.
    But in FY 2005, the Bureau reversed this decision and have saddled 
water and power customers with 100% of the increased costs of enhanced 
guards and patrols.
    Mr. Todd, recognizing that security enhancements benefit the public 
at large and thus are the responsibility of the federal government, why 
did the Bureau in FY 2005 shift its earlier position that water and 
power users should not bear 100% of the responsibility for paying for 
increased security costs?
    Question 1b. How are Post-9/11 security enhancements different than 
Post-Pearl Harbor security enhancements?
    Question 2. Mr. Todd, there is currently no cap on what the Bureau 
can spend on guards and patrols for enhanced security at federal dams. 
There is also little transparency to how the Bureau determines those 
costs. So if the Bureau continues to act with no accountability for the 
Site Security program, and with no Congressional oversight, there is 
nothing to stop the costs from rising exponentially.
    As one example of this cost uncertainty, replacement fortification 
costs were not a reimbursable cost in FY 2005. But in FY 2006 the 
Bureau decided that replacement fortification costs suddenly were 
reimbursable by the water and power customers. Much worse, the Bureau 
has not even disclosed how much these costs are.
    The Northwest region and BPA are trying very hard to keep all costs 
as low as possible and to plan for future costs, so every dime counts.
    Currently BPA and the Northwest Region are involved in a 
painstakingly detailed multi-year ``Regional Dialogue'' on how best to 
allocate power generation resources for the next two decades.
    With a lack of cost controls and congressional oversight and 
transparency to the Bureau's current site security program, water and 
power customers have little certainty about future costs for this 
program.
    Mr. Todd, given this uncertainty in future costs and the lack of 
cost controls, transparency, or Congressional oversight of the Bureau's 
current Site Security program, how can you provide certainty to water 
and power customers about future costs of security enhancements?
    Question 3a. Mr. Todd, currently only water and power users are 
paying for the enhanced site security costs of guards and patrols at 
federal dams. Yet, multi-purpose projects provide many benefits to the 
general public such as flood control, recreation, fish and wildlife 
mitigation, and navigation that help ships our farmer's products to 
market.
    Given that there are more than several beneficiaries for each 
project, do you think it is fair to saddle water and power customers 
with all of the reimbursable security costs?
    Question 3b. What plans does the Bureau have for equitably 
apportioning responsibility for security costs among all the project 
beneficiaries?
    Question 3c. What obstacles are standing in your way and how do you 
suggest overcoming them?
    Question 3d. Once the Bureau determines which costs should be 
reimbursed by project beneficiaries, how does it allocate those costs 
among beneficiaries?
    Question 3e. Why aren't all classes of project beneficiaries 
allocated a portion of the costs the Bureau determines should be 
reimbursed?
                                 ______
                                 
    [Responses to the following questions from the Fish and Wildlife 
Service were not received at the time the hearing went to press.]
                     Question From Senator Salazar
                                s. 1522
    Question 1. Both your testimony, and that of the Oregon Water 
Resource Congress, hail FRIMA as a true success, and an example of the 
cooperative approach needed to protect and restore depleted fish stocks 
in the Pacific Northwest, which also protects the interests of water 
users.
    Why hasn't the Administration requested any funding for the program 
in its annual budgets? What can be a higher priority than a cooperative 
program in which the state and local parties are shouldering most of 
the costs to achieve federal objectives? Please describe the federal 
objectives being address by FRIMA.
                      Question From Senator Corker
    s. 1522, the fisheries restoration and irrigation mitigation act
    Question 1. You testified that ``in some instances, BPA funds are 
treated as non-federal cost share amounts. However, more study and 
evaluation is needed to determine whether Bonneville funds should be 
counted toward the non-federal component of FRIMA.''
    In what instances have BPA funds been treated as a non-federal 
cost-share amount? What are the Administration's concerns regarding 
such treatment? Why do you believe further study is needed?
                      Questions From Senator Wyden
                           regarding s. 1522
    Question 1. Mr. Wilson, the Fish and Wildlife Service has been a 
good partner in this program and we want to continue to work with you. 
However, as you stated during the hearing, the Fish and Wildlife 
Service has never requested any federal funds for this program, because 
it was not of sufficient priority. Given the billions of dollars that 
are being spent on restoring and protecting both listed and non-listed 
fish populations in the Northwest and years of litigation concerning 
impacts of federally constructed and operated dams and reclamation 
projects on endangered species in the Northwest (such as biological 
opinion on Coho salmon pending before Judge Redden), why isn't this 
program a higher priority? Please also identify for the Subcommittee 
what Fish and Wildlife programs have a higher priority?
    Question 2. Please submit for the record, copies of the most recent 
inventories of fish diversion projects that could be implemented with 
FRIMA funding for each state. Within each state, please provide the 
level of funding needed in order to implement these projects in 
priority order.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

           Statement of the American Public Power Association
    We appreciate the opportunity to submit this statement for the 
record related to the Subcommittee's hearing to receive testimony on S. 
1258, which would amend the Reclamation Safety of Dams Act of 1978 to 
authorize improvements for the security of dams and other facilities. 
The American Public Power Association (APPA) strongly supports S. 1258.
    APPA is the national service organization representing the 
interests of the 2,010 municipal and other state- and locally-owned 
utilities throughout the United States (all but Hawaii). Collectively, 
public power utilities deliver electricity to one of every seven 
electric consumers (approximately 44 million people), serving some of 
the nation's largest cities. However, the vast majority of APPA's 
members serve communities with populations of 10,000 people or less. Of 
the 2,010 public power systems nationwide, approximately 580 of them 
receive all or a portion of their power supply directly from one of the 
four federal Power Marketing Administrations (PMAs).
    The PMAs were specifically created to market federally-generated 
hydropower from Bureau of Reclamation and U.S. Army Corps of Engineers 
multi-purpose water projects with a right of first refusal granted to 
not-for-profit entities including public power systems and rural 
electric cooperatives. These entities market wholesale electric power 
to 1180 public power systems and rural electric cooperatives in 33 
states.\1\ They also sell power to a number of other public agencies 
and federal installations as well as to for-profit, investor-owned 
utilities in years with high water flows. The power rates paid to the 
PMAs by their public power and rural electric cooperative customers 
cover all of the costs for generating and transmitting electricity and 
of repayment with interest of the federal investment in these 
hydropower projects. None of the costs are borne by taxpayers. Power 
rates also help to cover the costs of other activities authorized by 
these multi-purpose federal dams including: flood control; irrigation; 
municipal water supply; interstate and international compact water 
deliveries; lake and stream recreation; blue ribbon trout fisheries; 
river regulation; economic development; fish and wildlife propagation 
and mitigation; and power generation and transmission.
---------------------------------------------------------------------------
    \1\ The following states receive a portion of their power from the 
PMAs. Bonneville Power Administration: Washington, Oregon, Idaho, 
Montana (part). Western Area Power Administration: Arizona, California, 
Colorado, Iowa, Kansas (part), Minnesota, Montana (part), North Dakota, 
Nebraska, New Mexico, Nevada, South Dakota, Texas (part), Utah, 
Wyoming. Southwestern Power Administration: Arkansas, Kansas (part), 
Louisiana, Missouri, Oklahoma, Texas (part). Southeastern Power 
Administration: Alabama, Florida, Georgia, Illinois, Kentucky, 
Mississippi, North Carolina, South Carolina, Tennessee, Virginia.
---------------------------------------------------------------------------
    Following the attacks of September 11, 2001, the Bureau of 
Reclamation (Bureau) embarked upon an aggressive program to enhance the 
security of the federal dams they operate to protect these facilities 
against terrorist attacks. Based on historical precedent, the Bureau 
initially determined that the costs of increased security measures 
should remain an obligation of the federal government, and that funds 
spent on these measures should not be reimbursed by the PMA customers. 
In Fiscal Year 2005, however, the Bureau reversed its position and 
asked for some of these costs to be reimbursed from power and water 
customers.
    Despite numerous expressions of congressional and customer concern 
about the Bureau's shift in policy since FY 2005, however, the Bureau 
has proceeded to expand and implement its reimbursable site security 
cost plan. Given that the multi-purpose federal dams benefit a host of 
stakeholders and the general public--not just water and power 
customers--we believe that asking these customers to give the Bureau a 
``blank check'' to implement security measures is unreasonable. 
Therefore, we strongly support S. 1258, introduced by Senator Maria 
Cantwell (D-WA), among others, as it would provide a ceiling on the 
amount of reimbursable security costs that would be borne by this 
subset of beneficiaries of the dams, and would therefore keep costs 
manageable and provide needed certainty for future planning. As capital 
intensive not-for-profit electric utilities trying to manage costs for 
our customers, plan for future growth, and address environmental 
issues, this type of certainty is essential.
    Again, thank you for the opportunity to provide this statement for 
the hearing record. We would also like to associate with the testimony 
of George Caan, Executive Director of the Colorado River Commission of 
Nevada who is testifying on behalf of the Colorado River Energy 
Distributors Association (CREDA). Both the Colorado River Commission of 
Nevada and CREDA are members of APPA. We look forward to working with 
Senator Cantwell, cosponsors of the legislation, Senators Wyden (D-OR), 
Smith (R-OR), Hatch (R-UT) and Allard (R-CO), Subcommittee Members, and 
Full Committee members to achieve enactment of this important 
legislation.
                                 ______
                                 
            Statement of the Bonneville Power Administration
s. 1522 the fisheries restoration and irrigation mitigation act of 2007
    Chairman Salazar and Members of the Subcommittee, thank you for 
inviting the Bonneville Power Administration (Bonneville) to provide a 
statement of its views on S. 1522, a bill that reauthorizes the 
Fisheries Restoration and Irrigation Mitigation Act of 2000 (P.L. 106-
502). The Administration supports the principles of the Fisheries 
Restoration and Irrigation Mitigation Act (FRIMA) program as an 
important part of a multi-agency effort to recover and conserve fish 
populations.
    Bonneville is a Federal Power Marketing Agency under the Department 
of Energy that markets about 40 percent of the electricity consumed in 
the Pacific Northwest. The electricity is produced at 31 Federal dams 
in the Pacific Northwest and one nuclear plant, and is sold to over 140 
Pacific Northwest utilities. Bonneville also operates a high-voltage 
transmission grid of more than 15,000 circuit-miles of lines and 
associated substations in Washington, Oregon, Idaho, and Montana. 
Bonneville generates revenues from the sale of power and transmission 
services and its costs are covered by its revenues, so that it does not 
receive annual appropriations like other federal agencies.
    The Pacific Northwest Electric Power Planning and Conservation Act 
of 1980 (Northwest Power Act) requires Bonneville to protect, mitigate 
and enhance fish and wildlife affected by Federal Columbia River Power 
System (FCRPS) dams. Since 1978, Bonneville has contributed over $9 
billion in costs to aid fish and wildlife mitigation and species and 
habitat recovery efforts in the Pacific Northwest.
    Bonneville's funding for fish and wildlife recovery efforts has 
five main components:

  <bullet> Expense or direct program.--Bonneville funds over 400 fish 
        and wildlife projects in the Columbia Basin (habitat 
        restoration, research, hatcheries, land acquisitions, predator 
        control, and culvert replacement).
  <bullet> Reimbursable.--Bonneville reimburses the U.S. Army Corps of 
        Engineers and the U.S. Bureau of Reclamation for a portion of 
        those operation and maintenance costs related to improvements 
        at the dams for fish passage and the U.S. Fish and Wildlife 
        Service for hatchery operations.
  <bullet> Project repayment.--Bonneville reimburses the U.S. Treasury, 
        principal and interest, for constructing and operating projects 
        such as hatcheries and fish passage projects at the dams.
  <bullet> Power purchases.--Bonneville is obligated to provide its 
        customers with electricity, and if fish operations limit 
        electricity generated at the dams, Bonneville must purchase 
        power elsewhere to supply customer demand. The cost varies 
        depending on power market prices and water volume.
  <bullet> Lost opportunity costs.--The water that is spilled through 
        the dams for fish represents ``lost'' electricity and money 
        that could have been generated if the water had passed through 
        the turbines. The cost varies depending on power market prices 
        and water volume.

    Given this significant commitment, Bonneville believes that the 
FRIMA program, which is intended to prevent fish losses from irrigation 
projects, constitutes a cost-effective means to protect the investment 
already being made by Bonneville and its customers for fisheries 
programs. Bonneville also believes that participation in FRIMA programs 
is consistent with its statutory mandates for mitigating system impacts 
on fish and wildlife under the Northwest Power Act and other statutes.
    For purposes of implementing this bill, Bonneville would fund non-
Federal cost-shares through the expense or direct program portion of 
its budget. That portion of our fish and wildlife mitigation budget 
obtains review from the Independent Scientific Review Panel (ISRP) and 
consists largely of project recommendations from the Northwest Power 
and Conservation Council. Bonneville understands that there may be 
policy considerations that should be taken into account by the 
Secretary when determining whether Bonneville's funds are appropriate 
for the FRIMA program. And, as stated in the Department of Interior 
testimony, the Administration believes that more study and evaluation 
is needed to determine whether Bonneville funds should be counted 
toward the non-Federal component of FRIMA.
    Congress has given Bonneville's Administrator both a mandate to 
mitigate the effects of the FCRPS dams on the fish and wildlife of the 
Columbia River Basin and broad contracting and funding authorities that 
allow the agency to be run much like a business in fulfilling that 
mission. Because the authorities granted to the Administrator allow 
him/her to provide funding when it would meet one or more of 
Bonneville's statutory purposes, the agency believes that so long as it 
is not violating the Northwest Power Act or other laws, the 
Administrator may provide funding for mitigation that helps address the 
FCRPS dams' impacts on fish and wildlife.
    Since the Northwest Power Act passed, Bonneville has interpreted 
its authorities to allow the Administrator to offer to fund the non-
Federal cost-share of another Federal agency's mitigation grant program 
so long as Bonneville's funding was authorized under section 
4(h)(10)(A) of the Northwest Power Act. Since Bonneville's revenues are 
derived from ratepayers rather than from appropriated funds, it 
provides a basis for a local cost-share determination. The limitations 
placed on funding under that section of the act are clear and have not 
changed:

  <bullet> Mitigation must be done in a manner consistent with the 
        goals, objectives, and measures in the Northwest Power and 
        Conservation Council's Columbia River Basin Fish and Wildlife 
        Program, the Council's Power Plan, and the Act's other 
        purposes.
  <bullet> Mitigation funded must help address FCRPS dam's impacts and 
        be for fish and wildlife and their habitat in the Columbia 
        River Basin.
  <bullet> Bonneville's funding must not replace other mitigation 
        programs or efforts that others are responsible for.

    For years, Bonneville's Administrators have made funds available to 
state and local governments, tribes, and non-governmental organizations 
for use as the non-Federal cost-share in mitigation grant programs run 
by other Federal agencies. Depending upon the statutory authorizations 
and regulations governing those grant programs, some but not all 
Federal agencies have been able to accept Bonneville's funding. For 
example the U.S. Army Corps of Engineers accepts Bonneville funding as 
a non-Federal cost share for the Nursery Bridge fish ladder facility on 
the Oregon portion of the Walla Walla River, the 12 Mile Project on 
Idaho's Salmon River, and for its General Investigations Program for 
the Willamette Floodplain Restoration Study. Bonneville has also 
entered into memoranda of understanding to provide a non-Federal cost 
share for fish mitigation projects managed by the Bureau of Reclamation 
and the Forest Service.
    To date, Bonneville has not contributed FRIMA matching funds to the 
U.S. Fish and Wildlife Service because the Department of Interior 
believes it is not authorized to accept non-Federal matching funds from 
Bonneville. The proposed amendment to FRIMA would expressly authorize 
the Secretary of Interior to accept non-Federal matching funds from 
Bonneville. As stated in the Department of Interior testimony, the 
Administration believes that more study and evaluation is needed to 
determine whether Bonneville funds should be counted toward the non-
Federal component of FRIMA.
                               conclusion
    In conclusion, the Administration supports the principles of the 
Fisheries Restoration and Irrigation Mitigation Act and looks forward 
to working with the Committee to address concerns with the legislation.
                                 ______
                                 
    Statement of George M. Caan, Executive Director, Colorado River 
                          Commission of Nevada
   s. 300, the lower colorado multi-species conservation program act
    I want to thank Chairman Johnson and Senator Corker for moving this 
legislation forward and I especially thank Senator Kyl for his 
leadership efforts on this bill. My name is George Caan and I am the 
Executive Director of the Colorado River Commission of Nevada. I am 
also the Chairman of the Steering Committee charged with overseeing the 
Lower Colorado River Multi-Species Conservation Program. I appreciate 
the opportunity to submit a written statement regarding S. 300. This 
bill authorizes the Lower Colorado River Multi-Species Conservation 
Program. My statement is on behalf of the State of Nevada, one of the 
three lower basin states directly involved in the Program. Like its 
sister states of California and Arizona, Nevada fully supports this 
bill. Finally, I am grateful to have the support of Senator Harry Reid 
and Senator John Ensign, who are co-sponsors of this legislation.
    The Lower Colorado River Multi-Species Conservation Program is an 
unprecedented, robust 50 year, cooperative effort among 50 federal and 
non-federal entities in Nevada, California and Arizona designed to 
protect 26 endangered, threatened and sensitive species on the Lower 
Colorado River. The Program provides for the creation of over 8,100 
acres of riparian, marsh and backwater habitat for the species covered 
by the Program, and includes plans for the rearing and stocking of over 
1.2 million fish to augment populations of two endangered fish covered 
by the Program. The Program also provides for the maintenance of 
existing, high-quality habitat, and a research, monitoring and adaptive 
management effort to ensure that Program elements are effective in 
helping covered species. In exchange for species and habitat 
protection, the affected water and power agencies of the three states 
are provided with assurances that their operations may continue upon 
compliance with Program requirements.
    This Program is particularly vital to the State of Nevada. The 
State, through the Colorado River Commission of Nevada, an agency of 
the State of Nevada, and the Southern Nevada Water Authority, a 
political subdivision of the State of Nevada, currently diverts its 
entire apportioned share of Colorado River water. This Colorado River 
water constitutes the overwhelming majority of the water supply for the 
Las Vegas Valley area, almost 90%, with the remaining water coming from 
a limited groundwater supply. There are currently more than one and a 
half million residents living in the Las Vegas area. Southern Nevada is 
the fastest growing urban area in the United States. In the last ten 
years alone the population increased by almost 70% and for the next 
ten-year period the population is projected to increase by an 
additional 50%.
    Southern Nevada also relies on the Colorado River for hydroelectric 
power. On behalf of the State and as principal in its own behalf, the 
Colorado River Commission receives electric power generated by various 
federal hydroelectric projects on the Colorado River through delivery 
contracts with the Western Area Power Administration of the U.S. 
Department of Energy. These projects include the Boulder Canyon 
Project, the Parker-Davis Project and Salt Lake City Area Integrated 
Projects. The Commission, in turn, contracts to deliver electric power 
from one or more of these federal projects to the several companies 
comprising the Basic Industries in Henderson, Nevada, the Southern 
Nevada Water Authority and to five power utilities that together serve 
southern Nevada.
    Consequently, the sustainability of the Colorado River System is 
absolutely critical to the vitality of southern Nevada's future. For 
this reason, the State of Nevada was a significant participant in the 
development of the Program and is now one of the primary non-federal 
party funding contributors to the Program. In short, the Program 
provides for a total of $626 million in funding, indexed for inflation 
over 50 years, for the species conservation efforts that will be 
implemented under the Program. These costs are divided 50-50 between 
the state and federal entities covered by the Program. Accordingly, S. 
300 provides an authorization of appropriations for the federal share 
of Program costs and directs the Secretary of the Interior to manage 
and implement the Program in accordance with the Program Documents. 
These documents include the agreements that the parties have signed 
embodying their commitment to carry out the Program. As former 
Secretary Norton declared in the Record of Decision for the Program:

          The importance of the Colorado River to the southwestern 
        portion of the United States cannot be overstated: the Colorado 
        is the lifeblood of the southwest. The Colorado River provides 
        water and power to over 20 million people (in such cities as 
        Los Angeles, San Diego, Las Vegas, Phoenix and Tucson), 
        irrigates over 2 million acres, and generates up to 10 billion 
        kilowatt hours of electricity annually.

    S. 300 gives the necessary strength and integrity to this 
monumental federal and non-federal collaborative conservation Program 
and virtually assures its success over the next five decades. The State 
of Nevada supports this bill in its entirety and urges the Committee to 
approve the bill. I will make myself available for any questions you 
may have in the future.
                                 ______
                                 
  Statement of the Robert F. Stackhouse, Executive Director, Central 
                    Valley Project Water Association
    The Central Valley Project (CVP) Water Association wishes to 
express its strong support for S. 1258, bi-partisan legislation to 
address the costs of increased Site Security measures at Bureau of 
Reclamation (Reclamation) facilities.
    We believe that this legislation would provide for a fair 
allocation of financial responsibility for the costs of increasing 
security at Reclamation facilities, which are a critical element of the 
nation's water supply, power generation and food production 
infrastructures.
    The CVP Water Association represents the interests of the 300 
agricultural and municipal and industrial districts, agencies and 
communities that are located in the Central Valley of California that 
have contracts for water from the federal CVP. Annually, these 
contractors use the CVP water to irrigate 3 million acres of land (one-
third of the agricultural land in California) and to meet the water 
needs of 1 million households. The CVP Water Association works to 
preserve and protect our members' CVP contractual water supplies and 
ensure that those water supplies are dependable, of good quality, and 
affordable.
    S. 1258 would amend the Reclamation Safety of Dams Act to authorize 
funding and oversight for Reclamation's Site Security program and apply 
the Act's existing reimbursability requirements to all building and 
Site Security activities. Because both the Site Security program and 
the Safety of Dams program are exclusively for the purpose of ensuring 
the structural integrity of Reclamation facilities, S. 1258 provides 
that both programs have the same basis for determining cost 
reimbursability. Under the legislation, 15% of all costs incurred for 
facility fortifications, operation, maintenance and replacement of such 
fortifications and guards and patrols, as identified in Reclamation's 
Report to Congress, February 2006, would be subject to reimbursement by 
the water and power customers.
    The CVP Water Association fully supports Reclamation's efforts to 
protect the physical and operational integrity of its multi-purpose 
facilities from attack, but has had serious concerns about the lack of 
cost controls, customer involvement and Congressional oversight of the 
Site Security program, as well as the inequitable allocation of 
reimbursable costs to water and power customers. S. 1258 would address 
these concerns by authorizing Reclamation's Site Security program as 
part of the agency's Dam Safety program.
    Most importantly, the legislation would provide certainty for water 
and power users by establishing a statutory allocation of financial 
responsibly for the Site Security program, thus ensuring that any 
future changes in that allocation would be subject to full public 
review and debate. Currently, costs are allocated according to 
Reclamation policy, which can change at anytime.
    The bill is supported by a broad coalition of Western water and 
power entities, including the CVP Water Association, the Sacramento 
Municipal Utility District, the Northern California Power Agency, the 
Family Farm Alliance and others.
    We respectfully request your support for S. 1258 and for its 
approval by the Energy and Natural Resources Committee.
    If you have any questions or concerns regarding this legislation, 
please feel free to contact me.
                                 ______
                                 
          United States Department of the Interior,
              Bureau of Reclamation, Upper Colorado Region,
                                    Durango, CO, December 29, 1994.
Mr. Thomas K. Colbert,
President, Mancos Water Conservancy District, 42888 County Road N, 
        Mancos, CO.

Subject: Annual Review of Operation and Maintenance (RO&M) Report, the 
1994 Examination of Jackson Gulch Dam, Mancos Project, Colorado
    Dear Mr. Colbert: Enclosed is a copy of the subject report for your 
files and records. We commend the Mancos Water Conservancy District 
(District) personnel and The Board of Directors on the operation and 
maintenance of project facilities.
    If you have any questions or comments, please contact Stan 
Mattingly.
            Sincerely,
                          Acting for Patrick J. Schumacher,
                                    Chief, Water and Land Division.
Enclosures.
REVIEW OF OPERATION AND MAINTENANCE--MANCOS WATER CONSERVANCY DISTRICT 
                                 SYSTEM
                             mancos project
I. GENERAL DESCRIPTION OF PROJECT AND FACILITIES
    As a feature of the Mancos Project, the inlet canal serves as the 
primary source of water for the offstream Jackson Gulch Reservoir. Its 
headworks are about 7 miles northwest of Mancos, Colorado, on the West 
Mancos River, and the canal has a length of 2.6 miles and capacity of 
258 cubic feet per second (cfs). The outlet canal has a capacity of 207 
cfs and a length of 2.2 miles from Jackson Gulch Dam and its 
termination point at the West Mancos River. Both canals were 
constructed during 1943-1950.
II. DATE OF EXAMINATION AND PERSONNEL
            November 23, 1994
  <bullet> Gary Kennedy, Superintendent, Mancos Water Conservancy 
        District
  <bullet> Stan Mattingly, Water Operations Branch, Durango Projects 
        Office
III. STATUS OF PREVIOUS RECOMMENDATIONS
            Category 1
    None.
            Category 2
  <bullet> 90-2-A--Adjust or replace bottom seal on radial gate at 
        headworks.--Incomplete.
  <bullet> 90-2-B--Clean and paint new headworks radial gate located 
        400 feet upstream of old radial gate and also clean and paint 
        old radial gate.--Incomplete.
  <bullet> 90-2-C--Inlet canal--Finish repair of seep and compact 
        material adjacent to the seep.--Complete.
  <bullet> 90-2-D--Reshape outlet canal to its original alignment to 
        eliminate ponding.--Complete.
  <bullet> 93-2-A--Replace or repair two south bench flume wall panels 
        directly downstream from diversion dam.--Incomplete.
  <bullet> 93-2-B--Stabilize the inlet channel directly upstream of 
        Jackson Gulch Reservoir.--Partially Complete.
            Category 3
  <bullet> 93-3-A--Core the wood bridge stringers to determine the 
        extent of deterioration.--Incomplete.
  <bullet> 93-3-B--Remove willows and brush along the inlet and outlet 
        canals.--Partially Complete.
IV. NEW RECOMMENDATIONS
            Category 1
    None.
            Category 2
    None.
            Category 3
    None.
V. DETAILS OF THE 1994 EXAMINATION
            Jackson Gulch Dam and Outlet Works
    Jackson Gulch Dam and outlet works were inspected and found to be 
in satisfactory condition.
            Inlet Canal
    The old radial gate downstream of the diversion headworks needs to 
be painted and the seals adjusted or replaced as recommended during the 
1990 examination (90-2-A and 90-2-B). Two south bench flume wall panels 
need to be replaced or repaired (93-2-A). These panels are directly 
downstream of the diversion dam headworks. The panels are leaning into 
the inlet canal.
    The District has installed and is in the process of installing 
covers for the bench flume. These covers protect the bench flume 
against sliding material entering the flume. The covers also protect 
the flume form falling rocks.
    The condition of the first wood bridge downstream of the diversion 
dam headworks was discussed. The top of the stringers have 
deteriorated. These stringers need to be cored to determine the extent 
of deterioration (93-3-A). Supports have been installed under the 
bridge to allow concrete trucks to cross.
    The District is continuing to monitor seeps from both embankment 
and concrete lined canal sections. The District is also continuing with 
the program to remove willows and brush growing along the canal in some 
reaches. These willows and brush along the inlet canal need to be 
removed (93-3-B). The inlet channel directly upstream of Jackson Gulch 
Reservoir has been stabilized by the District (93-2-B).
    A seep near the south side of the drop flume is being monitored by 
the District.
    The drop flume and stilling basin were inspected during the year. 
In late September, the District cleared the stilling basin of debris 
that had been accumulating since original construction. There was found 
to be an extensive area of concrete erosion downstream of the stilling 
basin dentates (see Photo No. 1).* The eroded area was repaired by 
replacing missing reinforcement and placing silica fume concrete. A 
road was reopened on the west and north sides of the reservoir to allow 
access for the concrete delivery truck (see Photos No. 2, 3, and 4).*
---------------------------------------------------------------------------
    * Photos 1-4 have been retained in committee files.
---------------------------------------------------------------------------
            Diversion Dam
    The diversion dam headworks radial gate was inspected. This gate 
needs to be painted and the seal replaced or adjusted (90-2-A). The 
diversion dam concrete is in good condition with no spalling or 
cracking.
            Outlet Canal
    The outlet canal is in fairly good condition. Willows and brush 
have grown along the canal. These willows and brush need to be removed 
(93-3-B). A seep in the canal embankment at a point just upstream of 
the concrete lined section is causing sliding failure of the 
embankment. The District will reshape and monitor further problems. One 
reach of the canal had been widened due to failure of a bank. The 
outlet canal has been reshaped to its original alignment to eliminate 
ponding (90-2-D).
    The drop structure and stilling basin were not inspected. The 
District attempted to dewater the stilling basin but other maintenance 
activities prevented the District from completely dewatering it. Mr. 
Kennedy is not aware of any reports on prior dewatering attempts. The 
stilling basin needs to be dewatered and inspected prior to or during 
the next annual inspection.
VI. CONCLUSIONS
    Mancos Water Conservancy District System is in good condition. The 
District should be commended for their efforts to keep the system in 
good operating condition.
                                 ______
                                 
 Statement of Kara Gillon, Senior Staff Attorney, Defenders of Wildlife
                                 s. 300
    Mr. Chair and Members of the Subcommittee, I am Kara Gillon, Senior 
Staff Attorney with Defenders of Wildlife. Thank you for this 
opportunity to provide testimony on S. 300, a bill to authorize 
appropriations for the Bureau of Reclamation to carry out the Lower 
Colorado River Multi-Species Conservation Program.
    Defenders of Wildlife (``Defenders'') is a national, nonprofit 
membership organization dedicated to the protection of all native wild 
animals and plants in their natural communities. Headquartered in 
Washington, D.C., Defenders has field offices in Albuquerque, NM, where 
I am located, and throughout the Colorado River basin states, in 
Tucson, AZ, Sacramento, CA, and Denver, CO.
    Before summarizing our concerns with the Multi-Species Conservation 
Program, also known as the ``MSCP,'' and proposed authorizing 
legislation, I first want to address briefly the Lower Colorado River--
how it has been managed over the last seventy years and why the MSCP 
could do a better job addressing the environmental degradation suffered 
by the Colorado River and Delta.
    We appreciate the effort and resources put into the MSCP. At its 
inception, Defenders seized on the opportunity presented--long-term, 
large-scale habitat improvement and species recovery where before there 
was very little. Unfortunately, the final MSCP provides lesser 
protections for fewer species over a smaller area.
    Ten years ago, the Bureau of Reclamation found in its own 
biological assessment of its historic and ongoing operations that 
``[H]uman-induced change since the beginning of the century has 
resulted in an ecosystem having significantly different physical and 
biological characteristics. Such changes have taken place as a result 
of the introduction of exotic plants (such as salt cedar), the 
construction of dams, river channel modification, the clearing of 
native vegetation for agriculture and fuel, fires, increasing soil 
salinity, the cessation of seasonal flooding, and lowered water 
tables.''\1\ It is as if man created an entirely different river.
---------------------------------------------------------------------------
    \1\ Bureau of Reclamation, DESCRIPTION AND ASSESSMENT OF 
OPERATIONS, MAINTENANCE, AND SENSITIVE SPECIES OF THE LOWER COLORADO 
RIVER 83 (1996), available at http://www.usbr.gov/lc/region/g2000/
batoc.html.
---------------------------------------------------------------------------
    Native wildlife is finding survival in an altered Colorado River 
basin more difficult. These changed processes no longer naturally 
sustain riparian forests and meadows, fail to provide young fish access 
to flooded lands and leave young fish more susceptible to predation by 
sight-feeding, non-native predators.
    The plight of the ``Big River Fishes'' highlights this extreme 
ecological degradation. All four fish are listed as endangered under 
the Endangered Species Act--the Colorado pikeminnow; bonytail; 
razorback sucker; and humpback chub. The Colorado pikeminnow has been 
extirpated from the lower basin and is not even considered by the MSCP. 
The bonytail also has been virtually extirpated from the wild. 
Razorback sucker populations have declined from 50,000 to 5,000 fish 
over the last ten years with very small wild populations; they are not 
self-sustaining. There is only one small population of the humpback 
chub in the lower basin.
    Habitat restoration and fish augmentation performed without regard 
to the well-known threats to listed species are likely to fail. Years 
of river restoration efforts have shown us that successful river 
restoration is critically dependent on understanding and addressing the 
causes of the river's decline (Palmer et al., 2006; Aronson & Le Floch, 
1996). The restored habitats and stocked fish will continue their 
decline because the MSCP does not address the root causes of habitat 
degradation and low fish survival--the impounding, storing, and 
diverting of the river's waters without regard to the natural 
hydrograph that naturally sustains the cottonwood-willow forest, 
mesquite bosque, and backwaters that harbor razorback suckers, 
bonytails, southwestern willow flycatchers and other fish and birds, 
compounded by the stocking of non-native predatory fish.
    Success of the conservation plan is also questionable because there 
are no goals or objectives for habitat restoration. Without goals or 
objectives, there are no metrics for measuring success. For example, we 
do not know if cottonwood-willow habitat is successful if we find one 
southwestern willow flycatcher, a flycatcher nest, or ten flycatchers. 
We also do not know that mitigation will occur prior to adverse impacts 
or if permanently lost habitat will be maintained in perpetuity. We 
also do not know how the MSCP will select habitat creation and 
restoration sites; thus we do not know if the MSCP will select sites 
that are off-channel or hydrologically connected to the river.
    Lastly, the MSCP purports to ensure the survival of imperiled fish 
and wildlife for the next fifty years yet fails to address perhaps the 
largest threat wildlife will fact in this century--global warming. In 
2004, a report prepared for the Pew Center on Global Climate Change 
synthesized published global warming studies and concluded that there 
was ``convincing evidence'' that anthropogenic global warming had 
significantly affected natural systems and that ``[t]he addition of 
climate change to the mix of stressors already affecting valued 
habitats and endangered species will present a major challenge to 
future conservation of U.S. ecological resources'' (Parmesan & 
Galbraith, 2004).
    In fact, this year, Working Group II of the Intergovernmental Panel 
on Climate Change (``IPCC'') issued a Summary for Policy Makers which 
states with medium confidence that 20-30% of plant and animal species 
assessed in the report have an increased chance for extinction if the 
average global temperature increases by more than 1.5-2.5 Celsius. 
According to the IPCC, an increase in temperatures above this range 
would drastically alter ecosystem structure and functions, species' 
ecological interactions, and species' geographic ranges (IPCC, 2007).
    Colorado River fish and wildlife are particularly susceptible to 
adverse effects because of their concentrated habitat and their 
location in the Southwest. Global warming is likely to cause 
temperatures in the Southwest to increase above levels which increase a 
species chances for extinction, according to the IPCC. Furthermore, the 
IPCC predicts with very high confidence that global warming will lead 
to decreased snow pack, more winter flooding, and reduced summer flows 
for the mountains of the American West. Global warming effects likely 
to affect the Colorado River fish include precipitation decreases in 
the lower-basin by mid-century, early snowmelt runoff in the upper-
basin, decreased overall runoff, and increased evaporation rates 
(Garfin & Lenart, 2007). Therefore, global warming is likely to produce 
changes in stream flows, precipitation, water temperature, and 
ecosystem structure which could very well result in an increased 
probability of fish extinction in the Southwest, such as in the 
Colorado River (National Assessment Synthesis Team, 2001).
    The imperiled status of many of these fish leave them less equipped 
to adapt to habitat modifications presented by global warming, making 
the possible effects upon them even more severe and leaving them more 
vulnerable to extinction. The MSCP is a rare, but foregone, chance to 
assist wildlife through the looming bottleneck of complex effects of 
global warming.
    To institutionalize the MSCP, as called for in the proposed 
legislation, may instead present one more challenge to wildlife 
conservation in the lower Colorado River.
    We too face increasing challenges from a highly regulated river 
system, increasing water use, drought, and climate change. The National 
Research Council has recently synthesized several studies that tell us 
historical conditions are no longer a reliable indicator of future 
conditions, with future droughts exceeding those of recent experience. 
First, our streamflow record in the basin is only a small subset within 
a range of greater variability than previously thought. For example, we 
are learning that although up to 16.5 million acre-feet of water has 
been allocated to users in the United States and Mexico, the river 
naturally yields 12.5 million acre-feet to 14.7 million acre-feet of 
water. In addition, studies show a trend of increasing temperatures 
across the basin and a reduction in future streamflow (National 
Research Council, 2007). The MSCP, however, does not confront any of 
these challenges. For this reason, the success of proposed habitat 
restoration and fish augmentation is highly uncertain.
    In the face of growing challenges, the desire for certainty will 
increase. To provide the level of certainty contemplated here can only 
come at the expense of assurances for another--the environment. 
Instead, we suggest legislation that preserves the Secretary of the 
Interior's authority as ``water master.'' Think instead in terms of 
flexibility and resiliency, where mechanisms may be created that create 
opportunities for all--whether through new opportunities and creative 
ideas for storage, instream flow, water acquisition programs, or 
reservoir re-operation. Certainty, whether over water supply or other 
resources and gained only at the expense of others, will create an 
untenable and unsustainable condition.
    This legislation will have the effect of constraining the Secretary 
of the Interior at precisely the time we need more opportunities for 
the Colorado River system. Provisions that codify the Program Documents 
and No Surprises and direct the Secretary to perform certain functions 
are inappropriate.
 there is no precedent for the constraints placed on the secretary of 
                              the interior
    The legislation proposed here is far, far different from that for 
other endangered fish programs authorized by Congress. Nearby and oft-
cited examples are the Upper Colorado River Endangered Fish Recovery 
Program and the San Juan River Endangered Fish Recovery Program.
    Legislation for the MSCP should only do what may be necessary for 
federal participation in the program: authorize appropriations; 
authorize the federal party to acquire interests in land and/or water, 
accept or provide grants, and enter into contracts and cooperative 
agreements; and authorize the federal party to carry out aspects of the 
program. Rather than simply authorize the Secretary's participation, S. 
300 directs the Secretary to take a certain course of action. Doing so 
confines the Secretary's authority as ``water master'' for the next 
fifty years.
    Moreover, codifying the Program Documents would encourage other 
programs to emulate this legislative approach despite the fact that key 
documents--the Implementing Agreement and the Funding and Management 
Agreement--were not made available for public review and comment.
    S. 300 also constrains future Congresses. The bill contains what 
is, in effect, a legislative no surprises policy requiring future 
Congresses to explicitly state if legislation applies to the MSCP, 
turning traditional legislative drafting and interpretation on its 
head.
   an hcp and ``no surprises'' are inappropriate due to the level of 
                           federal influence
    The MSCP is a combination of Endangered Species Act (``ESA'') 
sections 7 and 10, providing coverage for federal and non-federal 
participants. Use of a section 10 Habitat Conservation Plan, or HCP, is 
inappropriate in light of the federal nexus associated with nearly all 
lower Colorado River activities. Section 10 and use of the ``No 
Surprises'' policy are only appropriate where there is no federal 
nexus.
    The provision in the bill directing the Secretary to act in 
accordance with the Program Documents not only enacts No Surprises 
assurances for the non-federal participants but also for federal 
parties. Neither the Endangered Species Act nor its regulations 
authorize extension of No Surprises to federal agencies.
    The federal government is implicated in nearly every aspect of 
lower Colorado River operations, due to the Secretary of the Interior's 
role as ``water master''. The Bureau of Reclamation has been delegated 
responsibility for operating and maintaining the extensive network of 
dams, water diversions, levees, canals, and other water control and 
delivery systems on the River. Reclamation's authority and discretion 
are guided by a body of treaties, Congressional enactments, compacts, 
and other agreements known as the law of the river.
    In 1928, Congress passed the Boulder Canyon Project Act which 
authorized the construction of a dam system on the River. Importantly, 
the Act reserved for the federal government broad authority over the 
operation of the dam system. As the Supreme Court in Arizona v. 
California explained, it was the United States' undertaking of this 
ambitious project and its concomitant assumption of responsibility for 
its operation, that ``Congress put the Secretary of Interior in charge 
of these works and entrusted him with sufficient power . . . to direct, 
manage, and coordinate their operation.''\2\
---------------------------------------------------------------------------
    \2\ Arizona v. California, 373 U.S. 546, 589-90 (1963).
---------------------------------------------------------------------------
    Unlike biological opinions for federal agencies pursuant to section 
7, which could change in future consultations, section 10 HCPs include 
No Surprises assurances. In general, if the status of a species covered 
by an HCP worsens because of unforeseen circumstances, the Fish and 
Wildlife Service will not require conservation or mitigation measures 
in addition to those in the HCP without the consent of the permittee.
    To obtain these assurances available only to non-federal parties, 
the MSCP parties employed a section 7/10 hybrid that pooled federal and 
non-federal actions and effects as interrelated. If No Surprises 
prohibits the Fish and Wildlife Service from requiring additional 
mitigation measures from non-federal participants in terms of land, 
water or other resources, the Fish and Wildlife Service may be equally 
constrained in requesting changes to federal activities.\3\
---------------------------------------------------------------------------
    \3\ See Lower Colorado River Multi-Species Conservation Program 
Implementing Agreement at Sec. 7.2 (recognizing that federal and non-
federal actions are so interconnected that a federal action could 
arguably be included in a section 10 permit), available at http://
www.usbr.gov/lc/lcrmscp/publications/FinalIA.pdf.
---------------------------------------------------------------------------
    In other words, there is a high degree of federal influence in 
lower basin operations. Section 10 of the ESA relates solely to 
authorizing take of listed species by non-federal entities. Use of 
section 10 and the No Surprises policy are therefore inappropriate.
       the degree of federal influence renders direction to the 
                         secretary unnecessary
    Similarly, given the authority possessed by the Secretary as 
``water master,'' directing a water accounting agreement is unnecessary 
and unwise. The Secretary has ample authority to provide for the 
comprehensive management and control of the Lower Basin system. Indeed, 
the Secretary need not be authorized or directed to enter into a water 
agreement any more than he needs authority to enter into the Colorado 
River Water Delivery Agreement or to develop surplus or shortage 
guidelines. And again, to direct the Secretary to enter into this water 
agreement is problematic because the Program Documents do not mention 
the need for such an agreement, even after comment that the documents 
were vague as to the sources and use of water for the MSCP, and there 
will be no future opportunity to comment on such agreement.
               the mscp does not cover all listed species
    Defenders was a member of the MSCP Steering Committee during the 
mid-1990s, during which we sought opportunities for the MSCP to include 
the Colorado River Delta within its coverage and conservation areas. 
After extensive negotiations with other MSCP participants and after the 
Steering Committee voted not to endorse an agreement where the MSCP 
would give good faith consideration of conservation opportunities in 
Mexico, Defenders withdrew in late 1998.
    The Colorado River basin encompasses nine states: seven in the 
United States and two in Mexico. The MSCP planning area, however, only 
``comprises areas up to and including the full-pool elevations of Lakes 
Mead, Mohave, and Havasu and the historical floodplain of the Colorado 
River from Lake Mead to the Southern International Boundary.'' Although 
these fish naturally occurred in this area, the MSCP wrongly excludes 
the Colorado pikeminnow from consideration; it offers no conservation 
measures for the fish. Moreover, the MSCP ``Planning Area'' does not 
encompass the entire area that may be affected by the covered actions--
the Colorado River Delta. Several endangered species, including the 
razorback sucker, Yuma clapper rail, desert pupfish, and vaquita, find 
a home there, are affected by activities along the lower Colorado 
River, and deserve protection.
                               conclusion
    In its current form, the Lower Colorado River MSCP preserves the 
Secretary's role as water master of the Colorado River. Defenders of 
Wildlife has long advocated for flexibility in Colorado River 
management in order to increase the reliability and predictability of 
use of river resources. Such flexibility, however, should not come at 
the expense of the Secretary's environmental authorities and 
obligations nor should the Secretary relinquish his role as water 
master in lower Colorado River management in an attempt to achieve such 
flexibility.
    Providing for increased levels of flexibility in river management 
will be critical to meeting the demands of both human and environmental 
water users in the future, particularly as Upper Basin use and the 
impacts of climate change decrease overall water availability in the 
Colorado River system. Defenders believes that S. 300 goes beyond what 
it needed to authorize the MSCP and may limit our options to address 
future challenges.
                               references
    J. Aronson, J. and Le Floch, E. 1996. Vital landscape attributes: 
missing tools for restoration ecology, Restoration Ecology 4: 377-387.
    Garfin, Gregg and Lenart, Melanie. 2007. Climate Change: Effects on 
Southwest Water Resources, 6 Southwest Hydrology 6:16-34 (2007).
    IPCC, 2007. Climate change 2007: Mitigation. Contribution of 
Working group III to the Fourth Assessment Report of the 
Intergovernmental Panel on Climate Change [B. Metz, O. R. Davidson, P. 
R. Bosch, R. Dave, L. A. Meyer (eds)], Cambridge University Press, 
Cambridge, United Kingdom and New York, NY, USA. Available at http://
www.ipcc.ch/SPM040507.pdf (last visited July 20, 2007).
    McCarty, John P. 2001. Ecological Consequences of Recent Climate 
Change, 15 Conservation Biology 15:320-331.
    National Assessment Synthesis Team, Climate Change Impacts on the 
United States: The Potential Consequences of Climate Variability and 
Change, Report for the US Global Change Research Program, Cambridge 
University Press, Cambridge UK (2001). Available at http://
www.usgcrp.gov/usgcrp/Library/nationalassessment/foundation.htm (last 
visited July 20, 2007).
    National Research Council, National Academies, Colorado River Basin 
Water Management (2007).
    Palmer, M.A. et al. 2005. Standards for ecologically successful 
river restoration, J. of Applied Ecology 42:208-217.
    Camille Parmesan & Hector Galbraith, Pew Center on Global Climate 
Change, Observed Impacts of Global Climate Change in the U.S. (2004), 
available at http://www.pewclimate.org/docUploads/final_ObsImpact.pdf 
(last visited July 20, 2007).
                                 ______
                                 
                                      Family Farm Alliance,
                                  Klamath Falls, OR, July 25, 2007.
Hon. Ken Salazar,
Acting Chairman, Senate Energy and Natural Resources Subcommittee on 
        Water and Power, United States Senate, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senator Salazar: On behalf of the Family Farm Alliance 
(Alliance), I would like to express support for S. 1258, a bill to 
amend the Reclamation Safety of Dams Act of 1978 to authorize 
improvements for the security of dams and other facilities.
    The Family Farm Alliance is a grassroots organization of family 
farmers, ranchers, irrigation districts and allied industries in 16 
Western states. The Alliance is focused on one mission: To ensure the 
availability of reliable, affordable irrigation water supplies to 
Western farmers and ranchers.
    The Bureau of Reclamation (Reclamation) operates about 180 projects 
in the area covered by our membership. Reclamation projects provide 
agricultural, household, and industrial water to about one-third of the 
population of the American West. About 5 percent of the land area of 
the West is irrigated, and Reclamation provides water to about one-
fifth of that acreage.
    The federal multi-purpose dams associated with these projects were 
authorized by Congress to provide a wide range of significant benefits 
to millions of citizens in the United States and elsewhere, including: 
flood control; irrigation; municipal water supply; lake and stream 
recreation; river regulation; fish and wildlife propagation and 
mitigation; and power generation and transmission.
    Ensuring the security of these federal dams and related facilities 
is of utmost importance to all citizens of the United States, not just 
to the direct beneficiaries of these resources. This fact must be 
recognized in the allocation of security costs between the federal 
government and non-federal water and powers users. Currently, that 
allocation is established by Reclamation policy, not by law, and the 
policy is subject to change. In the past two years, Reclamation has 
changed its policy to move a larger share of security costs to water 
and power users. We fear that this trend will continue in the future.
    The Alliance believes that Congress should establish in law an 
equitable allocation of security costs. This is the only way to prevent 
future administrations from shifting a greater and greater share of the 
financial burden on to non-federal water and power users.
    S. 1258 would accomplish this. It would provide a ceiling on the 
amount of reimbursable security costs that would be borne by 
beneficiaries of the dams and would, therefore, keep costs manageable 
and provide needed certainty for future planning.
    The Alliance supports this legislation because we believe it helps 
to address our concerns about the lack of cost controls, authorization 
ceiling, sunset date, and congressionally-approved parameters to 
control the amount of money Reclamation can spend for increased 
security. The burden our water customers are being asked to shoulder 
for these counter-terrorism measures are above and beyond normal 
operation and maintenance functions.
    We look forward to continuing to work with you as the legislation 
proceeds. If you have any questions about this letter, I encourage you 
or your staff to contact me.
            Sincerely,
                                                Dan Keppen,
                                                Executive Director.
                                 ______
                                 
          United States Department of the Interior,
              Bureau of Reclamation, Upper Colorado Region,
                                        Durango, CO, July 10, 2006.
Mr. Dee Graf,
President, Mancos Water Conservancy District, 42888 CR N, Mancos, CO.
Subject: 2006 Annual Review of Operation and Maintenance for Mancos 
Project Inlet and Outlet Canal System, Mancos Project, Colorado

    Dear Mr. Graf: Enclosed is the 2006 annual Mancos Project Review of 
Operation and Maintenance (RO&M) Area Office examination report for the 
Inlet and Outlet Canal System. Please review the report and note the 
current status of our RO&M recommendations.
    We appreciate the continued cooperation of the Mancos Water 
Conservancy District, and Reservoir Superintendent, Mr. Gary Kennedy, 
and his interest in protecting the integrity of Jackson Gulch Dam and 
Reservoir.
    In addition to the inspection of the inlet and outlet canals, a 
separate inspection was also completed on the dam. This report is being 
sent under a separate cover letter.
    If you have any questions concerning this report, please contact 
Jim Rottman.
            Sincerely,
                                                 Brad Dodd,
                                 Chief, Facility Maintenance Group.
                 Attachment.--Managing Water in the West
   Annual Review of Operation and Maintenance Facilities Examination 
                                 Report
              Mancos Project Inlet and Outlet Canal System
                        mancos project colorado
                      2006 annual ro&m inspection
    The Annual Inspection of the Mancos Project Inlet and Outlet Canal 
System was conducted on June 19, 2006, as required under the RO&M 
Program, Reclamation Manual, Directives and Standards FAC 01-04. The 
cooperation and assistance provided by Mancos Water Conservancy 
District (MWCD) personnel in conducting the review are appreciated.
    The following personnel attended the inspection: Mr. Gary Kennedy, 
Reservoir Superintendent, MWCD; Brad Dodd, BOR, Facility Maintenance 
Group Chief, WCAO-D; Jim Rottman, BOR, Facility Maintenance Group; Tom 
Strain, BOR, Facility Maintenance Group.
    Results of the inspection are summarized on the enclosed inspection 
checklist. A summary of the relevant RO&M recommendations, with 
estimated completion dates, is also enclosed.
                      operational and weather data
    Reservoir water surface elevation.--7,820 feet.
    Reservoir storage (active).--8,890 acre feet.
    Releases: Outlet works.--Total release of 55 cfs consisting of 45 
cfs through the power plant and 10 cfs through the 24-inch jet valve.
    Weather.--Sunny and breezy.
                   status of previous recommendations
2003-2-A
    Install buoy lines above major drop structures.
    Status.--Incomplete--buoy's purchased in 2006 and on site, will be 
installed as time allows.
2004-2-A
    Install ``No Swimming'' signs.
    Status.--Incomplete--signs on site, will be installed as time 
allows.
2004-2-B
    Install ``No Trespassing'' signs along canal.
    Status.--Incomplete--signs on site, some installed and others will 
be installed as time allows.
2004-2-C
    Repair leaking joints in concrete box sections.
    Status.--Incomplete--outlet box section completed, after evaluation 
of test sections on inlet canal, will complete as necessary.
2004-2-D
    Investigate repair methods for existing inlet canal structures--
earthfill and concrete sections.
    Status.--Incomplete--test sections in third and last year of 
review, repair method to be chosen in 2007.
2004-2-E
    Furnish Reclamation with piezometer data for canal wells.
    Status.--Completed in June 2006.
                     listing of new recommendations
    There is one new recommendation for the operation and maintenance 
of Marcos Project Inlet and Outlet Canal System.

2006-2-A
    District will resume negotiations with landowner on downstream 
easement for outlet canal drop structure.

    The following table is a status summary of the RO&M Recommendations 
for Marcos Project Inlet and Outlet Canal System:

                                                          MANCOS PROJECT CANAL SYSTEM--COLORADO
                                                         RO&M RECOMMENDATIONS--SUMMARY OF STATUS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                Estimated
               Number                        Description                     Status            Completion  Actual Completion Date      Originated by
                                                                                                  Date                                    (office)
--------------------------------------------------------------------------------------------------------------------------------------------------------
2003-2-A...........................  Install buoy lines above     Incomplete--buoy's on site,        2006  ......................  Area
                                      major drop structures.       will be installed as time
                                                                   allows.
2004-2-A...........................  Install ``No Swimming''      Incomplete--signs on site,         2006  ......................  Area
                                      signs.                       will be installed as time
                                                                   allows.
2004-2-B...........................  Install ``No Trespassing''   Incomplete--signs on site,         2006  ......................  Area
                                      signs along canal.           will be installed as time
                                                                   allows.
2004-2-C...........................  Repair leaking joints in     Incomplete--Outlet box             2006  ......................  Area
                                      concrete box sections.       sections done; ongoing.
2004-2-D...........................  Investigate repair methods   Incomplete--lined sections         2006  ......................  Area
                                      for existing inlet canal     in third and final year of
                                      structures--earthfill and    evaluation.
                                      concrete sections.
2004-2-E...........................  Furnish Reclamation with     Completed..................        2006  June 2006.............  Area
                                      piezometer data for canal
                                      wells.
2006-2-A...........................  District will resume         New........................        2007  ......................  Area
                                      negotiations with
                                      landowner on downstream
                                      easement for outlet canal
                                      drop structure.
--------------------------------------------------------------------------------------------------------------------------------------------------------

              definitions of the recommendation categories
    Inspections of Bureau of Reclamation (Reclamation) project 
facilities are conducted under the Review of Operation and Maintenance 
(RO&M) Program. O&M issues noted during the RO&M inspection are 
assigned a Category 1, 2, or 3, based upon the severity of the problem. 
The following definitions (revised May 1993) apply to all levels of 
Reclamation RO&M inspections:
CATEGORY 1
    Recommendations involving the correction of severe deficiencies 
where immediate and responsive action is required to ensure structural 
safety and operational integrity of a facility.
    Based on the severity of the deficiency and the condition of the 
structure/facility at the time of the examination, the examination team 
will mutually prescribe an appropriate time frame for completion of the 
recommendation. Suggested remedial measures will be discussed at the 
time of the examination and included in the examination report. Within 
30 days following preparation or receipt (depending on office 
conducting the examination) of the examination report containing a 
Category 1 recommendation, the responsible Regional Directory shall 
notify all concerned offices (i.e., Commissioner, Attention: W-6500 and 
W-6600, and Assistant Commissioner--Resources Management, Attention: D-
5620 and D-5850) of the operating office or entity's plan for 
accomplishing the work and a schedule completion date.
    Status reports will be provided by the responsible Regional 
Director to all concerned offices every 6 months (January 1 and July 1) 
until the recommendation is completed. Progress made on its completion 
will be reported in the Annual Summary Report for the RO&M Program.
CATEGORY 2
    Recommendations covering a wide range of important matters where 
action is needed to prevent or reduce further damage or preclude 
possible operational failure of a facility.
    Such recommendations are intended to be acted upon as soon as 
practicable following receipt of the corresponding examination report 
by the operating office or entity. It is desirable that those 
recommendations that can be included, scheduled, and accomplished as 
part of the normal O&M program, be undertaken as soon as weather or 
water conditions allow, to permit quality remedial measures. Some 
recommendations may require a longer time to accomplish because of the 
need to budget funds, complete designs, or secure equipment, material, 
or personnel. In such cases, the related planning and budgeting should 
be initiated in a timely manner.
    Any Category 2 recommendation remaining incomplete at the time of 
the following examination (generally 3 years) will be addressed during 
that examination and within the corresponding examination report.
    Status reports will be provided on these recommendations by the 
responsible Regional Director to the Assistant Commissioner--Resources 
Management, Attention: D-5850, on an annual basis and summarized in the 
Annual Summary Report for the RO&M Program until such recommendations 
are completed.
CATEGORY 3
    Recommendations covering less important maters but believed to be 
sound and beneficial suggestions to improve or enhance the O&M of the 
project or facility.
    Status reports on an annual basis will not be required on these 
recommendations; however, the status of each recommendation will be 
provided in the subsequent examination report. If the recommendation is 
still applicable, a current year designation should be used.
                   description of facilities examined
A. Diversion Structure
    The diversion structure is in good condition. The concrete, gates, 
and screen are in good condition. There is some debris on the inlet 
screen, but does not affect operation of the intake structure.
B. Canal Headwork
    The canal headwork is in good condition. The concrete, painted 
metal, gate valves, and gates are in good condition. The gates have new 
paint and seals and look very good. The sluiceway gate has a minor leak 
of approximately 1-2 cfs.
C. Inlet Canal
    The inlet canal is in fair to good condition. The District is 
preparing to do some additional slope protection above the canal (begun 
in 2005) and has begun to place a soil/debris layer on top of the 
concrete lids to protect the canal from falling rocks during the slope 
scaling.
    Several of the inlet concrete box sections have test linings 
installed and are being evaluated before an extensive repair is 
attempted for the leaking concrete box sections. This is the third and 
final year of the evaluation. There are some random and stress cracks 
and concrete box joints that are leaking. The District has marked the 
locations on the concrete and continues to monitor the leakage.
    The District contracted with Buckhorn Geotech in 2003 to evaluate 
the inlet canal and make recommendations as to repair/replacement 
techniques. A recommendation report was published in February 2004.
    Seepage and subsidence along the canal is generally minimal, both 
have occurred in the past along sections, but conditions appear to be 
stable at the time of the inspection. The slopes above the canal appear 
to be relatively unstable and landslide debris can build up on top of 
the canal or adjacent to it. The District is doing a good job cleaning 
the debris as necessary.
    The new ramp flumes are in good condition. There is none to minor 
silting in the concrete box sections and inlet headwork.
D. Outlet Canal
    The outlet canal section is in good condition with no abnormal 
conditions noted. The joints of the concrete box sections have been 
sealed with Sikaflex. The District has new buoys and cables that they 
will install above the drop structure that flows back to the Mancos 
River.

            MANCOS PROJECT INLET AND OUTLET CANALS--COLORADO
                      CHECKLIST FOR RO&M INSPECTION
------------------------------------------------------------------------
                                                        Data
------------------------------------------------------------------------
OPERATIONS:
    Project Name..........................  Mancos
    Owner.................................  Bureau of Reclamation
    Operating Entity--Reservoir             Mancos Water Conservancy
     Superintendent.                         District (MWCD)--Gary
                                             Kennedy
    Date of Inspection....................  June 19, 2006
    Last RO&M report date.................  June 28, 2005
    Person responsible for RO&M report....  Tom Strain/Jim Rottman/Brad
                                             Dodd, WCD
    Last RO&M report copy on hand?........  Yes
    Attendance at Project.................  Daily during irrigation
                                             season, weekly during rest
                                             of season.
    Ditch operators training (name, date).  Gary Kennedy. Completed Dam
                                             Tenders Training 2006
    Flow..................................  Inlet 19 CFS, Outlet 55 CFS
                                             (June 19, 2006)
OPERATING LOG:
    Maintained at headquarters?...........  Yes
    Maintenance log updated?..............  Yes
SOP/DOC...................................  Included in Jackson Gulch
                                             Dam SOP
    Ditch copies updated?.................  Yes
    How many copies?......................  Three
    Where kept?...........................  Dam tenders residence
COMMUNICATIONS:
    Type(s)...............................  Telephone, Cell Phone
    Normal................................  (970) 533-7325
    Standby...............................  (970) 560-2742 (Gary Kennedy
                                             cell) 560-6513 (cell in
                                             truck) 560-6514 (cell at
                                             power plant)
    Adequacy..............................  Good coverage, Dam tenders
                                             residence
ACCESS ROADS:
    Sufficient access/adequacy............  Generally Adequate--section
                                             of inlet canal access
                                             adjacent to canal failed
                                             several years previous and
                                             is non-existent. Work being
                                             done to provide access
                                             along canal. 1950's
OIL CONTAINMENT:
    SPCC Plan? Last Updated?..............  None
GENERAL OPERATIONS:
    Landslides............................  No new activity--annual
                                             registry--submitted 2005
    Landslide Restricted/Signs............  No--slides monitored
                                             annually, locked gate for
                                             access control
    Underwater inspection.................  None needed
    Weed control program..................  Throughout the season.
DIVERSION STRUCTURE:
    Concrete..............................  Ok
    Rock/Debris waterdrop.................  Ok
    Riprap................................  Ok
    Abutment walls........................  Ok
    Wingwalls.............................  Ok
    Embankments...........................  Ok
    Foundation at downstream toe of         Ok
     structure.
CANAL HEADWORKS:
    Vegetation............................  Ok
    Rock..................................  Ok
    Crest.................................  Ok
    Concrete..............................  Ok
    Gates.................................  Ok
    Coating...............................  Ok
    Hoists................................  New cables.
    Operation.............................  Ok
    Leakage...............................  Ok
    Guardrails............................  Ok
    Sluiceway.............................  Ok--Minor gate leak about 1-
                                             2 cfs
    Outlet channel........................  Ok
    Standby power.........................  Not needed--manual
    Other.................................  None
INLET CANAL:
    Under drains..........................  Ok--where existing
    Detention ponds.......................  N/A
    Subsidence............................  Mostly None--some in areas
                                             of landslide and fill
                                             sections
    Seepage...............................  Ok in general, installed
                                             piezometers in 2003--not
                                             monitored this year--
                                             seepage in some areas where
                                             original earth lining is
                                             missing. Very little noted
                                             during inspection.
    Linings...............................  Ok for age of Project, earth
                                             lining in several areas
                                             needs replaced, concrete
                                             box joints leaking in
                                             several areas.
    Constructed joints....................  Ok overall for age of
                                             Project. In general, the
                                             concrete box sections
                                             joints need attention-
                                             several are leaking.
    Cracking..............................  Random and stress relief
                                             cracking
    Joint sealers.........................  Marginal for most of
                                             concrete box sections--in
                                             some areas, seals have
                                             rusted through.
    Silting...............................  None to minor
    Check Structures......................  Ok
    Structural features...................  Ok
    Measuring flume.......................  Two ramp flumes constructed--
                                             one in canal, one in river--
                                             condition good.
    Silting...............................  None to minor
    Bridge................................  Culvert--Ok
        Deck..............................  Ok--gravel
        Railings..........................  Ok
        Structural features...............  Ok
    Operating roads.......................  Generally graveled, minor
                                             areas are dirt
    Vegetation............................  Ok
    Safety features.......................  Need signage and floats/
                                             buoys above inlet to drop
                                             structure
    Over chute............................  N/A
    Spills................................  Ok
    Siphons...............................  None
    Pipe..................................  Good--restricts flow
    Canal chute concrete lids.............  Ok for project age
    PVC liner.............................  \1/2\ mile D/S of diversion
                                             structures installed 1998--
                                             added on to 1999 added flow
                                             capacity to 120 cfs. Third
                                             and last year of
                                             evaluation.
OUTLET CANAL:
    Under drains..........................  Ok
    Detention ponds.......................  None
    Subsidence............................  Ok
    Seepage...............................  Minor
    Linings (earth).......................  Ok--earth lining may be
                                             missing in some areas
    Constructed joints....................  Ok
    Random cracking.......................  Ok
    Joint sealers.........................  Ok
    Silting...............................  Ok
    Check structures......................  Ok
    Structural features...................  Ok
    Measuring flume.......................  Ok
        Silting...........................  Ok
        Controls..........................  Ok
    Turnouts..............................  Ok
        Gates.............................  Ok
        Structure.........................  Ok
    Bridge................................  Ok--Inspected in 2004
        Deck..............................  Ok
        Railings..........................  Ok
        Structural features...............  Ok
    Operating roads.......................  Ok--water line buried
                                             underneath
    Vegetation............................  Ok
    Safety features.......................  Need signage and floats/
                                             buoys above inlet to drop
                                             structure
    Concrete chute section................  Ok for age of structure
    Canal-cut section.....................  1 mile downstream of dam--
                                             MWCD having problems
                                             maintaining this section.
------------------------------------------------------------------------

    Representative photographs.*
---------------------------------------------------------------------------
    * Photographs have been retained in subcommittee files.
---------------------------------------------------------------------------
                         conclusion and summary
    Overall the District has maintained the facilities in good 
condition. District is preparing the inlet canal for a slope stability 
contractor and has had little time to work on RO&M recommendations this 
spring. As time allows the District will work on them. One new 
recommendation was added concerning the District negotiating with a 
landowner for an easement to the outlet canal drop structure. Report 
prepared by: Tom Strain, Facility Maintenance Group. Approved: Brad 
Dodd, Facility Maintenance Group Chief, WCAO-D.
                                 ______
                                 
                          Kansas Department of Agriculture,
                                         Topeka, KS, July 25, 2007.
Hon. Tim Johnson,
Chairman, Subcommittee on Water and Power, 304 Dirksen Senate Office 
        Building, Washington, DC,
Hon. Bob Corker,
Ranking Member, Subcommittee on Water and Power, 304 Dirksen Senate 
        Office Building, Washington, DC.
RE: Support for H.R. 1025, Republican River Study

    Dear Chairman Johnson and Ranking Member Corker: On behalf of the 
Governors Sub-Cabinet on Natural Resources for the State of Kansas, I 
am writing to express our support for H.R. 1025. This bill authorizes 
the Secretary of the Interior to conduct a study to determine the 
feasibility of implementing a water supply and conservation project to 
improve water supply reliability, increase the capacity of water 
storage, and improve water management efficiency in the Republican 
River Basin between Haman County Lake in Nebraska and Milford Lake in 
Kansas.
    During December 2002, Kansas, Nebraska and Colorado settled their 
litigation in the U.S. Supreme Court regarding the enforcement of the 
Republican River Compact, which the Court affirmed during October 2003. 
The settlement included a commitment by the States and federal 
government to pursue system improvements in the basin, including 
measures that would improve the ability to allow periodic excess waters 
to be made available for later use to supplement existing irrigation 
supplies in Kansas and Nebraska.
    Thus authorizing the study is the first step toward fulfilling an 
important provision of the Republican River Compact Settlement. H.R. 
1025 is supported by all three Compact states, Nebraska, Colorado and 
Kansas.
    Your support of this study will provide an important tool for the 
three Compact states to use as they collectively manage this important, 
interstate water resource.
    If you have any additional questions, please feel free to contact 
me.
            Sincerely,
                                      David Barfield, P.E.,
                                             Acting Chief Engineer.
                                 ______
                                 
                                        Kansas Farm Bureau,
                                      Manhattan, KS, July 26, 2007.
Hon. Ken Salazar,
United States Senator--Colorado, Senate Committee on Energy and Natural 
        Resources, Subcommittee on Water and Power, 304 Dirksen Senate 
        Building, Washington, DC.
RE: HR 1025, Lower Republican River Basin Study Act

    Dear Senator Salazar: I am writing to encourage the support of your 
sub-committee for H.R. 1025. The measure which was authored by U.S. 
Representative Jerry Moran of Kansas would provide for a study of water 
use in the Republican River Basin and could facilitate solutions to 
increased water supply, reliability, storage and management in the 
Lovewell reservoir region.
    This legislation is important to producers in the area for several 
reasons. First, farmers in the Bostwick Irrigation District have long 
faced shortages in their allocations due to drought and over-
appropriation in Nebraska. Secondly, the Republican River alluvial 
aquifer and the landowners in the valley who pump its supply have been 
impacted by the requirements of minimum desirable stream flow resulting 
in administration of nearly 200 water rights over the majority of the 
last 10 to 15 years. Both of these factors have resulted in critical 
shortages of water throughout the region.
    Passage of H.R. 1025 and the authorization of this study is the 
first step toward the creation of additional storage in Lovewell 
Reservoir which could address many of these shortages and provide 
important relief to producers in the area.
    The State of Kansas has held dollars in its budget anticipating 
this study, and the Legislature has considered other measures that 
would set aside potential settlement dollars awarded in water 
litigation with Nebraska to address shortages in the area in an effort 
to be prepared should the Federal Government authorize and fund this 
study by the Department of the Interior.
    I appreciate your consideration of this measure and respectfully 
ask that the sub-committee take favorable action on H.R. 1025. KFB is 
grateful for your support of Kansas agriculture and your effort to 
secure a solid future for irrigators across the state through the 
passage of H.R. 1025. If you have questions, or if I can be of further 
assistance, please do not hesitate to contact me.
            Sincerely,
                                              Steve Baccus,
                                                         President.
                                 ______
                                 
                                   State of Oregon,
                          Theodore R. Kulongoski, Governor,
                                          Salem, OR, June 13, 2007.
Hon. Jeff Bingaman,
Chairman,
Hon. Pete V. Domenici,
Ranking Member,
Senate Energy and Natural Resources Committee, 364 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Senators Bingaman and Domenici: I write again this year to 
offer my full support for reauthorization of the Fisheries Restoration 
and Irrigation Mitigation Act (FRIMA) of 2007. This Act is critical to 
addressing the challenge of protecting fish while meeting farming, 
ranching, hydropower and municipal water needs in the Pacific 
Northwest.
    The Fisheries Restoration and Irrigation Mitigation Act is a highly 
successful voluntary cost-share program, leveraging state and local 
dollars with federal dollars to achieve benefits for fish, with 
implementation through cooperative partnerships among local, state, 
tribal and federal governments and private entities. FRIMA has provided 
funds for fish screen and fishway installations at numerous irrigation 
diversions and dams in Idaho, Montana, Oregon and Washington, and has 
received support from a wide range of constituents as a win-win 
solution for addressing fish protection while meeting the needs of 
water users. Partnerships created serve as models of communication and 
cooperation among the participating or affected entities and agencies.
    With the listing of wild Endangered Species Act (ESA) species of 
salmon and steelhead in the Pacific Northwest, fish screening and 
passage are critical to improving survival and reducing migration 
delay. FRIMA is a cornerstone tool for implementing projects to aid in 
addressing barriers to migration. It is widely accepted that correcting 
fish barrier, diversion and screen problems provides a large benefit to 
the resource in creating fish-friendly projects that minimize 
mortality. Throughout Oregon, the FRIMA Program has been a valuable 
source of funding for improving fish survival at water diversions and 
dams. Numerous partners, including the State of Oregon, have 
contributed significant dollars to this successful cost-share program. 
Species protected in Oregon have included ESA-listed fish such as 
salmon, steelhead, trout and Klamath suckers.
    Each federal FRIMA dollar has been matched by $1.37 in state or 
local dollars. Participants have contributed a total of 58 percent 
toward the cost share, and in addition pay 100 percent of project 
operation and maintenance costs. The FRIMA projects are completed 
quickly because existing state fish screening and passage programs are 
used to implement projects.
    Again, I wholeheartedly support reauthorization of the Fisheries 
Restoration and Irrigation Mitigation Act of 2007, and the necessary 
funding to support its goals. The fisheries resources and water users 
of Oregon and the Pacific Northwest have benefited greatly from this 
program, and it is hoped that those significant benefits will continue 
long into the future.
            Sincerely,
                                    Theodore R. Kulongoski,
                                                          Governor.
                                 ______
                                 
   Project Condition Report of the Mancos Water Conservancy District
                        jackson gulch reservoir
    The Mancos Project has stored and delivered water for domestic, 
agriculture, and recreation uses for over 50 years. It is a vital 
cornerstone underpinning the economy and well-being of an entire 
community and region hosting national historic resources. The 55-year-
old Mancos Project has retained most of its structural integrity and 
functionality. However, restoration and rehabilitation work is needed 
to preserve and protect the project's canal system, the operations and 
maintenance buildings (operations facilities) to extend its working 
life for another 40 or 50 years.
    Aging and gradual deterioration of the canal system, increasing 
maintenance costs, and a history of delivery interruptions caused by 
landslides and rockfall incidents, have seriously jeopardized the life 
expectancy and reliability of the entire canal system. Since Jackson 
Gulch Reservoir supplies municipal water to Mesa Verde National Park 
(419,662 visitors in 2003--the eleven year average annual visitation is 
591,660 visitors), the Town of Mancos, and the Mancos Rural Water 
Company, the continued viability of the canal system is critically 
important to the region.
    Recognizing the burden of their responsibility, the Mancos Water 
Conservancy District entered into a contract with Buckhorn Geotech, 
Inc. on September 18, 2003, to conduct a thorough assessment and 
evaluation of the condition of the canal system and identify 
restoration and rehabilitation work necessary to extend the life of the 
canal system, improve access and operational efficiency, protect 
against catastrophic losses, and assure dependable water delivery.
    The assessment and evaluation of the Jackson Gulch canal system and 
operations facilities has identified significant catastrophic problems 
in the form of concrete aging and deterioration, structural distress, 
hydraulic constrictions, access limitations, and risks from geologic 
hazards.
    The intention of this project is to preserve and protect 4.9 miles 
of the canal system and associated operations facilities (workshop/dam 
tenders residence/public office). Only the areas with problems of the 
highest priority have been addressed in this proposal.
    This is a federal project--title is held by the federal government. 
The Mancos Water Conservancy District is taking a proactive stand to 
protect the federal interest and extend the productive life of the 
Mancos Project facilities. Unfortunately, a project of this magnitude 
is beyond the financial capability of the population of the District.
    The Jackson Gulch Reservoir system consists of an off-line storage 
reservoir located in Jackson Gulch, which is a deep gulch with very 
little tributary drainage. The reservoir functions by diverting water 
from the West Mancos River and transporting it to the reservoir via an 
Inlet Canal. The stored water is used as a domestic water supply for 
Mesa Verde National Park, the Town of Mancos, and the Mancos Rural 
Water Company, hydroelectric generation, and irrigation. The domestic 
water supply is processed through a treatment plant located just below 
the reservoir. Water mains feeding the distribution systems are buried 
beneath the access road that parallels the Outlet Canal. Released water 
that is not diverted for consumption is returned to the West Mancos 
River at the end of the Outlet Canal.
    Water diversion from river to canal begins as soon as snow pack 
begins to melt. During this time, six weeks of maximum capacity flow to 
fill the reservoir, the canal is the most vulnerable and frequent 
inspections are made around the clock. The three greatest threats to 
the canal at this time are:

          1) Maximum flow--the canal is running the maximum amount 
        water it can carry.
          2) Landslide action above or below the canal due to spring 
        thaw, rain and saturated soil, combined with maximum flow.
          3) Rock damage due to spring thaw and rain combined with 
        maximum flow.

    The dam tender can decrease the first threat--the others are not 
controllable.
    Deterioration and erosion of retaining walls built in 1943-1948 has 
resulted in the loss of 2,000 feet of access road to the middle section 
of the canal. A failure of the canal especially at this point would 
have catastrophic consequences, especially during the spring run-off.
    The Buckhorn Geotech, Inc. report of February, 2004 has 
``identified significant problems in the form of concrete aging and 
deterioration, structural distress, hydraulic constrictions, access 
limitations, and risks from geologic hazards'' for the entire 4.9 miles 
of canal.
    The federal operations facilities were constructed in 1941 by the 
Civilian Conservation Corp as the temporary construction offices. After 
completion of the project (1952), the offices were modified into the 
present operations facilities (workshop/dam tenders residence/public 
office). Due to the nature of their construction, purpose, and age (63 
years); rehabilitation and/or modernization of these buildings is cost 
prohibitive.
    These structures suffer from increasing wood rot and concrete 
deterioration. They lack reinforcement in the concrete floor and 
foundation. They are non-compliant with any United Building Codes.
    Title to the Project is held by the federal government. It is time 
to look toward the future and protect the existing federal interest; 
but in order to move forward with the restoration/rehabilitation of 
these operations facilities, appropriation is essential.
    Evaluations show that aging and deterioration are jeopardizing the 
future reliability of the project. Buckhorn Geotech, Inc. has 
determined that rehabilitation is one-third less costly than 
replacement. Continuing emergency management places a greater financial 
burden on the local economy and threatens the Project. As a result, the 
Board of Directors of the Mancos Water Conservancy District is taking a 
proactive stance to restore and rehabilitate the operations facilities 
securing it for the future generations. Loss of any of the Project's 
operations facilities is NOT an option.
    The principal findings are as follows:

  <bullet> 53% of the joints in the northern concrete bench flume 
        section have experienced serious deterioration as have 46% of 
        the joints in the southern concrete bench flume section. This 
        deterioration is causing reduced structural integrity and 
        seepage losses.
  <bullet> 106 instances of concrete blowouts have been recorded in the 
        concrete bench flume sections. These blowouts are gaps in and 
        around the joints indicative of stress induced failure and 
        deterioration of the concrete.
  <bullet> Excessive lateral pressures from uphill slope failures, 
        rockfall, soil creep, and debris flows have pushed sections of 
        the concrete bench flume laterally, caused walls to be 
        displaced, and created numerous stress cracks in the walls. 
        Pressures in 320 linear feet of the concrete bench flume are 
        approaching the ultimate load capacity of the walls and some 
        wall sections are in danger of collapsing inward.
  <bullet> Hundreds of cubic yards of rockfall and colluvial debris 
        have accumulated atop the concrete bench flume. This debris may 
        be in excess of the safe load capacity of the lids. Additional 
        loading or rockfall impacts could cause the lids to collapse.
  <bullet> 7000 square feet of the flume floor have experienced scour 
        and damage from freezing of ponded water during winter periods.
  <bullet> Seepage from leaking flume joints has contributed to slope 
        instability problems resulting in loss of support in some areas 
        along the base of the flume.
  <bullet> Landslides have removed a large section of the access road 
        alongside the flume so that approximately 2000 linear feet of 
        canal cannot be accessed for maintenance purposes. Any failure 
        of the flume within this section would result in a prolonged 
        shutdown of the canal with severe consequences to Mesa Verde 
        National Park, the Town of Mancos, Mancos Rural Water Company 
        and the many farms and families that depend on this water 
        source.
  <bullet> Seepage losses in the vicinity of a previously damaged 
        section of the canal have contributed to activation of a 
        landslide below the canal. This landslide is actively moving 
        and its headwall is migrating uphill towards the canal. If this 
        seepage is not arrested quickly, a portion of the canal could 
        slide into the lower canyon.
  <bullet> The canal system has been found to have two flow 
        constrictions that are limiting its hydraulic capacity to only 
        58% of the District's diversion entitlement. These 
        constrictions restrict operational flexibility and the ability 
        to optimize storage during times of uncertain supply.
  <bullet> Weak geologic formations and weathering of the steep canyon 
        walls above the canal have created rockfall hazards. Fourteen 
        hundred and five (1,405) linear feet of the canal system are 
        exposed to high to moderate rockfall hazard. Rockfalls have 
        destroyed sections of the canal in the past. Thirteen patches 
        in the concrete walls were noted in the upper flume section 
        alone indicating that, on average, this section of flume is 
        damaged about every four years by impact from rockfall. If this 
        hazard is not mitigated, pending rockfall events can be 
        expected to take the canal out of service at any time.
  <bullet> Twenty slope failure features have been identified along the 
        canal route. If these features are not de-watered, buttressed 
        or otherwise stabilized, the canal will be subjected to 
        continuous risk of damage, loss of service, and extensive 
        maintenance problems.
  <bullet> A section of the earthen canal is subject to seepage losses 
        that are adversely affecting the stability of a large landslide 
        area downslope of the canal as well as the soil materials 
        supporting the foundation of the Mancos Rural Water Company's 
        treatment plant. Any significant movement of the hillside below 
        the canal could result in rupture of the domestic water lines 
        buried beneath the access road. Such rupture would terminate 
        water flow to the Mesa Verde National Park, the Town of Mancos, 
        and the Mancos Rural Water Company.
  <bullet> Unconventional (temporary) building (operations facilities) 
        construction method does not conform to any uniform building 
        code.
  <bullet> Deterioration of concrete by displacement and stress-cracks 
        to the foundations and floors has weakened the structural 
        integrity of the buildings also allowing uncontrollable 
        seasonal flooding.
  <bullet> The buildings do not comply to any building code and can not 
        be made to comply.
  <bullet> Existing heating system does not comply with current code 
        and will require extensive remodel to replace.
  <bullet> American Disability Act standards are not compatible with 
        existing structural deficiencies.
  <bullet> The buildings are not energy efficient nor do they meet snow 
        load capabilities for Colorado.

    A detailed description of recommendations for restoration and 
rehabilitation of the canal system is given in the final report 
submitted by Buckhorn Geotech, Inc. These recommendations will restore 
the integrity of the canal system, protect against catastrophic loss, 
restore the hydraulic capacity, and extend the life of the Jackson 
Gulch canal system and operations facilities by another 40 or 50 years.
    The significant components include the following:

  <bullet> Rehabilitate concrete blowouts, scoured floors, and damaged 
        joints within the concrete bench flumes, apply a waterproof 
        synthetic liner over sides and floor of the flume, and apply a 
        protective coating of gunnite concrete.
  <bullet> Restore a uniform grade within the earthen canal, dress side 
        slopes, and apply a buffered synthetic liner to eliminate 
        seepage loss, prevent slope instability, and reduce maintenance 
        costs.
  <bullet> Eliminate hydraulic flow constrictions by removing a bridge 
        and installing a 600-foot length of elliptical concrete pipe to 
        increase flow capacity, eliminate seepage losses, improve 
        drainage, and buttress an unstable slope.
  <bullet> Salvage an existing corrugated metal pipe and reuse it, 
        along with additional piping, to provide a 300-foot long double 
        pipe to replace a section of the earthen canal. This pipe 
        section will stop seepage losses, improve drainage, and 
        stabilize an area of active landslide.
  <bullet> Install drilled tie-back anchors into the hillside where 
        additional protection from earth pressures and landslides is 
        needed to preserve stability and prevent collapse of the flume 
        walls.
  <bullet> Remove excessive overburden to prevent lid collapse while 
        placing a wedge of soil over unprotected lid sections to 
        provide mitigation against potential rockfall impacts.
  <bullet> Restore access along a 2000-foot length of canal by 
        anchoring a retaining wall into the narrow canyon wall for 
        restoration of a lost roadway section.
  <bullet> Install a 24-inch diameter HDPE pipeline to run alongside 
        the canal for use during low-flow periods so that the 
        construction season can be greatly expanded, winter water can 
        be utilized to augment seasonal runoff, and to provide an 
        opportunity for hydroelectric power generation.
  <bullet> Rehabilitate the drop chute, prevent seepage losses, and 
        eliminate a severe safety hazard by laying a 42-inch diameter 
        welded steel pipe inside the existing concrete chute.
  <bullet> There is no method of remodel of the buildings that would be 
        any less expensive or any more efficient than total 
        replacement.

    Restoration of both concrete flumes, including concrete patching, 
flume lining, slope stabilization, rockfall mitigation, and access 
retaining walls is approximately $180 per linear foot. Whereas, the 
cost to build new flumes would be approximately $525 per linear foot, 
which does not include removal of the old flume, slope stabilization, 
rockfall mitigation, or access retaining walls.
    The estimated cost to rehabilitate 5,040 feet of earthen canal is 
approximately $150 per linear foot. This includes canal lining, piping 
900 feet, slope stability improvements, and bridge replacement.
    By using this method of rehabilitation for the canal system, we 
will be able to preserve the historical integrity of the original 
project.
    In preparation of the rehabilitation as described, the Board of 
Directors requested an increase to the District's mill levy of 5 mills. 
The measure passed by a comfortable margin. The increase raised the 
original mill levy of 1.5 mills to 6.5 mills. This enables the District 
to provide the 20% cost share without interfering with the operations 
and maintenance budget.
    In March of 2006, the District received a request to increase the 
Project's M&I water allocation due to increased development within our 
boundaries.
                                 ______
                                 
     Statement of Kenneth Nelson, Superintendent, Kansas Bostwick 
                          Irrigation District
    Chairman Bingaman and Senator Domenici, I am Kenneth Nelson, 
Superintendent of the Kansas Bostwick Irrigation District, which 
delivers water to 42,500 acres from the Republican River in Republic 
and Jewell Counties of Kansas. We provide irrigation water to 350 
irrigators and provide economic support to this portion of North 
Central Kansas, which is vital to keeping rural America alive. Many 
other users such as recreation, municipal, industrial users and other 
irrigators benefit from the Republican River as well.
    This district strongly supports H.R. 1025 which would authorize the 
Secretary of Interior to conduct a feasibility study of the Republican 
River to improve river management. The Republican River is vital not 
only to Kansas Bostwick but also to all down stream communities in 
Kansas who receive support from the River flows. The Republican River 
is controlled by a three state compact involving Kansas, Nebraska, and 
Colorado. There is much controversy over shortages and sharing of 
flows. This district as well as all other irrigation districts on the 
Republican have experienced shortages and in some cases no useable 
supply for several years now. The future of the River and especially 
Kansas share of the flows will depend upon our ability to plan and move 
forward with conservation and management plans improving the efficiency 
of the river.
    There is a wide range of improvements to consider and prioritize on 
the Republican. Possibilities include increased storage, canal lining, 
automation, vegetation control, flow management and many more. Every 
opportunity for improvement needs to be explored giving us the 
opportunity to make the best possible improvements in a timely manner.
    The States are struggling with compact compliance at this time. 
This study is absolutely necessary to move forward with river 
management to avoid conflict. Without the study, no lasting solutions 
will be reached and state versus state conflict will result. We have 
the opportunity to identify and work towards lasting solutions on the 
Republican and need to take action as soon as possible.
    It goes without saying that water issues will be paramount to our 
future. Please pass H.R. 1025 at the earliest possible opportunity. I 
appreciate this opportunity to comment.
                                 ______
                                 
 Statement of Willl Lutgen, Jr., Executive Director, Northwest Public 
                           Power Association
    Chairman Salazar, I am writing on behalf of the Northwest Public 
Power Association (NWPPA) to express support for S. 1258, a bill to 
amend the Reclamation Safety of Dams Act of 1978 to authorize 
improvements for the security of dams and other facilities. We are 
pleased that the Subcommittee is holding a hearing on this important 
piece of legislation.
    NWPPA is a non-profit association of approximately 150 public/
people's utility districts, electric cooperatives, municipalities and 
crown corporations in the Western states--including Alaska, Arizona, 
California, Idaho, Montana, Nevada, South Dakota, Oregon, Utah, 
Washington and Wyoming--and in Canada. NWPPA also serves the sales and 
networking needs of over 200 Associate Members across the U.S. and 
Canada who are allied with the electric utility industry.
    The Bonneville Power Administration's (BPA's) rates are affected by 
many factors, including drought, fish and wildlife obligations and 
contracts with the direct service industries and we have been working 
hard in the Northwest to control those costs. As stewards of the public 
trust, we are also working to make sure that the cost of the Bureau of 
Reclamation's (Reclamation) enhanced security measures at Grand Coulee 
Dam, which also affect our rates, receive congressional scrutiny and 
are fair to our ratepayers.
    We are concerned that currently there are no cost controls, 
authorization ceiling, sunset date, or congressionally-approved 
parameters to limit or control the amount of money Reclamation can 
spend for increased security. Year after year, power customers are 
being asked to pay a disproportionate share of the costs, despite the 
fact that Congress continues to include report language in 
appropriations bills recognizing that all project beneficiaries benefit 
and stating that it wants more transparency in what Reclamation is 
spending its money on.
    NWPPA members believe in being responsible stewards of the 
facilities and for paying their fair share of the costs. We are not 
seeking to circumvent our responsibilities. However, we firmly believe 
that the burden our power customers are being asked to shoulder for 
these national security, counter-terrorism measures is above and beyond 
normal operation and maintenance functions. For these reasons, NWPPA 
strongly supports S. 1258.
    Once again, we appreciate the subcommittee considering this bill 
and look forward to working with you and your staff as it advances.
                                 ______
                                 
                  Association of California Water Agencies,
                                     Washington, DC, July 23, 2007.
Senator Jon Kyl,
U.S. Senate, 730 Hart Senate Office Building, Washington, DC,
Senator Dianne Feinstein,
U.S. Senate, 331 Hart Senate Office Building, Washington, DC.
    Dear Senators Kyl and Feinstein: The Association of California 
Water Agencies (ACWA) is pleased to support your S. 300, the Lower 
Colorado River Multi-Species Conservation Program Act. ACWA's 447 
public agency members are collectively responsible for 90 percent of 
the water delivered in our state for residential and agricultural 
purposes.
    The LCR MSCP provides for the restoration of over 8,000 acres of 
riverside habitat for bird and terrestrial species, a vigorous fish 
augmentation effort for endangered fish species, maintenance of 
existing, high quality habitat, and a research, monitoring and adaptive 
management effort to ensure that program elements arc effective in 
helping covered species. Further, the program provides a basis for 
compliance with the requirements of the Endangered Species Act by the 
federal and non-federal entities involved in continuing water and power 
operations on the Lower Colorado River.
    ACWA supports your efforts to codify the Multi-Species Conservation 
program (MSCP) and advance and enhance the goals of the program as it 
was developed. Codification of the MSCP will establish a means for 
integration of ecological needs and water management on the lower 
Colorado River.
    Again, ACWA is pleased to support S. 300, and working together with 
our members statewide, will encourage the rest of the Congress to do 
the same. Please do not hesitate to contact our office if we can be of 
any assistance to you.
            Sincerely,
                                         David L. Reynolds,
                                     Director of Federal Relations.
                                 ______
                                 
          United States Department of the Interior,
              Bureau of Reclamation, Upper Colorado Region,
                            Grand Junction, CO, September 23, 2003.
Mr. Todd Sehnert,
President, Mancos Water Conservancy District, 42888 CR N, Mancos, CO.
Subject: 2003 Review of Operation and Maintenance Associated Facilities 
Examination for the Mancos Project Inlet and Outlet Canal System, 
Mancos Project, Colorado

    Dear Mr. Sehnert: Enclosed is the 2003 annual Mancos Project Review 
of Operation and Maintenance (RO&M) Associated Facilities Report for 
the Inlet and Outlet Canal System. Please review the report and note 
the current status of our RO&M recommendations. The next associated 
facilities inspection will be in 2004.
    We appreciate the continued cooperation of the Mancos Water 
Conservancy District, Mr. Gary Kennedy and his interest in protecting 
the future and integrity of Jackson Gulch Inlet and Outlet Canals.
    If you have any questions concerning this report, please contact 
Jim Rottman.
            Sincerely,
                                                 Brad Dodd,
                                 Chief, Facility Maintenance Group.
Attachment.--Bureau of Reclamation Review of Operation and Maintenance 
                                Program
                              definitions
    Inspections of Bureau of Reclamation (Reclamation) project 
facilities are conducted under the Review of Operation and Maintenance 
(RO&M) Program. O&M issues noted during the RO&M inspection are 
assigned a Category 1, 2, or 3, based upon the severity of the problem. 
The following definitions (revised May 1993) apply to all levels of 
Reclamation RO&M inspections:
CATEGORY 1
    Recommendations involving the correction of severe deficiencies 
where immediate and responsive action is required to ensure structural 
safety and operational integrity of a facility.
    Based on the severity of the deficiency and the condition of the 
structure/facility at the time of the examination, the examination team 
will mutually prescribe an appropriate time frame for completion of the 
recommendation. Suggested remedial measures will be discussed at the 
time of the examination and included in the examination report. Within 
30 days following preparation or receipt (depending on office 
conducting the examination) of the examination report containing a 
Category 1 recommendation, the responsible Regional Directory will 
notify all concerned offices (i.e., Commissioner, Attention: W-6500 and 
W-6600, and Assistant Commissioner--Resources Management, Attention: D-
5620 and D-5850) of the operating office or entity's plan for 
accomplishing the work and a schedule completion date.
    Status reports will be provided by the responsible Regional 
Director to all concerned offices every 6 months (January 1 and July 1) 
until the recommendation is completed. Progress made on its completion 
will be reported in the Annual Summary Report for the RO&M Program.
CATEGORY 2
    Recommendations covering a wide range of important matters where 
action is needed to prevent or reduce further damage or preclude 
possible operational failure of a facility.
    Such recommendations are intended to be acted upon as soon as 
practicable following receipt of the corresponding examination report 
by the operating office or entity. It is desirable that those 
recommendations that can be included, scheduled, and accomplished as 
part of the normal O&M program, be undertaken as soon as weather or 
water conditions allow, to permit quality remedial measures. Some 
recommendations may require a longer time to accomplish because of the 
need to budget funds, complete designs, or secure equipment, material, 
or personnel. In such cases, the related planning and budgeting should 
be initiated in a timely manner.
    Any Category 2 recommendation remaining incomplete at the time of 
the following examination (generally 3 years) will be addressed during 
that examination and within the corresponding examination report.
    Status reports will be provided on these recommendations by the 
responsible Regional Director to the Assistant Commissioner--Resources 
Management, Attention: D-5850, on an annual basis and summarized in the 
Annual Summary Report for the RO&M Program until such recommendations 
are completed.
CATEGORY 3
    Recommendations covering less important maters but believed to be 
sound and beneficial suggestions to improve or enhance the O&M of the 
project or facility.
    Status reports on an annual basis will not be required on these 
recommendations; however, the status of each recommendation will be 
provided in the subsequent examination report. If the recommendation is 
still applicable, a current year designation should be used.
             mancos project inlet & outlet canals--colorado
                      2003 annual ro&m inspection
    The inspection of the Mancos Project Inlet and Outlet Canal System 
was conducted on July 29, 2003, as required under the RO&M Program, 
Reclamation Manual, Directives and Standards, FAC-01-04. The 
cooperation and assistance provided by Mancos Water Conservancy 
District (MWCD) personnel in conducting the review are appreciated.
    The following personnel attended the inspection: Gary Kennedy, 
Reservoir Superintendent, MWCD; Brad Dodd, BOR, Facility Maintenance 
Group Chief, WCD; Jim Rottman, BOR, Facility Maintenance Group, WCD.
    Results of the inspection are summarized on the enclosed checklist. 
A summary of the relevant RO&M recommendations, with estimated 
completion dates, is also enclosed.
                  key findings of the 2003 inspection
          1. The Mancos Water Conservancy District completed two 
        outstanding Category 2 RO&M recommendations, 1990-2-A and 1990-
        2-B. New seals were installed on both intake radial gates at 
        the headworks and new cables were installed. Both gates were 
        cleaned and painted.
          2. The district has acquired a loan authorization and issued 
        a ``request for proposals'' for repair work on the inlet canal.
          3. One new Category 2 Recommendation is the installation of 
        buoy lines above the inlet and outlet canal major drop 
        structures.

            MANCOS PROJECT INLET AND OUTLET CANALS--COLORADO
                      CHECKLIST FOR RO&M INSPECTION
------------------------------------------------------------------------
                                                        Data
------------------------------------------------------------------------
OPERATIONS:
    Project Name..........................  Mancos
    Owner.................................  Bureau of Reclamation
    Operating Entity--Reservoir             Mancos Water Conservancy
     Superintendent.                         District (MWCD)--Gary
                                             Kennedy
    Date of Inspection....................  07/29/03
    Last RO&M report date.................  08/01/00
    Person responsible for RO&M report....  Jim Rottman, WCD
    Last RO&M report copy on hand?........  yes
    Attendance at Project.................  Daily during irrigation
                                             season, weekly during rest
                                             of season.
    Ditch operators training (name, date).  ............................
    Flow..................................  7\1/2\ cfs
OPERATING LOG:
    Maintained at headquarters?...........  Yes
    Maintenance log updated?..............  Yes
SOP/DOC...................................  Included in SOP
    Ditch copies updated?.................  See Jackson Gulch Dam 07/29/
                                             03 inspection
    How many copies?......................  See Jackson Gulch Dam 07/29/
                                             03 inspection
    Where kept?...........................  See Jackson Gulch Dam 07/29/
                                             03 inspection
COMMUNICATIONS............................  See Jackson Gulch Dam 07/29/
                                             03 inspection
    Type(s)...............................  See Jackson Gulch Dam 07/29/
                                             03 inspection
    Normal................................  See Jackson Gulch Dam 07/29/
                                             03 inspection
    Standby...............................  See Jackson Gulch Dam 07/29/
                                             03 inspection
    Adequacy..............................  See Jackson Gulch Dam 07/29/
                                             03 inspection
ACCESS ROADS..............................  Adequate
    Sufficient access/adequacy............  OK
OIL CONTAINMENT:
    SPCC Plan? Last Updated?..............  None
    Landslides............................  No new activity--annual
                                             registry--submitted 2003
    Landslide Restricted/Signs............  No
    Underwater inspection.................  None needed
    Weed control program..................  Throughout the season -
DIVERSION STRUCTURE:
    Concrete..............................  Ok
    Rock/Debris waterdrop.................  Ok
    Riprap................................  Ok
    Abutment walls........................  Ok
    Wingwalls.............................  Ok
    Embankments...........................  Ok
    Foundation at downstream toe of         Ok
     structure.
    Leakage (Gates).......................  Ok
    Embankments...........................  Ok
    Upstream..............................  Ok
    Vegetation............................  Ok
    Riprap................................  Ok
    Downstream............................  Ok
    Vegetation............................  Ok
    Rock..................................  Ok
    Crest.................................  Ok
    Canal headworks.......................  Ok
    Concrete..............................  Ok
    Gates.................................  New Paint and seals.
    Coating...............................  Ok
    Hoists................................  New cables.
    Operation.............................  Ok
    Leakage...............................  Ok
    Fish facilities.......................  N/A
    Guardrails............................  Ok
    Outlet channel........................  Ok
    Control structures....................  Ok
    Sluiceway.............................  Ok
    Concrete..............................  Ok
    Hoists and cables.....................  New cables
    Operation.............................  Ok
    Leakage...............................  Ok
    Handrails.............................  Ok
    Approach channel......................  Ok
    Outlet channel........................  Ok
    Standby power.........................  Not needed
    Other.................................  ............................
INLET CANAL:
    Under drains..........................  Ok
    Detention ponds.......................  N/A
    Subsidence............................  None
    Seepage...............................  Ok
    Linings...............................  Ok
    Constructed joints....................  Ok
    Random cracking.......................  None
    Joint sealers.........................  Ok
    Silting...............................  None
    Inlet checks..........................  Ok
    Structural features...................  Ok
    Measuring flume.......................  Ok
    Silting...............................  None
    Controls..............................  Ok
    Turnouts..............................  None
    Gates.................................  Ok
    Structure.............................  Ok
    Bridge................................  Culvert--ok
    Deck..................................  Ok--gravel
    Railings..............................  Ok
    Structural features...................  Ok
    Operating roads.......................  Graveled
    Vegetation............................  Ok
    Safety features.......................  Ok
    Over chute............................  N/A
    Spills................................  Ok
    Siphons...............................  ............................
    Pipe..................................  6\1/2\ foot diameter
                                             installed 1996--good
    Canal chute concrete lids.............  Ok
    PVC liner.............................  \1/2\ mile D/S of diversion
                                             structures installed 1998--
                                             added on to 1999 added flow
                                             capacity to 120 cfs.
OUTLET CANAL:
    Under drains..........................  Ok
    Detention ponds.......................  Ok
    Subsidence............................  Ok
    Seepage...............................  Ok
    Linings...............................  Ok
    Constructed joints....................  Ok
    Random cracking.......................  Ok
    Joint sealers.........................  Ok
    Silting...............................  Ok
    Check structures......................  N/A
    Structural features...................  Ok
    Measuring flume.......................  Ok
    Silting...............................  Ok
    Controls..............................  Ok
    Turnouts..............................  Ok
    Gates.................................  Ok
    Structure.............................  Ok
    Bridge................................  Ok
    Deck..................................  Ok
    Railings..............................  Ok
    Structural features...................  Ok
    Operating roads.......................  Ok--water line buried
                                             undeneath
    Vegetation............................  Ok
    Safety features.......................  Ok
    Concrete chute section................  Ok
    Cut section...........................  1 mile downstream of dam--
                                             MWCD having problems
                                             maintaining this section.
------------------------------------------------------------------------


                                                          MANCOS PROJECT CANAL SYSTEM--COLORADO
                                                         RO&M RECOMMENDATIONS--SUMMARY OF STATUS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Estimated Completion    Actual Completion      Originated by
              Number                      Description                   Status                   Date                  Date                (office)
--------------------------------------------------------------------------------------------------------------------------------------------------------
1990-2-A.........................  Adjust or replace bottom   Complete.................  Per 1996 Status       2001................  Area
                                    seal on radial gate at                                Report: Scheduled
                                    headworks (Region).                                   fall 2001.
1990-2-B.........................  Clean and paint new        Complete. New cables were  New scheduled date    2001................  Area
                                    headworks radial gate      added on both radial       fall.
                                    located 400 feet           gates.
                                    upstream of old radial
                                    gate and also clean and
                                    paint old radial gate
                                    (Region).
2003-I-A.........................  Install buoy lines above   New......................  2004................  ....................  Area
                                    major drop structures.
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Report prepared by: Jim Rottman, Facility Maintenance Group. 
Approved: Brad Dodd, Chief, Facility Maintenance Group; Ed Warner, 
Resources Management Division Manager.
                                 ______
                                 
 Statement of James Shetler, Assistant General Manager, Energy Supply, 
                 Sacramento Municipal Utility District
                              introduction
    My name is James Shetler. I am the assistant General Manager of 
Energy Supply for the Sacramento Municipal Utility District (SMUD). I 
am responsible for overseeing the purchase and sales of the District's 
gas and electric commodities, the reliability of the transmission 
system, and the District's electric generating facilities. This 
testimony is being submitted in support of S. 1258, which SMUD believes 
will provide a fair and reasonable allocation of reimbursable costs and 
authorize effective congressional oversight of the Bureau of 
Reclamation's (Reclamation's) site security program.
    SMUD is the largest single power purchase contractor from 
Reclamation's Central Valley Project (CVP), buying 31 percent of the 
CVP's power output under a 20 year contract with the Western Area Power 
Administration (Western) at cost-based rates.
    SMUD strongly supports S. 1258, legislation to amend the 
Reclamation Safety of Dams Act of 1978 in order to authorize 
improvements for the security of dams and other facilities.
                       the central valley project
    Congress originally authorized the CVP in 1935 for flood control, 
navigation, the development of hydroelectric power, irrigation and 
municipal and industrial water supply; protection of the Sacramento-San 
Joaquin River Delta from seawater encroachment; and the protection and 
enhancement of fish and wildlife. The project was constructed from 1939 
to 1979.
    California's Central Valley Basin includes two major watersheds, 
the Sacramento River on the north and the San Joaquin River on the 
south, plus the Tulare Lake Basin. The combined watersheds extend 
nearly 500 miles from northwest to southeast and range from about 60 to 
100 miles wide.
    The Central Valley Project extends from the Cascade Range in the 
north to the semi-arid but fertile plains along the Kern River in the 
south. The CVP serves farms, homes, and industry in California's 
Central Valley as well as major urban centers in the San Francisco Bay 
Area; it is also the primary source of water for much of California's 
wetlands. In addition to delivering water for farms, homes, factories, 
and the environment, the CVP produces electric power and provides flood 
protection, navigation, recreation, and water quality benefits. It is 
truly a multiple-purpose project.
    The CVP power facilities, which include 11 power plants, now have 
an installed capacity of 2006 MW, and generate 4,500,000 MWh in an 
average hydrologic year. The power generated by CVP powerplants is used 
to pump over three million acre feet of water per year to Central 
Valley farms, but also to municipal and industrial users in Northern 
and Central California. The remaining 80 percent of the generation is 
sold by Western under long-term power contracts to over 80 not-for-
profit consumer-owned utilities and government agencies at cost-based 
rates, pursuant to Reclamation law.
                 site security costs for cvp facilities
    Following the September 11, 2001 terrorist attacks, Reclamation 
initiated an aggressive program to protect its dams against terrorist 
attacks. Based on World War II precedent and internal legal analysis by 
the Department of the Interior, the Commissioner of Reclamation in 
April 2002 issued an administrative determination that the costs of 
increased security measures should be a federal obligation, non-
reimbursable by project beneficiaries. Beginning in Fiscal Year 2005, 
however, Reclamation began a process to assign a significant portion of 
the security costs to water and power customers. While Reclamation's 
long-term proposal for the allocation of security costs is unclear, the 
current allocation schedule is for water and power to cover 90% of the 
annual O&M security costs. It is recognized that new capital projects 
installed to bolster post-911 security measures are currently not 
treated as reimbursable costs; however, a concern exists that 
replacement of these facilities will be treated as reimbursable costs. 
Such replacement costs eventually would dwarf the annual reimbursable 
O&M costs.
    SMUD and many all other water and power customers believe that the 
CVP water and power customers should not be required to bear the lion's 
share of the costs associated with these increased security measures. 
To do so would be a deviation from historical precedent, whereby such 
special security costs in the past were treated as non-reimbursable 
costs. SMUD is concerned that Reclamation will continue to assign the 
vast majority of costs to the water and power users, even though other 
project beneficiaries, like flood control beneficiaries, face the 
greater risk resulting from security threats to Reclamation facilities. 
The CVP water and power customers are also concerned with the lack of 
cost controls in place on the security program, and its lack of 
transparency.
    SMUD endorses S. 1258 because it contains an express authorization 
of the site security program, as part of Reclamation's Safety of Dams 
program; it applies the existing Safety of Dams Act 15 percent cost 
share to water and power users for all site security costs, including 
capital and O&M costs; and, it establishes a requirement that 
Reclamation report annually to Congress on site security activities.
    The Reclamation Safety of Dams program was first authorized in 
1978. It authorized modifications needed as a result of new hydrologic 
or seismic information or changes in state of the art dam technology. 
The enhanced security measures undertaken by Reclamation following the 
September 11, 2001 events were the result of new information about the 
potential for terrorist attacks on vital dams and related facilities. 
Therefore, we believe that the site security program fits nicely into 
the existing policy and legal framework of the Safety of Dams program.
    We also think that the proposed 15 percent cost share assigned to 
the water and power customers is reasonable, appropriate, and fair. 
This cost-sharing formula, which was added to the Safety of Dams 
program in 1984, has been reaffirmed by Congress since then. The 
remaining 85 percent of site security costs would remain a non-
reimbursable, federal obligation.
    Reclamation has proceeded to expand and implement its reimbursable 
site security cost plan, and SMUD is concerned that the costs down the 
road could be much higher. Given that the multi-purpose federal dams 
benefit a host of stakeholders and the general public, not just water 
and power customers, we believe that allowing Reclamation to have free 
rein to implement security measures, and at the same time requiring 
that the water and power customers be responsible for reimbursement of 
the majority of these costs, is not reasonable, nor equitable. SMUD 
strongly supports S. 1258, as it would provide a ceiling on the amount 
of reimbursable security costs that would be borne by this subset of 
beneficiaries, and it would therefore keep costs manageable for the 
water and power users and provide needed certainty for budget 
management and future planning activities. As capital intensive not-
for-profit electric utilities strive to manage their costs, plan for 
future growth, and address increasing complex regulatory and 
environmental issues, this type of certainty is essential.
    Finally, I wish to thank the Committee for adding my testimony to 
the hearing record on S. 1258, and for considering the information and 
concerns provided therein.
                                 ______
                                 
Statement of Susan Bitter Smith, President, Board of Directors, Central 
                  Arizona Water Colnservation District
s. 300, the lower colorado river multi-species conservation program act
    I am pleased to present this statement on behalf of the Central 
Arizona Water Conservation District (``CAWCD'') in support of S. 300, 
the Lower Colorado River Multi-Species Conservation Program Act. S. 300 
protects and implements the Lower Colorado River Multi-Species 
Conservation Program (``MSCP''). The MSCP is a comprehensive, 
cooperative effort among 50 federal and non-federal entities in 
Arizona, California and Nevada to protect 26 endangered, threatened and 
sensitive species along the Lower Colorado River and to provide 
assurances to the non-federal entities involved that their essential 
water and power operations on the River may continue if they comply 
with the Program's requirements. The participants in the Program 
include The Metropolitan Water District of Southern California, the 
Southern Nevada Water Authority and the Central Arizona Project.
    CAWCD is the Arizona political subdivision responsible for 
operating the Central Arizona Project (``CAP''), and is the underwriter 
of Arizona's share of the costs of the MSCP. The CAP is a massive water 
delivery project, constructed under the authority of the Colorado River 
Basin Project Act of 1968, to enable Arizona to make full use of its 
Colorado River entitlement. In a normal water supply year, the CAP will 
deliver about 1.5 million acre-feet of Colorado River water to the 
citizens of Arizona, at the rate of 3,000 cubic feet of water per 
second, almost two billion gallons per day. The CAP is the largest 
single source of renewable water supplies in the State of Arizona, 
serving 80 percent of the State's water users and taxpayers, including 
the Phoenix and Tucson metropolitan areas.
    CAWCD strongly supports S. 300 because the bill assures continued 
compliance by the United States with the requirements of the MSCP. 
That, in turn, provides protection to the non-federal participants in 
the Program, who, like CAWCD, have agreed to provide substantial 
amounts of non-federal monies for the conservation of endangered 
species in return for receiving a permit under the Endangered Species 
Act for their water and power operations.
    The Secretary of the Interior approved this 50-year conservation 
initiative on April 2, 2005. The overall Program costs, $626 million, 
will be adjusted for inflation, with the three lower basin states 
paying 50 percent of the costs and the federal government paying 50 
percent. Of the states' share, Arizona and Nevada will each pay 25 
percent, while California will pay 50 percent. In return for their 
funding commitments, the non-federal participants have received a 50-
year permit, issued by the U.S. Fish and Wildlife Service under Section 
10 of the Endangered Species Act, which authorizes their existing and 
future water and power operations to continue. All of the Arizona 
participants have made a financial commitment to the MSCP, but CAWCD 
has agreed to guarantee payment of Arizona's share of the Program 
costs.
    Although the MSCP is already in effect, this bipartisan legislation 
has been introduced by Senators Jon Kyl, Dianne Feinstein, Harry Reid 
and John Ensign to protect the substantial financial commitments that 
the non-federal parties are making to species protection. The bill 
specifically authorizes federal appropriations to cover the federal 
share of the Program costs, directs the Interior Secretary to manage 
and implement the Program in accordance with the underlying Program 
Documents, and provides a waiver of sovereign immunity to allow the 
non-federal parties to enforce the agreements they have entered into 
with the federal agencies, should that become necessary. The bill does 
not allow money damages.
    A companion bill has been introduced in the House (H.R. 2515) by 
Congressman Dean Heller of Nevada, that is cosponsored by Congressmen 
Harry Mitchell, Trent Franks, John Shadegg and Rick Renzi of Arizona, 
Congressman Jon Porter and Congresswoman Shelley Berkley of Nevada, and 
Congressmen Ken Calvert and George Radanovich of California. Since the 
time that similar legislation was introduced last year, two significant 
developments have occurred. First, subject to final review and approval 
within the Interior Department, the non-federal parties have reached 
agreement with the United States on an agreement to provide Colorado 
River water for MSCP purposes, as authorized by Section 3(b) of the 
bill. Second, Section 5(b) of the bill, which relates to the impact of 
future legislative actions on the MSCP, has been modified and narrowed 
significantly to meet the concerns of some members.
    The MSCP is a worthy and important program for protection of 
endangered species. It provides for the creation of over 8,100 acres of 
riparian, marsh and backwater habitat for the species covered by the 
Program, and includes plans for the rearing and stocking of over 1.2 
million fish to augment populations of two endangered fish covered by 
the Program. The MSCP also provides for maintenance of existing, high-
quality habitat, and a research, monitoring and adaptive management 
effort to ensure that Program elements are effective in helping covered 
species. At the White House Conference on Cooperative Conservation in 
August 2005, the MSCP was recognized as an ``Exemplary Initiative.'' 
Implementation of the MSCP is critical to the long term needs of those 
of us in the southwest that depend on the Lower Colorado River for a 
major portion of their water and power. As the Secretary said in her 
Record of Decision approving the Program----

          The importance of the Colorado River to the southwestern 
        portion of the United States cannot be overstated: the Colorado 
        is the lifeblood of the southwest. The Colorado River provides 
        water and power to over 20 million people (in such cities as 
        Los Angeles, San Diego, Las Vegas, Phoenix and Tucson), 
        irrigates over 2 million acres, and generates up to 10 billion 
        kilowatt hours of electricity annually.

    The MSCP represents a fifty-year commitment by all of the parties 
involved. It is essential that that commitment be fully and faithfully 
met. S. 300 will help ensure that that occurs.
                                 ______
                                 
                               Western Business Roundtable,
                                         Golden, CO, July 25, 2007.
Senator Tim Johnson,
Chairman, Senate Energy Committee, Subcommittee on Energy and Water, 
        304 Dirksen Senate Building, Washington, DC.
    Dear Chairman Johnson: I am writing, on behalf of the Western 
Business Roundtable's diverse membership, to express our support for S. 
1258, legislation amending the Reclamation Safety of Dams Act of 1978 
to address current inequities in security cost allocations.
    Your Subcommittee colleague Senator Maria Cantwell (WA) is lead 
sponsor of this bipartisan legislation. She is joined in this effort by 
other Western Senators: Senator Wyden (OR), Senator Gordon Smith (OR), 
Senator Orrin Hatch (UT) and Senator Wayne Allard (CO).
    The Bureau of Reclamation (``Reclamation'') is the nation's largest 
wholesale water supplier with a large inventory of water resources 
infrastructure. The inventory includes five National Critical 
Infrastructure (NCI) facilities, and 471 dams and appurtenant 
facilities which could threaten the public if they were to fail. The 
inventory also includes 58 hydroelectric power plants which generate 42 
billion kilowatt hours annually. Reclamation's reservoirs have a 
capacity of 245 million acre feet of storage which is enough to serve 
31 million people and 10 million farm land acres.
    State, local and project roads, as well as water and land-based 
recreation activities, bring the public in close proximity to these 
dams and power plants. Ensuring the security of these federal 
facilities is of utmost importance to all citizens of the United 
States.
    S. 1258 provides the necessary Congressional oversight and cost-
sharing for expenditures made to prevent and deter threats to 
employees, visitors and vital facilities and infrastructure, as well as 
detect impeding danger before attacks or incidents occur. Without this 
oversight and cost-sharing, Western power purchasers and consumers bear 
a disproportionate brunt of the costs of these important security 
measures.
    On behalf of the many member organizations of the Western Business 
Roundtable, thank you for giving attention to this issue, so important 
to the West. We urge you to move S. 1258 forward and looking forward to 
working with you in that regard.
            Sincerely,
                                                  Jim Sims,
                                                 President and CEO.
                                 ______
                                 
           Washington Public Utility Districts Association,
                                        Seattle, WA, July 23, 2007.
Hon. Ken Salazar,
Acting Chairman, Senate Energy and Natural Resources Subcommittee on 
        Water and Power, United States Senate, 304 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Chairman Salazar: On behalf of the Washington Public Utility 
Districts Association (WPUDA), I would like to express support for S. 
1258, a bill to amend the Reclamation Safety of Dams Act of 1978 to 
authorize improvements for the security of dams and other facilities.
    WPUDA represents 28 nonprofit, community-owned utilities that 
provide utility services including electricity, water, sewer and 
wholesale telecommunications to over 1.7 million people in the state of 
Washington.
    We agree with the premise of the legislation: the U.S. Bureau of 
Reclamation's (Reclamation) costly and non-transparent record of 
administering the enhanced dam security program warrants a more 
reasonable cost-sharing formula, greater customer involvement and 
congressional oversight. We agree that it is important for Reclamation 
to protect these critical projects; however, Reclamation's projects are 
multi-purpose federal facilities that serve a wide range of public 
purposes, including flood control, recreation, fish and wildlife, water 
supply, power generation and others, and the burden of paying for post-
9/11 enhanced security measures should not be borne solely by the water 
and power ratepayers. The water and power users are willing to pay a 
fair share, but the remainder should be paid for by other 
beneficiaries--or by the federal government, if it chooses not to 
create mechanisms to recover costs from the non-paying functions.
    In the Northwest, we have been working hard to control the 
Bonneville Power Administration's (BPA's) costs. BPA's electric rates 
are affected by many factors, including drought, fish and wildlife 
obligations and contracts with the direct service industries. As 
stewards of the public trust, we are trying hard to make sure that the 
cost of the Bureau's enhanced security measures at Grand Coulee Dam, 
which also affect our rates, receive close congressional scrutiny and 
are fair to our ratepayers.
    WPUDA supports this legislation because we believe it helps to 
address our concerns about the lack of cost controls, authorization 
ceiling, sunset date, and congressionally-approved parameters to limit 
or control the amount of money Reclamation can spend for increased 
security. We are not seeking to circumvent our responsibilities; 
however, we firmly believe that the burden our power customers are 
being asked to shoulder for these counter-terrorism measures are above 
and beyond normal operation and maintenance functions.
    Thank you for your leadership in holding a hearing on this very 
important issue. We look forward to working with you and your staff as 
the legislation advances.
            Sincerely,
                                             Steve Johnson,
                                                Executive Director.
                                 ______
                                 
 Statement of Gerald R. Zimmerman, Executive Director, Colorado River 
                          Board of California
s. 300, the lower colorado river multi-species conservation program act
    Thank you for providing the Colorado River Board of California 
(CRB) the opportunity to submit written testimony for the hearing 
record regarding S. 300. As the subcommittee is aware, S. 300 
authorizes appropriations associated with long-term implementation the 
Lower Colorado River Multi-Species Conservation Program (``LCR MSCP''). 
The LCR MSCP is a comprehensive, cooperative effort among fifty federal 
and non-federal entities in Arizona, California and Nevada to protect 
26 endangered, threatened and sensitive species along the Lower 
Colorado River and to provide assurances to the non-federal entities 
involved that their essential water and power operations on the River 
may continue if they comply with the Program's requirements and 
agreements.
    As background, I am the Executive Director of the CRB; and I served 
as the Chairman of the LCR MSCP Steering Committee throughout the 
program-development phase and the first two years of the implementation 
phase. The CRB is the agency in California created by State statute to 
protect California's rights and interests in the resources provided by 
the Colorado River and to represent California in discussions and 
negotiations regarding the Colorado River and its management. 
California's rights and interests in the water and power resources of 
the Colorado River System are vital to the State's economy. Seven 
counties in Southern California, with more than half of the state's 
population, nearly 20 million residents, receive water and 
hydroelectric energy from the Colorado River, in support of a service 
area economy in excess of $850 billion per year. All ten members on the 
Colorado River Board of California are appointed by the Governor.
    It should be pointed out that in a normal water year California is 
entitled to the use of up to 4.4 million acre-feet of water from the 
mainstream of the Colorado River. This valuable water supply is 
utilized by several large southern California agricultural districts, 
as well as The Metropolitan Water District of Southern California, the 
wholesale distributor of water supplies to municipal providers that 
meet the needs of nearly 18 million residents in Southern California.
    The CRB strongly supports S. 300, because this legislation, if 
passed, assures continued compliance by the United States with the 
program documents and agreements that have been developed as part of 
the LCR MSCP. That, in turn, provides protection to the non-federal 
participants in the Program, who like the CRB, its member agencies, and 
all of the Colorado River water and hydroelectric power contractors, 
have agreed to provide substantial amounts of non-federal monies for 
the conservation of endangered species in order to receive an 
incidental take permit under the terms of the Endangered Species Act 
for their continued water and power operations.
    On April 2, 2005, Secretary of the Department of the Interior, Gale 
A. Norton, approved this major collaborative and innovative 50-year 
conservation initiative. The overall Program costs, $626 million, will 
be annually adjusted for inflation, and will be shared by the three 
lower basin states paying 50 percent of the costs and the federal 
government paying 50 percent. Of the states' share, Arizona and Nevada 
will each pay 25 percent, while California will pay the remaining 50 
percent. In return for their funding commitments, the non-federal 
participants have received a 50-year incidental take permit, issued by 
the U.S. Fish and Wildlife Service under Section 10 of the Endangered 
Species Act, which authorizes their existing and future water and power 
operations to continue. All of the California participants have made a 
significant long-term financial commitment toward the implementation of 
the LCR MSCP that has been memorialized in a California LCR MSCP 
Funding Agreement, executed on April 2, 2005.
    From California's perspective, S. 300, as written, provides several 
key elements that are important toward ensuring the long-term effective 
implementation of this important Program. First S. 300 provides an 
authorization of appropriations for the federal share of Program costs 
and directs the Secretary of the Interior to manage and implement the 
Program in accordance with the executed Program Documents and 
Agreements. These documents and agreements, executed by all of the 
federal and non-federal parties reflect the long-term commitment to 
implement this important Program through 2055. California believes 
that, through this legislation, it is important that the Congress 
formally recognize the value of the Program to the citizens of the 
United States and the overarching responsibilities that the Secretary 
of the Interior and the Bureau of Reclamation (Reclamation) have toward 
long-term Program implementation.
    Second, S. 300 establishes a process for the Secretary of the 
Interior and Reclamation to acquire and provide adequate water supplies 
associated with the restoration and maintenance of habitats created 
pursuant to the Program documents. In these times of limited water 
supplies in the Lower Basin States, this process will allow for the 
creation and maintenance of the 8,132 acres of aquatic, wetland, and 
riparian habitats within the Program planning area along the Lower 
Colorado River, and yet ensure that lawful entitlement holders in the 
three states can continue to manage and effectively utilize their 
important Colorado River apportionments over the fifty-year period. 
Specifically, there is language in S. 300 ensuring that the habitat 
water acquisition and use policies established by the Secretary of the 
Interior will not impair any right to mainstream water established 
under any compact, treaty, law, decree, or contract in effect as of 
enactment of this Act.
    Third, S. 300 acknowledges that a long-term cooperative effort, 
involving the federal and non-federal Program participants, will be 
required in order to successfully implement this Program over the 
fifty-year period. This will be accomplished through periodic meetings 
of the LCR MSCP Steering Committee and Reclamation's LCR MSCP Office 
staff. These meetings, several of which have occurred since inception 
of Program implementation in April 2005, are the primary focal point 
for decision-making regarding the preparation and adoption of annual 
work plans, budgets, and Program implementation status reports. It is 
in the Steering Committee where consensus-based decisions will be made 
associated with the results of ongoing monitoring and research 
activities and the utilization of adaptive management in suggesting 
modifications to implementation activities based upon the best 
available science.
    Finally, since the time that similar legislation was introduced in 
2006, two significant developments have occurred. First, subject to 
final review and approval within the Department of the Interior, the 
parties have reached agreement with the United States on an agreement 
to provide Colorado River water for LCR MSCP habitat restoration and 
maintenance purposes, as authorized by Section 3(b) of the bill. 
Second, Section 5(b) of the bill, which relates to the impact of future 
legislative actions on the LCR MSCP, has been modified and narrowed to 
meet the concerns of some members. Both of these sections are essential 
elements of the legislation.
    California is fully committed to carrying out its responsibilities 
toward long-term implementation of the LCR MSCP over the fifty-year 
period, and looks forward to working with representatives and agencies 
within the States of Arizona and Nevada, as well as the participating 
federal agencies in carrying out those goals and meeting our collective 
obligations. Toward this end, California believes that S. 300 is of 
vital importance to all of the LCR MSCP participants committed to the 
Program's success. California urges the Subcommittee and the Committee, 
as well as the full House to approve this important legislation.
    It is worth noting that at the White House Conference on 
Cooperative Conservation in August 2005, in St. Louis, Missouri, the 
LCR MSCP was recognized by the Administration as an ``Exemplary 
Initiative.'' Implementation of the LCR MSCP is critical to the long-
term needs of those in the southwest that depend on the Lower Colorado 
River for a major portion of their water and power resources. As 
Secretary Norton said in her April 2005 Record of Decision approving 
the Program:

          The importance of the Colorado River to the southwestern 
        portion of the United States cannot be overstated: the Colorado 
        is the lifeblood of the southwest. The Colorado River provides 
        water and power to over 20 million people (in such cities as 
        Los Angeles, San Diego, Las Vegas, Phoenix and Tucson), 
        irrigates over 2 million acres, and generates up to 10 billion 
        kilowatt hours of electricity annually.

    The LCR MSCP represents a fifty-year commitment by all of the 
parties involved. It is essential that this commitment be fully and 
faithfully met. Passage of S. 300 will help ensure that this occurs and 
is considered by the CRB to be very important in protecting 
California's long-term interests and rights in the water and power 
resources of the Colorado River System. Again, thank you for the 
opportunity to have this statement included in the hearing record.
                                 ______
                                 
        Report From the Oregon Department of Fish and Wildlife*
---------------------------------------------------------------------------
    * Photos have been retained in subcommittee files.
---------------------------------------------------------------------------
                   Fish Screening and Passage Program
               frima funding status as of april 27, 2007
                                summary
    The FRIMA Program is a valuable source of funding for improving 
fish survival at water diversions and dams throughout Oregon. These 
federal matching funds along with state and local resources have 
resulted in the installation of fish screens at water diversions and 
will ensure future fish passage at dams.
    The Oregon Department of Fish and Wildlife appreciates efforts 
taken to increase this valuable funding for installing fish protection 
devices.
    Total FRIMA funding received by Oregon 2002-2006.--$3,229,903.
    Total Matching partner contributions (includes estimated projects 
under construction).--$7,883,102.
Species Benefited
            ESA-listed species
  <bullet> Coho salmon
  <bullet> Steelhead
  <bullet> Short nose suckers
  <bullet> Lost River suckers
  <bullet> Lamprey
  <bullet> Warner suckers
Other Species
  <bullet> Redband trout
  <bullet> Cutthroat trout
  <bullet> Misc. native fish
                             frima projects
 central oregon irrigation district, swalley irrigation district, and 
                   lone pine irrigation district (id)
Description
    This joint fish screening project involves two fish screens that 
are operated by three Irrigation Districts: Central Oregon ID, Swalley 
ID, and Lone Pine ID. The diversions are in the Deschutes River in the 
Deschutes River Basin. The redhand trout support a recreational 
fishery.
Species Benefited
    Redband trout and other native species.
Partners
    Central Oregon ID, Swalley ID, and Lone Pine ID.
Funding
  <bullet> FRIMA.--$274,950.
  <bullet> Match.--$148,842.
  <bullet> Total.--$423,792.
Completed
    July 2004.
                    eagle point irrigation district
Description
    The District operates a combined irrigation and hydroelectric water 
diversion in South Fork Big Butte Creek in the Rogue River Basin. Two 
fish screens and one fishway were installed. Benefits include 
protection for migratory fish, restoration of access to spawning and 
rearing areas and enhancement of important commercial and recreational 
fisheries.
Species Benefited
    ESA-listed coho salmon and steelhead, as well as native cutthroat 
trout.
Partners
    Eagle Point Irrigation District.
Funding
  <bullet> FRIMA.--$306,800.
  <bullet> Match.--$178,818.
  <bullet> Total.--$485,618.
Completed
    March 2004.
                  lakeshore gardens drainage district
Description
    The Lakeshore Gardens Drainage District operates an irrigation 
diversion in Upper Klamath Lake near Klamath Falls. A fish screen was 
installed. Suckers are a culturally important fish to local tribes and 
the redband trout support a recreational fishery.
Species Benefited
    ESA-listed shortnose and Lost River suckers, as well as redband 
trout.
Partners
    Lakeshore Gardens Drainage District.
Funding
  <bullet> FRIMA.--$19,971.
  <bullet> Match.--$10,754.
  <bullet> Total.--$30,725.
Completed
    December 2004.
                            lost and boulder
Description
    The Lost and Boulder Ditch Improvement District operates an 
irrigation diversion in Boulder Creek in the Deschutes River Basin. A 
new fish screen and fishway have been installeld in the White River 
Basin. Eight miles have been made accessible to fish.
Species Benefited
    A genetically unique stock of redband trout.
Partners
    Lost and Boulder Ditch Improvement District
Funding
  <bullet> FRIMA.--$61,084.
  <bullet> Match.--$53,834.
  <bullet> Total.--$114,918.
Completed
    November 2005.
          medford irrigation district north fork little butte
Description
    The Medford Irrigation District operates an irrigation water 
diversion in the North Fork of Little Butte Creek in the Rogue River 
Basin. A fish screen and fishway have been installed. Benefits include 
protection for migratory fish, restoration of access to spawning and 
rearing areas and enhancement of important commercial and recreational 
fisheries. Ten miles of additional excellent habitat have been made 
accessible to fish.
Species Benefited
    ESA-listed coho salmon, as well as steelhead and native cutthroat 
trout.
Partners
    Medford ID and Rogue River ID.
Funding, Phase 1, Engineering (X1D7)
  <bullet> FRIMA.--$163,200.
  <bullet> Match.--$101,500.
  <bullet> Total.--$264,700.
Funding, Phase 2, Construction (X1D8)
  <bullet> FRIMA.--$324,800.
  <bullet> Match.--$229,819.
  <bullet> Total.--$554,619.
Total Funding
  <bullet> FRIMA.--$488,000.
  <bullet> Match.--$331,319.
  <bullet> Total.--$819,319.
Completed
  <bullet> June 2005.
          medford irrigation district south fork little butte
Description
    The Medford Irrigation District operates an irrigation diversion in 
the South Fork of Little Butte Creek in the Rogue River Basin. The fish 
screen and fishway have been installed. Benefits include protection for 
migratory fish, restoration of access to spawning and rearing areas and 
enhancement of important commercial and recreational fisheries. 25 
miles of habitat were made accessible to fish.
Species Benefited
    ESA-listed coho salmon as well as steelhead and trout.
Partners
    Medford Irrigation District, Rogue River Irrigation District.
Funding
  <bullet> FRIMA.--$397,000.
  <bullet> Match.--$280,131.
  <bullet> Total.--$677,131.
Completed
    September 2004.
                          odfw inventory--2002
Description
            Comprehensive Barrier Database Development Project
    This project combined ODFW natural and artificial passage barriers 
database into one system that included existing barrier information 
from other agencies and entities. Resulting information is available 
and accessible through the ODFW website. ODFW is working with the 
Oregon Fish Passage Task Force to come up with a conceptual approach to 
prioritize barrier replacement efforts.
            Wood River Water Diversions and Fish Screens Assessment
    Water diversions were surveyed in the Wood River--Agency Lake Sub-
basin (Wood River, Annie Creek, Sun Creek, Sevenmile Creek, Fort Creek, 
and Crooked Creek) in the Klamath River Basin for screening status. The 
ongoing assessment includes screening needs, estimated screening costs, 
location maps, and screening priorities.
            Little Butte Creek Diversions and Screens Assessment
    Eleven Water diversions with fish screens were surveyed in Little 
Butte Creek in the Rogue River Basin. The fish screens are old and out-
of-criteria, so screen replacement was assessed. Landowners were 
contacted and willing to participate in screens replacement. Screen 
locations were mapped using GIS.
Funding
  <bullet> FRIMA.--$44,181.
  <bullet> Match.--$68,666.
  <bullet> Total.--$112,347.
Completed
    September 2004.
                      running y ranch, geary canal
Description
    The Geary Canal is an irrigation diversion in Upper Klamath Lake. 
Screen site analysis and roadwork were completed. Suckers are a 
culturally important fish to local tribes. The redband trout support a 
recreational fishery.
Species Benefited
    ESA-listed shortnose and Lost River suckers as well as redband 
trout.
Partners
    Running Y Ranch and Wocus Drainage District.
Funding
  <bullet> FRIMA.--$37,870.
  <bullet> Match.--$88,365.
  <bullet> Total.--$126,235.
FRIMA portion completed
    September 2006.
                     santiam water control district
Description
    The Santiam Water Control District operates a combined irrigation, 
municipal and hydroelectric water diversion in the North Santiam River 
in the Willamette River Basin. This 1,050 cfs diversion was the largest 
unscreened diversion in Oregon. A fish screen has been installed. A 
tailrace barrier was also installed at the diversion irrigation canal 
outfall into the river to prevent fish from swimming upstream into the 
canal. Benefits include protection for migrating fish and enhancement 
of important commercial and recreational fisheries.
Species Benefited
    ESA-listed chinook salmon, steelhead and Oregon Chub as well as who 
salmon and cutthroat trout.
Partners
    Santiam Water Control District, City of Stayton and Marion Soil and 
Water Conservation District.
Funding
  <bullet> FR1MA.--$400,000.
  <bullet> Match.--$1,284,261.
  <bullet> Total.--$1,684,261.
Completed
    September 2004.
                         tumalo bend feed canal
Description
    The Tumalo Irrigation District operates an irrigation diversion in 
the Deschutes River in the Deschutes River Basin. The redband trout 
support a recreational fishery.
Species Benefited
    Redband trout and other native species.
Partners
    Tumalo Irrigation District.
Funding
  <bullet> FRIMA.--$40,000.
  <bullet> Match.--$62,982.
  <bullet> Total.--$102,982.
Completed
    June 2005.
                    upper bennett dam, city of salem
Description
    The City of Salem operates Upper Bennett Dam, a large dam in the 
North Santiam River in the Willamette River Basin. The existing fishway 
needed significant improvement in passing fish upstream. Benefits 
include improved access for fish to more than 100 miles of natural 
production habitat and the enhancement of important commercial and 
recreational fisheries.
Species Benefited
    ESA-listed chinook salmon and steelhead, as well as coho salmon and 
cutthroat trout.
Partners
    City of Salem.
Funding
  <bullet> FRIMA.--$250,000.
  <bullet> Match.--$1,210,080.
  <bullet> Total.--$1,460,080.
Completed
    December 2005.
                           red house fishway
Description
    Fish passage was blocked by the Red House diversion dam on the 
Chewaucan River in Southeastern Oregon. Redband out spawn and rear in 
the river, and grow to adult size in the river's end reservoir, which 
is adjacent to the terminal Abert Lake. Three major diversion dams 
blocked fish passage on the Chewaucan River. Fish ladders were provided 
at these three dams. A pool and weir fish ladder was constructed for 
the Red House dam. More than 82 miles of good spawning and rearing 
habitat for redbird trout is now accessible.
Species Benefited
    Redband trout and other native species.
Partners
    ZX Ranch, Lakeview Soil and Water Conservation District.
Funding
  <bullet> FRIMA.--$97,660.
  <bullet> Match.--$223,251.
  <bullet> Total.--$320,910.
Completed
    February 2006.
                               oak creek
Description
    This project will remove an existing, unused sheet pile diversion 
dam in Oak Creek, tributary to Marys River in the Willamette Basin. The 
dam poses a passage barrier to ESA-listed and other fish. Dam removal 
will open access to 1.3 miles of fish habitat.
Species Benefited
    ESA-listed spring chinook salmon, cutthroat trout, lamprey and 
other native species.
Partners
    City of Corvallis, Willamette Restoration Initiative.
Estimated Funding
  <bullet> FRIMA.--$23,087.
  <bullet> Match.--$12,434.
  <bullet> Total.--$35,521.
Completion
    September 2007.
                 north unit irrigation district (nuid)
Description
    NUID built a large 153 cfs pumping station in 1968 on the Crooked 
River to provide irrigation water. Each pump has a screened bay. The 
old 9 rotary drum screens mesh, shafts and gaskets are deteriorating. 
The screens mesh is compromised and also has 0.25" openings that are 
too large to meet fish screening criteria. Bull trout are federally 
listed as threatened under the Endangered Species Act (ESA). The 
Crooked River historically supported anadromous chinook salmon, 
steelhead, and Pacific lamprey. Chinook salmon and steelhead are 
proposed for re-introduction into the Crooked River and the upper 
Deschutes River in 2006. Resultant salmonid smolts will migrate 
downstream through a planned device at Round Butte Dam. A single self-
cleaning vertical plate screen should be installed in June 2008 to 
protect these fish.
Species Benefited
    Redband trout, bull trout, mountain whitefish and other species.
Partners
    NUID.
Estimated Funding
  <bullet> FRIMA.--$282,586.
  <bullet> Match.--$287,000.
  <bullet> Total.--$569,586.
Completion
    June 2008.
                       lacomb irrigation district
Description
    Lacomb Irrigation District (ID) has a large diversion (65 cfs) for 
irrigation and hydroelectric generation in Crabtree Creek, which flows 
into the South Santiam River. The existing rotary drum fish screen is 
deteriorated. The screen mesh is compromised in places and has openings 
too large to meet fish screening criteria. Chinook salmon and steelhead 
are federally ESA-listed. A horizontal perforated plate screen should 
be installed in October 2007 to protect these fish.
Species Benefited
    Chinook salmon (spring), steelhead (winter), cutthroat trout and 
other fish species.
Partners
    Lacomb, ID.
Estimated Funding
  <bullet> FRIMA.--$161,175.
  <bullet> Match.--$87,325.
  <bullet> Total.--$248,500.
Completion
    October 2007.
                      city of sumpter, fish screen
Description
    The City of Sumpter has a 5 cfs gravity diversion for domestic 
water. The diversion is in the McCully Fork of the Powder River at 
Sumpter in northeastern Oregon. An additional fish passage project is 
planned at the diversion site. A horizontal perforated plate screen 
will be installed.
Species Benefited
    ESA-listed bull trout and redband trout.
Partners
    City of Sumpter.
Funding
  <bullet> FRIMA.--$32,100.
  <bullet> Match.--$39,690.
  <bullet> Total.--$71,790.
Completion
    September 2007.
                        city of sumpter, fishway
Description
    The City of Sumpter has a diversion dam for providing domestic 
water. This project will replace an existing diversion dam by 
installing a fishway comprised of multiple full-spanning rock weirs and 
a re-built stream channel, in conjunction with a separate project for a 
fish screen, at an existing diversion on the McCully Fork of the Powder 
River in Northeastern Oregon. Providing a fishway and fish passage will 
benefit fish species and help stabilize the channel. Removal of the 
barrier will provide access to approximately 13.2 miles of stream above 
the site.
Species Benefited
    Redband trout and ESA-listed bull trout.
Partners
    City of Sumpter.
Funding
  <bullet> FRIMA.--$25,608.
  <bullet> Match.--$15,280.
  <bullet> Total.--$40,888.
Completion
    September 2007.
                            o'keeffe/cleland
Description
    The O'Keeffe/Cleland unscreened diversion takes 25 cfs of 
irrigation water from Deep Creek in the Warner Valley Basin near the 
town of Adel. Deep Creek flows into Crump Lake, one of many lakes in 
the Warner Valley in Lake County in southeastern Oregon. The new fish 
screen will enhance the survival of ESA-listed species. The new triple 
bay self-cleaning rotary drum screen array should be constructed and 
installed during September 2007.
Species Benefited
    ESA-listed Warner Suckers and resident redband trout.
Partners
    O'Keeffe, Cleland (landowners).
Funding
  <bullet> FRIMA.--$44,856.
  <bullet> Match.--$35,010.
  <bullet> Total.--$152,786.
Completion
    September 2007.
             tumalo irrigation district, tumalo feed ladder
Description
    Tumalo Irrigation District has a diversion dam for irrigation 
water. This project will replace an existing, non-compliant fish ladder 
with a new fish ladder, in conjunction with a separate project for a 
fish screen, at an existing irrigation diversion on Tumalo Creek in the 
Deschutes River Basin in central Oregon. The fish passage will open up 
the entire upper 12 miles of Tumalo Creek, making it accessible.
Species Benefited
    Redband trout.
Partners
    Tumalo ID.
Funding
  <bullet> FRIMA.--$100,000.
  <bullet> Match.--$150,000.
  <bullet> Total.--$250,000.
Completion
    September 2008.
                                 ______
                                 
                         Mancos Water Conservancy District,
                                                     July 17, 2007.
    To whom it may concern: The Mancos Valley, located in southwest 
Colorado, is basically high desert with approximately twenty inches of 
precipitation annually. Agriculture has always been a major industry, 
which here means irrigation.
    Irrigation in the Mancos Valley comes from the Mancos River and its 
tributaries. Most years the river's summer flows are far from adequate 
for commercial production; therefore, the United States, in cooperation 
with the Valley, constructed the Mancos Project in the 1940s.
    The Mancos Project stores Mancos River water during times of high 
flow for use during our crop season. The project is truly the lifeblood 
of the Mancos Valley, providing water for irrigation and water for 
homes and businesses. I cannot overstate the importance of this project 
to the valley.
    Although the project was well designed, it has surpassed the design 
life of some of the structures. The Mancos Water Conservancy District 
(operator) has practiced diligence in maintaining the project, yet the 
project is now in serious need of major rehabilitation.
    This rehabilitation is beyond the resources of the District and the 
irrigators in the valley. The District and the irrigators are certainly 
willing to do what we are able, we do, however, need help.
    Our farmers (irrigators) are struggling to survive (myself 
included). WE are between the proverbial rock and the hard place. On 
the one hand, we cannot survive without the Mancos Project on the other 
hand, we cannot pay for the rehabilitation of the project from our own 
resources.
            Thank you for your time,
                                                  Dee Graf,
                                                         President.

                                    

      

</pre></body></html>
